<html>
<title> - PREVENTING CHILD ABUSE AND IMPROVING RESPONSES TO FAMILIES IN CRISIS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  PREVENTING CHILD ABUSE AND IMPROVING RESPONSES TO FAMILIES IN CRISIS
=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, NOVEMBER 5, 2009

                               __________

                           Serial No. 111-38

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
53-040                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Barrett Karr, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
Judy Chu, California                 Glenn Thompson, Pennsylvania
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 5, 2009.................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Report from the National Network to End Domestic 
              Violence...........................................    51
            Report, ``Meeting Survivors' Needs: A Multi-State 
              Study of Domestic Violence Shelter Experiences,'' 
              Internet address to................................    64
            2007 series of AP articles on child sex abuses.......    64
            Cates, Sheryl, chief executive officer, National 
              Domestic Violence Hotline, prepared statement of...    98
            The Child Welfare League of America (CWLA), prepared 
              statement of.......................................    98
            The Family Violence Prevention Fund, prepared 
              statement of.......................................   103
            The National Association of Public Child Welfare 
              Administrators, prepared statement of..............   108
            The National Network to End Domestic Violence 
              (NNEDV), prepared statement of.....................   110
            Melmed, Matthew, executive director, Zero to Three, 
              prepared statement of..............................   115
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities...........     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Hammond, Rodney, Ph.D., Director, Division of Violence 
      Prevention, National Center for Injury Prevention & 
      Control, Centers for Disease Control & Prevention, U.S. 
      Department of Health and Human Services....................     6
        Prepared statement of....................................     8
    Kaplan, Caren, MSW, director of child protection reform, 
      American Humane Association................................    16
        Prepared statement of....................................    19
    Oliva, Sandra, executive director, Nassau County Coalition 
      Against Domestic Violence..................................    23
        Prepared statement of....................................    25
    Sawyer, Robert Quinn, MSW, LICSW, Olmsted County Child and 
      Family Services............................................    35
        Prepared statement of....................................    37
    Smith, Teresa M., LSW, coordinator executive director, 
      Children's Advocacy Center.................................    32
        Prepared statement of....................................    34
    Spigner, Carol Wilson, DSW, Kenneth L.M. Pray professor, 
      University of Pennsylvania School of Social Policy and 
      Practice...................................................    12
        Prepared statement of....................................    14


  PREVENTING CHILD ABUSE AND IMPROVING RESPONSES TO FAMILIES IN CRISIS

                              ----------                              


                       Thursday, November 5, 2009

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Tonko, Chu, Platts, 
Guthrie, and Roe.
    Also Present: Representatives Woolsey and Moore.
    Staff Present: Tylease Alli, Hearing Clerk; Calla Brown, 
Staff Assistant, Education; Adrienne Dunbar, Education Policy 
Advisor; Ruth Friedman, Senior Education Policy Advisor (Early 
Childhood); David Hartzler, Systems Administrator; Fred Jones, 
Staff Assistant, Education; Joe Novotny, Chief Clerk; 
Alexandria Ruiz, Administration Assistant to Director of 
Education Policy; Melissa Salmanowitz, Press Secretary; Kim 
Zarish-Becknell, Policy Advisor, Subcommittee on Healthy 
Families and Communities; Stephanie Arras, Minority Legislative 
Assistant; Alexa Marrero, Minority Communications Director; 
Ryan Murphy, Minority Press Secretary; Susan Ross, Minority 
Director of Education and Human Services Policy; Mandy 
Schaumburg, Minority Education Counsel; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy. Good morning. I would like to welcome 
our witnesses to this hearing. Today, we are dealing with a 
very difficult and upsetting subject--abuse and neglect--and we 
know sometimes, unfortunately, it results in fatalities. We 
will hear from witnesses on how to improve response for and 
prevent violence and abuse in families in crisis. Abuse, 
neglect, and fatalities are of significant social concerns in 
our Nation.
    The official number of children killed from abuse or 
neglect nationwide in 2007 is 1,760. In 2001, the total was 
1,300. Three-quarters of the fatalities are children under 
four.
    As a nurse for over 30 years, I have seen firsthand the 
risks and illnesses that can result due to abuse and neglect. 
We know that children who experience abuse or neglect and 
children that witness abuse have their sense of security, 
trust, and safety shaken to the core. Studies have shown that 
young children are more likely to be reported as victims. In 
fact, of all cases, the maltreatment rate for infants was 21 
percent. For children ages one to three it was 13 percent.
    The majority of child victims experience neglect. In fact, 
more than 60 percent of the children who come to the attention 
of child welfare authorities are victims of neglect. They are 
victims of acts of omission in terms of their care, in terms of 
their well-being. Sometimes these instances of neglect happen 
due to the simple fact the parents need assistance. These 
parents are not monsters. Rather, they need to be connected 
with available services or perhaps they need help with basic 
parental know-how.
    We know from studies that the impact of chronic,
    long-term neglect is devastating to the development of 
children. Victims of abuse and neglect are more likely to have 
developmental delays and impaired language and cognitive 
skills. They are more likely to be arrested for delinquency and 
violent criminal behavior as adults. We also know they have 
poor health outcomes as adults.
    Over 35 years ago, Congress enacted the Child Abuse 
Prevention and Treatment Act, or CAPTA, with a very simple 
purpose: Creating a single Federal focus to deal with the 
front-end issues associated with abuse and neglect. I like to 
think of CAPTA prevention programs as the first line of defense 
in the child welfare system.
    The CAPTA formula and competitive grants focus on the 
prevention of child abuse and ensuring continued well-being and 
safety of children. The CAPTA programs consists of two major 
grant programs, as well as targeted research, data collection, 
and technical assistance to the States. These grant programs 
provide funding for improvements to child protection services, 
promising prevention efforts, and community-based efforts to 
prevent abuse and neglect.
    CAPTA provides grants to States for technical assistance 
and requires States to have laws related to reporting child 
abuse investigations and procedures and resources for working 
with affected families. In order to receive funds, States must 
meet a minimal definition of child abuse and neglect.
    While CAPTA has brought much-needed attention and change to 
the issues of child maltreatment, this number still remains too 
high. The rates of physical abuse have decreased in recent 
years, but the rates of neglect have remained conservatively 
consistent, and we know that difficult financial times can 
certainly aggravate violence in victims, with fewer personal 
resources becoming increasingly vulnerable.
    For example, since the economic crisis began, it has been 
reported that three out of four domestic violence shelters have 
reported an increase in women seeking assistance from abuse. 
That means we have more work to do, which is why I am holding 
this hearing today.
    I want to thank you all for being here, and I look forward 
to the testimony that we will hear.
    I now recognize the distinguished gentleman from 
Pennsylvania, Ranking Member Platts, for his opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I'd like to welcome our witnesses to this hearing. Today are 
dealing with a very difficult and upsetting subject, abuse and neglect, 
which sometimes result in fatalities.
    We will hear from witnesses on how to improve responses for and 
prevent violence and abuse in families in crisis.
    Abuse, neglect and fatalities are of significant social concerns in 
our nation. The official number of children killed from abuse or 
neglect nationwide in 2007 is 1,760. In 2001, the total was 1,300.
    Three-quarters of the fatalities are children are under four. As a 
nurse for 30 years, I have seen firsthand the risks and illnesses that 
can result due to abuse and neglect.
    We know that children who experience abuse or neglect, and children 
that witness abuse have their sense of security, trust and safety 
shaken to the core.
    Studies show that young children are more likely to be reported as 
victims. In fact, of all cases, the maltreatment rate for infants was 
twenty one percent and for children ages one to three it was 13 
percent.
    The majority of child victims experience neglect. In fact, more 
than 60 percent of the children who come to the attention of child 
welfare authorities are victims of neglect.
    They're victims of acts of omission in terms of their care, in 
terms of their well being.
    Sometimes these instances of neglect happen due to the simple fact 
that parents need assistance.
    These parents are not monsters, rather they need to be connected 
with available services or perhaps they need help with basic parental 
know-how.
    We know from studies that the impact of chronic, long-term neglect 
is devastating to the development of children.
    Victims of abuse and neglect are more likely to have developmental 
delays, and impaired language or cognitive skills. They are more likely 
to be arrested for delinquency and violent criminal behavior as adults.
    We also know they have poor health outcomes as adults.
    Over thirty-five years ago Congress enacted the Child Abuse 
Prevention and Treatment Act--or ``CAPTA''--with a very simple purpose: 
creating a single federal focus to deal with the front end issues 
associated with child abuse and neglect.
    I like to think of CAPTA prevention programs as the first line of 
defense in the child welfare system. The CAPTA formula and competitive 
grants focus on the prevention of child abuse and ensuring continued 
well-being and safety of children.
    The CAPTA programs consist of two major grant programs, as well as 
targeted research, data collection and dissemination and technical 
assistance to the states.
    These grant programs provide funding for improvements to child 
protective services, promising prevention efforts and for community-
based efforts to prevent abuse and neglect.
    CAPTA provides grants to states for ``technical assistance'' and 
require states to have laws related to reporting child abuse, 
investigation procedures and procedures and resources for working with 
affected families.
    In order to receive funds, States must meet a minimal definition of 
child abuse and neglect.
    While CAPTA has brought much needed attention and change to the 
issues of child maltreatment, this number remains too high.
    The rates of physical abuse have decreased in recent years, but the 
rates of neglect have remained disturbingly constant.
    And we know that difficult financial times can certainly aggravate 
violence and victims with fewer personal resources become increasingly 
vulnerable.
    For example, since the economic crisis began, it has been reported 
that three out of four domestic violence shelters have reported an 
increase in women seeking assistance from abuse.
    That means we have more work to do, which is why I am holding this 
hearing today. Thank you all for being here and I look forward to the 
testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair. I first want to thank 
and commend you for your continued leadership and focus on this 
very important issue as we seek to work with partners 
throughout the Nation in protecting our children and helping 
our Nation's families do right by their children.
    I am going to submit my full statement for the record 
because, as I mentioned, I want to apologize up front to you 
and to the witnesses. I am against human cloning, but for me, I 
am supposed to be in about four spots right now, so I only have 
about a half hour before I run out, and hopefully I will get 
back for a later part of the hearing this morning.
    I want to very much thank our witnesses for being here to 
share your expertise and your knowledge, but most importantly, 
I want to thank you for day in and day out working to help 
protect our Nation's children and to serve them and their 
families so that we can all be part of the same team.
    Your work is critically important to the safety of so many 
children throughout this country. Each day you are making a 
difference, and I commend you for your efforts.
    With that, I will submit my statement for the record and 
allow us to move forward.
    Thank you, Madam Chair.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. I would like to welcome you all to our hearing today.
    Today we will examine ways to prevent child abuse and improve 
responses to families in crisis. As we all know, child abuse comes in 
many different forms. Child abuse can be physical, sexual, or emotional 
in nature, and occurs in all segments of our population, crossing 
ethnic, racial, and even economic lines in some cases.
    According to the American Academy of Pediatrics, each year more 
than 2.5 million cases of child abuse and neglect are reported. Recent 
studies show that twenty-five percent of girls and one in eight boys 
will be sexually abused before they reach eighteen years of age. We 
know that these children suffer both short and long-term physical and 
emotional damage. Many children become depressed well into adulthood. 
Others become violent, and even suicidal. Children who are abused are 
at a higher risk of abusing drugs and alcohol.
    Congress has made progress on this issue over the last several 
decades with the Child Abuse Prevention and Treatment Act (CAPTA), 
first passed in 1974. This legislation provides minimum standards that 
states must incorporate in their statutory definitions of child abuse 
and neglect. CAPTA defines child abuse and neglect as, ``any recent act 
or failure to act on the part of a parent or caretaker, which results 
in death, serious physical or emotional harm, sexual abuse, or 
exploitation, or an act or failure to act which presents an imminent 
risk of serious harm.'' The last authorization of CAPTA in 2003 focused 
on three major goals: preventing child abuse and family violence before 
it occurs; maintaining local projects with demonstrated value in 
eliminating barriers to permanent adoption; and addressing the 
circumstances that lead to child abandonment.
    We will hear today from several experts on the successful 
prevention and treatment of child abuse. For example, the Differential 
Response System has received bipartisan support and demonstrated 
effectiveness with its approach that allows child protective services 
to respond differently to confirmed reports of child abuse and neglect. 
Child protective services take into consideration the type and severity 
of abuse reported, number of sources of reports and willingness of the 
family to participate. Results have shown a reduction in 
investigations, repeated reports of maltreatment, court involvement, 
child in-placements, while at the same time increasing family 
involvement and the number of children served.
    Despite the considerable work that has been done on this issue at 
both the federal and local level, child abuse is still on the rise. As 
such, we must continue to explore innovative ways to prevent child 
abuse in our communities. Teresa Smith, Coordinator and Executive 
Director of the Pinnacle Health Children's Resource Center in 
Harrisburg, Pennsylvania, has joined with us today. Currently the Co-
Chair of the Pennsylvania CAPTA Workgroup, I am grateful for her 
sharing with us the importance of implementing CAPTA in states 
nationwide, including Pennsylvania.
    I look forward to hearing the testimony from all of our witnesses 
today. As we move toward the reauthorization of CAPTA, we must take 
into consideration the current trends in child abuse and neglect and 
remain focused on prevention at the local level. Thank you, Chairwoman 
McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. Pursuant to committee rule 
7(c), any member may submit an opening statement in writing at 
this time, which will be made a part of the permanent record. 
Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    I would like to briefly introduce our distinguished panel 
here this morning. The complete bios of the witnesses will be 
inserted into the report.
    Today, we will hear from six witnesses, each of whom will 
focus on abuse and neglect prevention and action. I want to 
thank all of you for taking the time out to be here in front of 
this panel.
    I also ask unanimous consent for a member of the full 
committee, Ms. Woolsey, and a member who is not on a committee, 
Representative Gwen Moore, to sit on the dais and ask 
questions. Each of these members have been leaders in domestic 
violence and child welfare issues.
    Again, I welcome you to our committee. In the interest of 
time, given the large number of witnesses today, I will keep my 
formal introductions short.
    Our first witness is Dr. Rodney Hammond, the Director of 
Violence Prevention at the National Center for Injury, 
Prevention, and Control at the CDC. He has held this position 
since 1996. At the CDC, Dr. Hammond is responsible for research 
and programs to prevent homicide, suicide, family, intimate 
partner and sexual assault, child abuse, and youth violence. 
Through his professional career, efforts have been focused on 
youth violence, prevention, and it is a public health concern.
    Our next witness is Dr. Wilson Spigner of the University of 
Pennsylvania School of Social Policy and Practice, 
Philadelphia, Pennsylvania. Prior to her arrival at Penn, Dr. 
Spigner was the Associate Commissioner of the Children's Bureau 
at the U.S. Department of Health and Human Services, 
Administration for Children and Families, and was responsible 
for the administration of Federal child welfare programs.
    Our next witness is Caren Kaplan. She has almost 30 years 
experience in child welfare and policy and practice. As the 
Director of the Child Protection Reform at the American Humane 
Association, Caren oversees the National Initiative on Chronic 
Neglect. Caren manages several efforts to examine and refine 
the assessments of child safety, risk, and comprehensive family 
functioning by child protection agencies.
    Our next witness is Sandra Oliva from Hempstead, New York, 
which is part of my district. Sandra is the Executive Director 
of the Nassau County Coalition Against Domestic Violence. She 
served in that role for nearly 25 years. Under her leadership, 
the Nassau County Coalition Against Domestic Violence has grown 
into a multifaceted, comprehensive domestic violence service 
organization, helping over 3,000 adults and children annually.
    Sandra's vision, insight, and commitment have encouraged 
the agency to develop individualized and tailored services to 
meet the needs of adults and youth victims in crisis. These 
services include crisis intervention, counseling, advocacy 
services, safe homes, transitional housing, community education 
and outreach, legal services, and legislation and legal 
advocacy.
    I now yield to Ranking Member Platts to introduce our next 
witness, Ms. Smith.
    Mr. Platts. Thank you, Madam Chair. I am delighted to have 
the opportunity to introduce a fellow Pennsylvanian, Ms. Teresa 
Smith. Ms. Smith is Executive Director of the PinnacleHealth 
Children's Resource Center and has been an employee of 
PinnacleHealth system for 24 years. She
    cofounded the hospital-based Children's Advocacy Center 
Program in Harrisburg, Pennsylvania, in 1994, and since that 
time she has been working to ensure that children are safe and 
well cared for.
    The Children's Advocacy Center in Harrisburg is one of the 
most renowned children advocacy centers in Pennsylvania, and a 
great model program for other centers around the State, and 
including in my congressional district. The Center collaborates 
with partners in the community to prevent, investigate, and 
treat child abuse. Ms. Smith is also a site reviewer for the 
National Children's Alliance and the cochair of the 
Pennsylvania CAPTA Working Group.
    Ms. Smith, we are delighted to have you here. Thanks for 
your work back home and for your testimony here today.
    I yield back.
    Chairwoman McCarthy. Finally, I would like to introduce Rob 
Sawyer from Olmsted County Child and Family Services in 
Minnesota. Welcome. Mr. Sawyer is the former Director of Child 
and Family Services in Minnesota and has spent years working on 
child abuse prevention issues in his State. He brings a wealth 
of the ground experience in our discussion today. And we 
welcome you.
    Let me explain the lighting system that is in front of you. 
For those of you who have not testified in front of Congress 
before, everyone, including the members, is limited to 5 
minutes of presentation of questions. The green light will 
illuminate when you start speaking. The yellow light will go on 
when your time is just about up. And when you see the red 
light, you will need to conclude your testimony.
    We will be more lenient on allowing members to finish their 
thoughts. So we want to hear all of your testimony.
    Please be certain to turn on your microphones when you 
start to speak to us.
    We will now hear from our first witness.
    Dr. Hammond.

  STATEMENT OF RODNEY HAMMOND, PH.D., DIRECTOR OF DIVISION OF 
 VIOLENCE PREVENTION NATIONAL CENTER FOR INJURY PREVENTION AND 
      CONTROL, CENTERS FOR DISEASE CONTROL AND PREVENTION

    Mr. Hammond. Thank you and good morning, Chairwoman 
McCarthy, Ranking Member Platts, and other distinguished 
members of the subcommittee. On behalf of CDC, it is an honor 
to be here.
    I serve as the Director of the Division of Violence 
Prevention at CDC's Injury Center. Today, I will highlight that 
public health can complement child welfare and protective 
services by bringing proven prevention strategies to scale.
    This involves three key points. First, that public health 
has an important role to play in preventing child
    maltreatment. Second, that we have the opportunity to put 
in place innovations in how we prevent child maltreatment 
through evidence-based strategies. Third, that scaling up these 
approaches necessitates partnerships between public health, 
social services, and child-serving entities to ensure quality.
    We know that child maltreatment has significant short- and 
long-term health consequences. For example, in 2007, an 
estimated 1,760 children younger than 18 years old died as a 
result of maltreatment. We also know that approximately 794,000 
children were determined by State and local Child Protective 
Services to be victims of child maltreatment. These numbers, no 
doubt, are an underrepresentation because the data only reflect 
cases that are reported to the Child Protective Services 
system.
    But we also know that exposure to child maltreatment has 
long-term health consequences into adulthood, such as heart 
disease, cancer, drug abuse, and depression. Moreover, studies 
show that exposure to child maltreatment is linked to other 
forms of violence, including youth violence and intimate 
partner violence.
    There is a wealth of evidence showing the needs of children 
for healthy development. First, we know that children need to 
be safe from physical and psychological harm. Secondly, we know 
that children need a degree of stability in their environment. 
And, third, they need a nurturing parent or other caregiver 
that is consistently available to meet their needs.
    The way to reduce child maltreatment is to promote child 
health. We can do this by fostering safe, stable, nurturing 
relationships using a public health approach. We are at a 
critical juncture because we now have prevention programs that 
work. Now is the time to focus on wide-scale implementation of 
those programs.
    Recent CDC studies show that child maltreatment rates 
actually fall when parents have access to interventions that 
address problems with child behavior. For example, PPP, a 
parenting program, combines broad social campaigns with 
targeted parenting support services. In addition, early 
childhood home visitation programs are effective. For instance, 
the nurse-family partnerships focus on first-time mothers 
during pregnancy, working to promote positive health and 
interactions between mother and child.
    Although there are promising interventions, there are still 
some opportunities for improvement. We need data that provides 
a comprehensive understanding of the ideal settings for 
interventions, and we need a better understanding of risk 
surrounding child maltreatment.
    We need to continually evaluate promising strategies, 
including programs and policies that target at the individual 
and community levels so that we can widely implement. We need 
to develop public health capacity to support prevention 
programs that complement Child Welfare and Child Protective 
Services. We must work to make prevention accessible, 
especially to parents, without stigma.
    So, in conclusion, public health can lessen the burden on 
child welfare and protective services by bringing prevention 
strategies to scale and ensuring that they are accessible to 
all families that need and want them. Scaling up these 
approaches necessitates collaboration between public health, 
social services, and child serving agencies. A partnership 
between public health and child protection services will allow 
more people to access programs that strengthen families and 
help children to live life to their fullest potential.
    I would like to thank the subcommittee for its continued 
support of CDC and its injury and violence programs, and I 
would be happy to answer any questions that you may have. Thank 
you.
    [The statement of Mr. Hammond follows:]

  Prepared Statement of Rodney Hammond, Ph.D., Director, Division of 
 Violence Prevention, National Center for Injury Prevention & Control, 
Centers for Disease Control & Prevention, U.S. Department of Health and 
                             Human Services

    Good morning Chairwoman McCarthy, Ranking Member Platts and 
distinguished Members of the Subcommittee. My name is Dr. Rodney 
Hammond, and I am the Director of the Division of Violence Prevention, 
a Division of the National Center for Injury Prevention & Control 
(NCIPC) within the Centers for Disease Control & Prevention (CDC). 
Thank you for the opportunity to appear before you on behalf of CDC to 
discuss our Agency's research and prevention activities addressing 
child maltreatment. At CDC, we work to ensure that all people achieve 
their optimal lifespan with the best possible quality of health at 
every stage of life.
    Regardless of gender, race or economic status, injuries are a 
leading cause of death for young Americans. Violence is a particularly 
serious threat to the health and well-being of children and adolescents 
in the United States. Furthermore, violence such as child maltreatment 
is preventable. CDC is leading the nation's efforts in reducing 
premature death, disability, human suffering and the medical costs 
associated with violence. Working with state and local governments, 
nonprofit organizations, academic institutions, private entities, other 
federal agencies and international organizations, CDC continues to 
document the rates of violence including identifying the risk and 
protective factors for child maltreatment, finding effective prevention 
strategies, and promoting widespread adoption of these solutions. We 
strongly believe that every child deserves to live his or her life to 
their fullest potential. Preventing child maltreatment is one major 
step toward that end.
    I will begin my testimony today by giving an overview of child 
maltreatment and explaining CDC's unique public health role in its 
prevention. I will share updates on promising interventions and gaps 
within the field, and I will close by highlighting that the widespread 
adoption of proven interventions is an effective solution to preventing 
a majority of childhood injuries and deaths from maltreatment.
Child Maltreatment: Definition
    ``Child abuse'' is deliberate and intentional words or overt 
actions that cause harm, potential harm, or threat of harm to a child. 
``Child neglect'' is the failure to provide for a child's basic 
physical, emotional, or educational needs or to protect a child from 
harm or potential harm.\1\ CDC defines child maltreatment as any act or 
series of acts of commission or omission by a parent or caregiver that 
results in harm, potential harm, or threat of harm to a child. Much of 
the child maltreatment field divides acts of commission into three 
broad categories--physical, sexual, or emotional abuse. Acts of 
omission are often referred to as child neglect and divided into two 
categories--failure to provide for a child's basic needs and failure to 
protect a child. Thus the term ``child maltreatment'' as used in this 
testimony applies to a broad range of harmful activities including 
``child abuse'' and ``neglect''.
The Burden of Child Maltreatment in the U.S.
    The magnitude of child maltreatment in the United States is not 
easily determined, but it is clearly substantial. In 2007, an estimated 
1,760 children younger than 18 years old died as a result of 
maltreatment and approximately 794,000 children were determined by 
state and local child protective services agencies to be victims of 
child abuse or neglect.\2\ It is likely that the actual number of 
children who experience maltreatment each year is even larger, because 
many cases go unreported or undetected. Survey data provide a more 
troublesome picture of the problem of child maltreatment. Estimates 
based on a 2008 national survey of children aged 2--17 years indicate 
that approximately one in ten children reported having experienced 
maltreatment and one in sixteen were victimized sexually.\3\ Child 
maltreatment through blunt trauma to the head or violent shaking (also 
known as abusive head trauma or shaken baby syndrome) is the leading 
cause of head injury among infants and young children. Additionally, 
homicide was the fourth leading cause of death for children ages 1-9 
years in 2006.
    In addition to injuries and related health issues during childhood, 
child maltreatment can increase the risk factors for many of the 
leading causes of death among adults. CDC research shows that children 
who experience maltreatment are at an increased risk for a variety of 
health problems, including heart disease, cancer, chronic lung disease, 
liver disease, alcoholism, drug abuse, and depression. In addition, 
child maltreatment is closely linked with other forms of violence in 
adulthood such as intimate partner violence. Furthermore, studies have 
also shown that witnessing or experiencing abuse as a child can 
increase the risk factors for becoming a victim or perpetrator of 
violence. Addressing violence issues at an early stage would aid in 
assuring optimal prevention and wellness for individuals throughout 
their lifespan.
CDC's Role in Child Maltreatment Prevention: Promoting Safe, Stable, 
        Nurturing Relationships
    CDC's child maltreatment prevention program aims to prevent 
maltreatment and its consequences through data monitoring to understand 
the problem and its trends over time, research and development, 
capacity building to ensure organizations and entities are equipped to 
engage in prevention efforts, communication, and leadership. CDC's 
public health approach emphasizes rigorous science and complements 
other approaches such as those of the child welfare system, criminal 
justice and mental health systems. CDC achieves these primarily through 
data monitoring and sharing; research on possible interventions; 
community implementation and evaluation of interventions; and 
widespread adoption of proven interventions. This multi-pronged effort 
adds to the knowledge base regarding violence and how to prevent it. 
The long-term goal of CDC's work in child maltreatment prevention is to 
achieve lasting change in the factors and conditions that place 
children at risk through making changes at individual, family, 
community, and societal levels to reduce rates of child maltreatment.
    Within this field, there is a great need for primary prevention 
strategies that stop abuse and neglect before it occurs. Developing 
effective prevention programs is essential. CDC in consultation with 
national experts has identified safe, stable, and nurturing 
relationships (SSNRs) between caregivers and children as the foundation 
of a unified strategic approach and message to empower parents and 
caregivers and to reduce child maltreatment. This approach is aimed at 
motivating change in parenting behavior and increasing parents' skills 
and knowledge to lower incidents of child maltreatment. SSNRs 
strengthen parenting practices that prevent child maltreatment by 
focusing on positive caregiving behaviors. Accordingly, promotion of 
SSNRs can have synergistic effects on health problems as well as 
contribute to development of skills that enhance acquisition of healthy 
habits and lifestyles throughout the lifespan. It should also be noted 
that SSNRs are not only about the direct relationship parents have with 
their child but also the environment and context within which they 
parent (e.g., community support such as accessible childcare). Rather 
SSNRs becomes a comprehensive approach that focuses on making changes 
at the individual, family, community, and societal levels to reduce 
rates of violence in populations.
Promising Interventions
    CDC recognizes a number of promising and effective strategies for 
the prevention of child maltreatment. There is substantial evidence 
that promoting SSNRs can be effective in reducing child 
maltreatment.\4,5,6,7,8,9,10,11,12,13,14,15,16,17,18,19,20,21\ The most 
basic approach to facilitating SSNRs is teaching parents positive child 
rearing and management skills and strategies that are safe and 
nurturing. There is substantial evidence that parent training programs 
or behavioral family interventions delivered in clinical settings and 
focused on influencing children's behavior through positive 
reinforcement are effective at influencing the child rearing practices 
of families.\22,23\
    In fact, a new CDC-funded study shows that when parents have access 
to proven parenting interventions designed to address problems with 
child behavior (e.g., tantrums), key measures of child maltreatment 
fall. For example, Triple P, the Positive Parenting Program, uses a 
multi-level strategy focusing on parenting and family support that aims 
to prevent behavioral, emotional and developmental problems in children 
by enhancing the knowledge, skills and confidence of parents. Triple P 
incorporates a wide range of support mechanisms for parents including 
local media, brief public seminars, and parent consultation by 
specially trained providers in clinics, schools, churches, and 
community centers. Research results showed that implementing Triple P 
in an area containing 100,000 children could translate annually into 
688 fewer cases of child maltreatment, 240 fewer out-of-home 
placements, and 60 fewer children with injuries requiring 
hospitalization or emergency room treatment.
    In addition, early childhood home visitation programs show strong 
evidence of effectiveness in reducing violence against visited 
children. These programs are designed to decrease the likelihood of 
child maltreatment by providing parents with guidance for and examples 
of caring and constructive interaction with their young children. This 
approach facilitates the development of parental life skills, 
strengthens social support for parents, and links families with social 
services. Nurse-Family Partnership, or NFP, is one example of an 
evidence-based early childhood home visitation program that was 
developed based on evidence from randomized, controlled trials. NFP 
focuses on first-time mothers during pregnancy and works to promote and 
teach positive health and development behaviors between a mother and 
her baby. Additionally, NFP is delivered by registered nurses over a 
period of time (typically from the mother's first trimester to the 
child's second birthday), thereby fostering a bond between nurse and 
mother.
    This early intervention during pregnancy allows for any critical 
behavioral changes needed to improve the health of the mother and 
child. Several randomized controlled trials have found this program to 
effectively reduce abuse and injury, improve cognitive and socio-
emotional outcomes in children and have a very favorable benefit-cost 
ratio. An evaluation of NFP documented a 48 percent decline in rates of 
child abuse and neglect at the time of a 15-year follow-up study. 
Furthermore, studies found reduced rates of crime and antisocial 
behavior among both children and mothers.
    Recognizing the significant benefits of home visiting programs such 
as the NFP, the President has proposed in his 2010 budget, a home 
visiting program designed to support the establishment and expansion of 
evidence-based programs in states and territories. The President's 
proposal gives priority to models that have been rigorously evaluated 
and shown to have positive effects on critical outcomes, such as the 
reduction in child abuse and neglect. This new home visitation program 
will create long-term positive impacts for children and their families 
as well as positive impacts for society as a whole.
Areas for Improvement in the field of Child Maltreatment Prevention
    Although there are promising interventions within the field of 
child maltreatment prevention, there are still some areas for 
improvement.
            Improved Monitoring
    Routinely collected data for monitoring the rates of fatal and non-
fatal child maltreatment are limited. Simply put, better data on child 
maltreatment will strengthen the ability to measure the true costs of 
maltreatment; target crucial programs and policies to populations or 
areas most in need to determine if progress is made; and help make the 
best use of limited resources. Improved ability and capacity to monitor 
nonfatal and fatal child maltreatment at the national and state levels, 
will inform efforts to operationalize, measure, and monitor the 
implementation of SSNR activities. CDC is working to address this gap 
by funding the development and implementation of the National Violent 
Death Reporting System, which monitors fatal child maltreatment across 
18 states.
            Development and Evaluation of New Approaches to Prevention
    Caregiving behaviors occur in many different contexts and develop 
with time. Understanding the development of caregiving behaviors and 
how the contexts in which they occur influence child development is key 
to understanding which interventions and policies promote SSNRs and 
reduce child maltreatment. To gain a full understanding of the ideal 
times and settings for intervention strategies, research is needed that 
examines how SSNRs and negative caregiving behaviors, including child 
maltreatment, develop. Understanding the development of different forms 
of child maltreatment perpetration (i.e., physical abuse, neglect, and 
sexual abuse) is critical because the different forms of child 
maltreatment might have varying causes and thus require different 
intervention strategies and timing. Moreover, although many parenting 
programs have been evaluated, evaluation research is beneficial to 
determine if such approaches are effective for the prevention of child 
maltreatment and for the promotion of SSNRs, paying special attention 
to whether these approaches are effective in different settings and 
with different populations.
            Building Community Capacity
    The concept of a public health approach to child maltreatment 
prevention is still relatively new, and capacity to address prevention 
in community settings is not yet robust. Building community receptivity 
and capacity for preventing child maltreatment facilitates the 
implementation of evidence-based prevention strategies. Ensuring 
community participation requires clarification of barriers to 
cooperation and outlining key actions to foster a multidisciplinary, 
collaborative approach to child maltreatment prevention and the 
promotion of SSNRs. Working with experts within the field of child 
maltreatment, CDC is developing evidence-based strategies needed to 
help communities and their leaders understand the magnitude of the 
problem and the long-term benefits of investments in primary 
prevention, including tools that can be used to apply public health 
approaches to child maltreatment and the promotion of SSNRs. For 
example, some tools that CDC is reviewing include strategy guidance 
products that help community planners and practitioners select the 
appropriate type and mix of SSNR promotion strategies in their 
community.
Conclusion
    As you have heard, there is a strong and growing scientific basis 
for the primary prevention of child maltreatment. In looking toward the 
future, preventing such adverse exposures as maltreatment by ensuring 
that all children are protected and raised in a safe, stable, and 
nurturing environment is strategic for achieving measurable and lasting 
impacts on health throughout life. It is critical to develop the 
evidence for interventions that work and then get these interventions 
into the hands of parents and caregivers who can use them effectively 
to prevent child maltreatment. CDC is working to improve the gap 
between research and practice and between discovery and delivery and to 
continue progress in preventing and controlling violence. To save 
lives, parents, caregivers, and providers need support for adopting and 
maintaining interventions over time. Violence is preventable, and thus 
should not happen.
    I would like to use this opportunity to thank the Subcommittee for 
its continued support of CDC and its injury and violence prevention 
programs. I would be happy to answer any questions that you many have. 
Thank you.
                                endnotes
    \1\ Leeb RT, Paulozzi L, Melanson C, Simon T, Arias I. Child 
Maltreatment Surveillance: Uniform Definitions for Public Health and 
Recommended Data Elements, Version 1.0. Atlanta (GA): Centers for 
Disease Control and Prevention, National Center for Injury Prevention 
and Control; 2008.
    \2\ Department of Health and Human Services, Administration on 
Children,Youth, and Families. Child Maltreatment 2007 [online]. 
Washington (DC):Government Printing Office; 2009. [cited 2009 Apr 15]. 
Available from:www.acf.hhs.gov.
    \3\ Finkelhor, D., Hammer, H., and Sedlak, A. 2008. Sexually 
Assaulted Children: National Estimates and Characteristics. Washington, 
DC: U.S. Department of Justice, Office of Justice Programs, Office of 
Juvenile Justice and Delinquency Prevention.
    \4\ National Scientific Council on the Developing Child. Young 
children develop in an environment of relationships. Working Paper No. 
1. [online] 2004. [cited 2006 Aug 10]. Available from url: 
www.developingchild.net/reports.shtml.
    \5\ Board on Children, Youth, and Families, National Research 
Council and Institute of Medicine. From neurons to neighborhoods: the 
science of early childhood development. Committee on Integrating the 
Science of Early Childhood Development. In: Shonkoff JP, Phillips DA, 
editors.Washington, DC: National Academy Press; 2000.
    \6\ Barnard KE, Solchany JE. Mothering. In: Bornstien MH, editor. 
Handbook of Parenting. Vol. 3. New Jersey: Lawrence Erlbaum Associates, 
Publishers; 2002. pp. 3--25.
    \7\ Ainsworth M.Patterns of infant-mother attachments: antecedents 
and effects on development. Bulletin of the New York Academy of 
Medicine 1985;61:792--812.
    \8\ Bowlby J. Developmental psychiatry comes of age. American 
Journal of Psychiatry 1988;145:1--10.
    \9\ Antonovsky A.How the sense of coherence develops over the 
lifespan in: unraveling the mystery of health. How people manage stress 
and stay well. San Francisco: Jossey-Bass; 1987. pp. 89--127.
    \10\ Widom CS, Maxfield M.An update on the ``cycle of violence.'' 
National Institute of Justice Research Brief. Washington (DC): National 
Institute of Justice, 2001:1--8.
    \11\ Sidebotham P, Heron J.Child maltreatment in the ``children of 
the nineties'': a cohort study of risk factors. Child Abuse and Neglect 
2006;30:497--522.
    \12\ Seagull EAW.Social support and child maltreatment: a review of 
the evidence. Child Abuse and Neglect 1987;11:41--2.
    \13\ Waters E, Kondo-Ikemura K, Posada G, Richters JE.Learning to 
love: mechanisms and milestones. In: Gunnar M, Sroufe L, editors. Self 
processes and development. Minnesota Symposium on Child Psychology. 
Vol. 23. New Jersey: Erlbaum; 1991. pp. 217--55.
    \14\ Shaw DS, Gilliom M, Ingoldsby EM, Nagin DS.Trajectories 
leading to school age conduct problems. Developmental Psychology 
2003;39:189--200.
    \15\ Dawson G, Asman DB.On the origins of a vulnerability to 
depression: the influence of the early social environment on the 
development of psychobiological systems related to risk of affective 
disorder. In: Nelson CA, editor. The effects of early adversity on 
neurobehavioral development. Minnesota Symposia on Child Psychology 
2000. New Jersey: Erlbaum. pp. 245--79.
    \16\ Dawson G, Frey K, Panagiotides H, Yamada E, Hessl D, Osterling 
J.Infants of depressed mothers exhibit atypical frontal electrical 
brain activity during interactions with mother and with a familiar 
nondepressed adult. Child Development 1999;70:1058--66.
    \17\ Seeman TE, Singer B, Horwitz R, McEwen BS.The price of 
adaptation-allostatic load and its health consequences: McArthur 
studies of successful aging. Archives of Internal Medicine 
1997;157:2259--68.
    \18\ Widom CS, Maxfield M.An update on the ``cycle of violence.'' 
National Institute of Justice Research Brief. Washington (DC): National 
Institute of Justice, 2001:1--8.
    \19\ Kotch JB, Browne DC, Ringwalt CL, Dufort V, Ruina E.Stress, 
social support, and substantiated maltreatment in the second and third 
years of life. Child Abuse and Neglect 1997;21(11):1025--37.
    \20\ Garbarino J, Kostelny K. Child maltreatment as a community 
problem. Child Abuse and Neglect 1992;16:455--64.
    \21\ Cohen S, Wills TA. Stress, social support, and the buffering 
hypothesis. Psychological Bulletin 1985;98(2):310--57.
    \22\ Taylor TK, Biglan A.Behavioral family interventions for 
improving child-rearing: a review of the literature for clinicians and 
policy-makers. Clinical Child and Family Psychology Review 
1998;1(1):41--60.
    \23\ Lundahl B, Risser HJ, Lovejoy MC.A meta-analysis of parent 
training: moderators and follow-up effects. Clinical Psychology Review 
2006;26:86--104.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Dr. Spigner.

    STATEMENT OF CAROL WILSON SPIGNER, MSW, DSW, ASSOCIATE 
PROFESSOR/CLINICIAN EDUCATOR, UNIVERSITY OF PENNSYLVANIA SCHOOL 
                 OF SOCIAL POLICY AND PRACTICE

    Ms. Spigner. Good morning. Chairwoman McCarthy and Ranking 
Member Platts, it is an honor for me to be back here in this 
forum. I speak based on my experience. I have been working in 
child welfare 40 years, including my service as Associate 
Commissioner of the Children's Bureau. Since I left the 
Children's Bureau, I have been focusing on assisting large 
child welfare systems attempt to improve their services.
    I want to talk a little bit about the background related to 
CAPTA and then offer four areas that I think would be useful to 
consider in improving Child Protective Services.
    CAPTA was originally enacted in 1974 to assure that all 
children experiencing maltreatment have the protection of the 
State. CAPTA encouraged the development of systems that could 
receive reports of abuse and neglect, evaluate them, and 
provide protection for children.
    CAPTA has facilitated effectively the development of child 
protective systems across the country, as well as the 
development of knowledge and practice strategies to address 
this problem. Over the years, CAPTA has been modified to 
include adoption, abandoned infants, and homeless children. It 
provides funding for prevention, research, and program 
development.
    We have heard the statistics already on maltreatment today, 
but I want to underscore several ideas. First, that neglect is 
the largest category of child maltreatment. Secondly, I want to 
underscore that the data tells us that the children under four 
are the most vulnerable. They comprise 75 percent of the 
children who die. They are unable to protect themselves and 
often invisible to the community because of their age.
    For the children at greatest risk, child protection 
involves using the police power of the State to intervene in 
family life. Through a combination of assessment,
    decisionmaking and service, protective service agencies 
operate to help families and children.
    The four areas of concern I would like to speak to briefly 
are decisionmaking; interstate referrals for abuse and neglect; 
support for workers; and then, finally, the issue of 
partnership with communities.
    Let me just say that we have made significant progress in 
terms of decisionmaking and developing
    decisionmaking protocols to guide child protective service 
workers, but we are not where we need to be. We now have the 
capacity through technology and other resources to begin to 
apply actual science to the predictive aspects of child 
protection. We need an additional focus on decisionmaking to 
improve the way judgments are made.
    Secondly, I want to speak to the question of interstate 
referrals. What we have found--I live and work in an area that 
involves two jurisdictions. If the child, the location of the 
event, and the perpetrator are not in the same jurisdiction, 
cases are likely to fall through the cracks because one 
jurisdiction will say, Well, the child is not in your 
jurisdiction; another will say, Well, the event didn't occur 
here. So in a time of mobility, there is a real problem that 
cases get--reports get lost and potential perpetrators don't 
get tracked. So that is an area that I would encourage you to 
look at.
    The third area I would encourage you to look at is really 
improving the capacity of supervisors to support
    frontline workers. This is very difficult work. Workers are 
exposed to difficult situations; to child trauma repeatedly. 
They are at risk of burnout, they are at risk of secondary 
trauma.
    I think the most critical thing that we can do in terms of 
that is strengthen the supervisors' ability not only to manage 
work, but to support them.
    The next area has to do with partnerships with communities. 
Child protection cannot be done by the child protective service 
system alone. Communities shape the values and attitudes that 
we have toward children. A number of jurisdictions have been 
quite effective in sharing information about the conditions of 
children in their neighborhood and organizing the neighborhood 
to begin to create new messages and new structures to protect 
children and to create neighborhood ownership of the 
responsibility for child protection.
    So one of my recommendations is that you use the 
discretionary resources of CAPTA to promote more focus on 
neighborhood-based strategies to child protection. They will 
complement prevention strategies. They will also complement the 
work of the child protective agency in attempting to increase 
the safety of children.
    I want to thank you for the opportunity and look forward to 
any questions you may have.
    [The statement of Ms. Spigner follows:]

  Prepared Statement of Carol Wilson Spigner, DSW, Kenneth L.M. Pray 
   Professor, University of Pennsylvania School of Social Policy and 
                                Practice

    Chairwoman McCarthy and Ranking Member Platts: I am pleased to have 
the opportunity to participate in this hearing with its focus on issues 
that need to be considered in the reauthorization of the Child Abuse 
Prevention and Treatment Act (CAPTA). I speak based on over forty years 
of experience working with or on behalf of children and families in 
distress. I continue to work with a number of child welfare agencies in 
their efforts to improve the quality of service to children and 
families. I wish to thank you both for your leadership on this issue.
Background
    CAPTA was originally enacted in 1974 to assure that all children 
experiencing maltreatment had the protection of the state. CAPTA 
initially encouraged the development of systems that could receive and 
evaluate allegation of abuse and provide protection to children. The 
focus was on identification of children at risk, prevention and 
intervention. CAPTA has facilitated the development of child protection 
systems across this nation and the development of knowledge and 
practice strategies to address this problem. Over the years the CAPTA 
has been modified to include a focus on adoption, abandoned infants, 
homeless children and children with disabilities. By providing funding 
for prevention, research, program development, this legislation has 
been a major building block for child protective services.
    CAPTA authorizes in Section 106, the provision of formula grants to 
states and territories to help improve their child protective service 
(CPS) systems. To receive funding States must establish a child 
protective service system and be able to comply with various 
requirements related to the intake, screening, reporting, 
investigation, and treatment of child maltreatment cases. Among the 
requirements for funding of the basic grant States must define child 
abuse and neglect, at a minimum, to include any ``recent act, or 
failure to act, on the part of a parent or caretaker, which results in 
death, serious physical or emotional harm, sexual abuse or 
exploitation, or an act or failure to act which presents an imminent 
risk of serious harm.'' States are required to provide ``to the maximum 
extent practicable'' annual state data reports to the Secretary. 
Section 106 requires the Secretary to annually compile this State data 
in a report.
    CAPTA does not direct the specific practices of state child 
protective agencies but rather identifies the essential components of a 
child protective service system. States have considerable discretion in 
the design of their systems consistent with the values of their 
community and the available resources. As a result all of the states 
have the shared goal of protecting children, but structure their 
responses differently.
Maltreatment Today
    Today we continue to struggle to make sure that every child has a 
safe and stable environment in which to grow up. According to Child 
Maltreatment 2007, during fiscal year 2007 the number of referrals 
received was nearly 3.2 million and involved 5.8 million children. 
794,000 children were found to be maltreated. The most frequent problem 
was neglect (59%) followed by physical abuse (10.8%) and sexual abuse 
(7.6%).
    Children of all ages are affected, but young children age of three 
and under are the most vulnerable. Their vulnerability stems from their 
age, dependency and their inability to protect themselves or speak out. 
Because may of these children are not in school or child care setting, 
they can be hurt without anyone recognizing injury, trauma and neglect. 
There were an estimated 1760 deaths attributed to maltreatment in 2007. 
Children under the age of one are had the highest rate of maltreatment 
related deaths and children under the age of 4 comprised 75% of the 
children who died.
    For children at greatest risk, child protection involves using the 
police power of the state to intervene into the privacy of the family. 
We have an obligation to intervene and should do so with attention to 
the child's safety, stability and well being. We want to protect them 
and to do so in a manner that does the least damage. Most children are 
helped by working with their families to improve safety and the quality 
of care they receive. One in five maltreated children was placed in 
foster care in 2007.
    Through a combination of assessment, decision making and service, 
child protective service agencies work to help vulnerable families and 
children. Staff must assess the safety and risks to children; determine 
whether it is safe to leave the child with the family or if placement 
is necessary; and decide which services are provided to increase safety 
and reduce risk in families. The work is complex.
    I would like to identify four areas of concern that could be 
improved if addressed in the reauthorization of CAPTA: decision making, 
responsibility for inter-state allegations, support for frontline 
workers and partnerships with communities.
Issue #1: Decision-making
    CAPTA can assist in strengthening the capacity of state child 
protection programs to conduct systematic decision making related to 
the safety of children and selecting service options.
    Several years ago, the City of Philadelphia was plagued by child 
fatalities. I was asked to head a review team to identify needed 
reforms. In reviewing the operation of the Department of Human 
Services, we learned that the agency was not consistent in its decision 
making. During investigations some children who were unsafe were being 
not served while other children whose families were struggling with the 
problems which were not related to safety and risk but rather material 
needs were being accepted for protective services. The resources of the 
agency were not being used in a focused way contributing to failure to 
identify some of the most vulnerable children. The criteria being used 
to screen for safety were not clear. As a result the purpose of child 
protection was not clear and the agency's ability to protect children 
was compromised.
    Nationally, we have made progress in developing systematic decision 
making tools which identify factors that need to be assessed and the 
criteria for assessment. The tools have been developed for screening 
referrals and assessing risk and safety. The tools guide the worker's 
examination of important areas that are thought to be predictive. With 
some of the newer technology, we now have the ability to apply 
actuarial science to maltreatment to improve our protocols and decision 
making and to begin to identify which services work for which families. 
Moving this forward will require focused investments.
    Recommendation: Create within CAPTA opportunities to enhance the 
development of decision making protocols that are empirically based; 
have the ability to predict future abuse; and identify appropriate 
services. Such tools can allow child protective services to focus 
resources on the families where children are at greatest current and 
future risk and to provide services that foster the outcomes of safety, 
permanency and well being.
Issue #2: Unclear responsibility for investigation of reports that 
        cross state lines.
    Child maltreatment is no respecter of state lines. Given the 
mobility of our society, it is not unusual for an incident of 
maltreatment to occur in a state other than the one which the child 
resides. For example a custodial parent may learn of abuse that 
occurred in an adjacent state during a visit to other members of the 
family. If the parent makes a report in the state where she resides, 
she may find that the state is without jurisdiction because it was not 
the location of the abuse. On the other hand, if the report is made to 
the state in which the abuse occurred, they may indicate that they have 
no jurisdiction because the child is not currently living in their 
state.
    The result is that neither of the jurisdictions will investigate 
the allegation and the opportunity for protection is lost. Future abuse 
may continue for this child or others. It is difficult to document how 
often this occurs, but in the absence of a clear federal standard or 
interstate agreements which provide clarity about responsibility, 
children in these situations do not have access to investigations or 
assessment that will evaluate the need for protection.
    Interstate compacts have been developed in other areas of child 
welfare such as foster care and adoption, which clarify 
responsibilities among the states when a child moves beyond the 
original jurisdiction.
    Recommendation: Using the authority of CAPTA, the federal 
government work with the states to develop clear guidelines that 
establish responsibility for investigation of allegations of child 
maltreatment in instances when the location of the abuse, the location 
of the victim and the location of the perpetrator involve more than one 
state.
Issue #3: Supervisory Support for Frontline Workers
    Frontline workers go out into communities every day and confront 
families and children where sexual and physical abuse and neglect are 
suspected. We expect workers to be fair and engage families who did not 
invite them into their lives and are understandably angry and 
defensive. Every day workers have to look at the consequences of 
maltreatment on children including physical injury; sexual trauma; the 
sadness, depression and anger.
    Workers are asked to deal with trauma, conflict and hostility 
repeatedly in the course of their work. The work is stressful and over 
time can lead to secondary trauma and burnout and reduce effectiveness. 
In order to be productive and objective, frontline workers need to have 
supervision that focuses not only on the work tasks and decision 
making, but also on the impact of repeated stress on their performance. 
Key to providing this kind of support and guidance are supervisors. 
Most supervisors are good at managing the flow of work but not as 
skilled at managing the emotional aspects and it impact on performance.
    There is general recognition that the work force needs to be 
supported and strengthened. One way to do this is to assist supervisors 
in developing the skills needed to assess and assist staff in dealing 
with the emotional impact of their work so that they can continue to 
work effectively.
    Recommendation: Provide training and technical assistance resources 
that focus on the role of the supervisor in managing not only the 
administrative and practice requirement of the work, but also the soci-
emotional aspects of the work.
Issue # 4: Partnership with communities
    Finally, the prevention of child abuse and neglect cannot be done 
by agencies alone. In the communities where children experience the 
greatest risk, there is a need for both agency and community leadership 
and residents to address the problem. We need to begin to change the 
cultural attitudes that make it easy to victimize children. This will 
require partnerships that extend beyond the usual collaborators. We 
need to develop strategies for child protection that focus on 
neighborhoods; and include decentralized services and the inclusion of 
neighbors, community institutions, faith-based organization and 
community leaders in the discussions about improving the safety and 
well being of children.
    In the past, child protective services have operated with little 
interaction with residents. The work has been invisible except when 
children disappeared from the community or a tragedy occurred. We have 
come to recognize that how children are valued and cared for is more 
influenced by the attitudes of the community than the state or local 
government. When communities are provided data and information on the 
status of children, they mobilize to act and bring about change. In 
communities that have built partnerships with residents, there is a 
real interest in the conditions of children and leadership develops 
which offers new ideas and underscores the importance of raising 
children well. Houston, Texas has used this approach to deal with child 
safety and disparities in the child welfare system. We need to continue 
to expand and test this approach.
    Recommendation: Establish demonstration grants to support 
neighborhood partnerships based on shared responsibility for child 
protection. These grants will be used for the purpose of adapting 
current approaches to new communities and evaluating the impact in 
order to better document and understand this approach.
    Madam Chairwoman, Thank you again for the opportunity to address 
this Committee.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Kaplan.

 STATEMENT OF CAREN KAPLAN, MSW, DIRECTOR OF CHILD PROTECTION 
              REFORM, AMERICAN HUMANE ASSOCIATION

    Ms. Kaplan. Good morning. Chairwoman McCarthy, Ranking 
Member Platts and members of the subcommittee, my name is Caren 
Kaplan, Director of Child Protection Reform at American Humane. 
I am honored to provide comments on the reauthorization of the 
Child Abuse Prevention and Treatment Act, and thank the 
chairwoman, ranking member, and subcommittee members for the 
invitation to do so.
    American Humane is a national, nonpartisan membership 
organization that was founded 132 years ago to protect the 
welfare of children and animals. Our testimony reflects over a 
century of progressively advocating at the Federal, State, and 
local levels for laws that protect both children and animals 
from abuse and neglect.
    In 1974, Congress passed what was and still remains the 
preeminent Federal legislation addressing child
    maltreatment. Throughout the United States, a primary 
responsibility of child protection agencies is to receive and 
respond to all reports of alleged child abuse and neglect. 
Historically, there has been one response by the Child 
Protection Agency to accepted reports: An investigation.
    Given that the majority of families who come to the 
agency's attention are at low or moderate risk of
    maltreatment and are not experiencing immediate safety 
issues, a trend has emerged since 1993 among child welfare 
agencies to respond to these families differentially--in a way 
that is much more responsive to the needs they present.
    Differential response--I will also refer to it as DR--is 
based on several foundational tenets. Families are not all the 
same and the severity of the family situation is not identical 
across families who come to the attention of the agency. It is 
important to be responsive to the specific differences.
    Another foundational tenet of differential response is 
based on the fact that the child welfare data nationally 
collected annually indicate that many families receive no post-
investigation services. After being identified and labeled as 
child abusers, these families refuse services and the case is 
closed.
    A significant proportion of these families will return to 
the agency, as there is no intervention to the immediate 
difficulties they have. Some will eventually be involved in the 
court, and they will be ordered to comply with court decisions. 
Thus, our historical approach with these families has been to 
produce incentives to meet an obligation instead of promoting 
cooperation and motivating families to change, which is the aim 
of differential response.
    Differential response emphasizes the value of child and 
family assessments without a determination that
    maltreatment has occurred. It allows for access for 
available resources and services rather than solely 
investigating the occurrence of maltreatment. Services are 
provided to families without labeling a perpetrator, a victim, 
and without listing anyone in the central registry.
    Thirty-eight percent of victims, or over 300,000 children 
nationwide, received no post-investigative services. This was 
data from 2007. In States that have mature differential 
response practices, much like Minnesota--my colleague, Rob 
Sawyer will speak to this--between 60 and 80 percent of the 
families screened by the county child welfare agencies receive 
this family assessment response. And that is the name used in 
Minnesota to refer to their differential response system.
    Families who come to the attention of the CPS agency 
because the child has poor hygiene is inadequately supervised, 
harshly disciplined, are examples of families that can receive 
a non-investigation response. Families who come to the 
attention of the CPS agency because the child has been sexually 
abused will receive an investigatory response.
    The likelihood of any criminal activity requiring 
involvement of law enforcement is not considered appropriate 
for differential response. Families for which there is 
substance abuse or domestic violence or family violence of any 
kind may receive one or the other response, depending on the 
specific situation and the characteristics of the family.
    Differential response has been implemented Statewide and in 
selected jurisdictions in 20 States nationwide. The number 
continues to grow. Although research is in its infancy, random 
assignment design studies, a rigor that is not common in the 
child welfare system, show the following positive results: 
Child safety is not compromised. In some instances, safety is 
achieved sooner. Repeat cases of abuse and neglect decrease. 
There are higher rates of family cooperation and participation. 
There are lower placement rates in foster care. The costs to 
the system are reduced over time. And there is increased 
satisfaction both by the workforce and the families that are 
participating in a differential response system.
    On behalf of American Humane, I respectfully request that 
the subcommittee entertain four recommendations: Support the 
efforts of State, local, and tribal child welfare agencies to 
provide differential responses to individual families who come 
to the attention of the Child Protection Agency. Many families, 
through no fault of their own, lack the personal history, know-
how, and resources to protect their children from harm or risk 
of harm. Differential response systems allow for and promote 
the use of interventions that do not alienate nor demonize 
parents, but rather engage parents in addressing the needs so 
they can successfully and safely parent their child.
    Support flexibility to front load the system. The current 
Federal child welfare funding streams provide incentives to 
place children outside their home. The primary way to prevent 
removal of children from their families' origin is to invest 
resources, whether they be staff time in an intervention, 
concrete and therapeutic services, and formal and informal 
supports, at the beginning of families' involvement with the 
Child Protection System.
    The identification of service needs in a differential 
response begins at the first contact with the family, without 
delaying the availability of service provision until an 
investigation or any other agency procedures are completed. To 
the extent possible, encourage modifications in the State 
Automated Child Welfare Information System, better known as 
SACWIS, that allows recapturing the data of those children who 
are part of a differential response.
    With the implementation of differential response, the 
current child welfare data systems require modification in 
order to collect and produce quality data so that we can 
understand and assess what is happening with these families.
    While we understand that appropriated levels of funding do 
not come out of this committee, it is significant to note that, 
as I said previously, 300,000 children identified as victims of 
maltreatment receive no post-investigative services. Therefore, 
we request your support for the increase of allocations.
    American Humane hopes this CAPTA reauthorization serves as 
a foundation and impetus for the reduction of children who 
experience abuse and neglect and an increase in the number of 
families who have sufficient strengths, capacity, and supports 
to keep children safe from harm.
    Thank you.
    [The statement of Ms. Kaplan follows:]

 Prepared Statement of Caren Kaplan, MSW, Director of Child Protection 
                  Reform, American Humane Association

    Chairwoman McCarthy, Ranking Member Platts and Members of the 
Subcommittee,
    My name is Caren Kaplan and I am the Director of Child Protection 
Reform at American Humane. I am honored to provide comments on the 
Reauthorization of the Child Abuse Prevention and Treatment Act (CAPTA) 
and thank Chairwoman McCarthy, Ranking Member Platts and the members of 
this Subcommittee for the invitation to do so.
    American Humane, a national, nonpartisan membership organization, 
was founded 132 years ago to protect the welfare of children and 
animals. Our testimony today reflects over a century of history 
progressively advocating at the federal, state and local levels for 
laws that protect children and animals from abuse and neglect.
    In 1974, Congress passed what was, and still remains, the 
preeminent federal legislation addressing child abuse and neglect. This 
landmark legislation sets forth a minimum definition of child abuse and 
neglect and authorizes federal funding to states in support of 
prevention, identification, assessment, investigation, and treatment 
activities.
    Through its provisions--the Basic State Grants, the Community Based 
Prevention Grants and the Research and Demonstration Grants, CAPTA 
provides state, local, and tribal public child welfare agencies with a 
foundation for quality child protective services, enhancements of the 
formal and informal preventive, community based services, the 
opportunity for systemic and practice improvements, and expansion of 
our understanding and knowledge that will guide our state statutes, 
policies, practices and customs. This is the essence of CAPTA and the 
promise of our nation's ability to keep children safe and families 
together.
Improving the child protection system
    The first goal of any child protection system response is to keep 
children safe from harm. In fiscal year 2007, an estimated 3.2 million 
referrals, involving the alleged maltreatment of approximately 5.8 
million children, were made to Child Protective Services (CPS) agencies 
[US HHS, 2009]. An estimated 1.86 million children received an 
investigation or assessment. In 2007, an estimated 792,000 children 
were determined to be victims of abuse or neglect. Of the 792,000 
victims, 38% of the victims (300,960 children) received no post 
investigation services.
    American Humane has dedicated the past several years to the 
successful launch of large-scale initiatives that advance our nation's 
child welfare system in order to effectively protect children and 
support families. I would like to detail several of these issues and 
opportunities to be responsive through the reauthorization of CAPTA.
Differential response systems
    American Humane advocates for the implementation of Differential 
Response Systems in Child Welfare as an effective way to respond to 
reports of abuse and neglect. Differential response also referred to as 
``dual track,'' ``multiple track,'' or ``alternative response'' and 
``family assessment'', encourages families to recognize their own needs 
and seek services to enhance parenting skills, mental health concerns, 
substance abuse issues, work/day care issues and/or other distinct 
needs of each family. Differential response encourages family 
participation in agency and community based services. By alleviating 
the concerns raised without a formal determination or substantiation of 
child abuse and neglect, these `alternatives' to traditional child 
protection investigative response achieve or maintain child safety 
through family engagement and collaborative partnerships.
    Historically, there has been one response by the child protection 
agency to accepted reports of alleged maltreatment--an investigation. 
Given that the majority of families that come to the attention of the 
child protection agency are deemed to present low or moderate risk of 
maltreatment, and are not experiencing immediate child safety issues, 
there has been a developing trend for the past 15 years to respond to 
these families differentially in a manner that supports families.
    Differential Response is based on several foundational tenets. 
Families are not all the same--and in particular the severity of the 
family situation is not identical across families who come to the 
attention of the child protection agency and therefore, it is important 
to be responsive to the differences among the families that come to the 
attention of the child protection agency. Another foundational tenet of 
Differential Response is based on the notion that over the many years 
in which we have collected data--the 2009 report of the Children's 
Bureau on Child Maltreatment that examines 2007 data and is the 18th 
issuance of this official report--many families (38% of victims in 
2007) received no post-investigation services. After being identified 
and labeled as `child abusers', these families refuse services and the 
case is closed. A significant proportion of these families will return 
to the CPS agency as there was no intervention to remediate their 
difficulties. Some will eventually require juvenile or family court 
involvement and they will be ordered to comply with court decisions. 
Thus, our historical approach with these families has produced 
incentives to `meet an obligation' and resist anything that resembles 
comparable interference and enforcement instead of breeding the 
cooperation and motivation of families to change--which is the aim of 
Differential Response systems.
    Differential Response Systems is an approach that allows CPS to 
respond differently to accepted reports of child abuse and neglect. It 
emphasizes the value of the assessment of the child and his/her family 
without requiring a determination that maltreatment has occurred or 
that the child is at risk of maltreatment [U.S. Department of Health 
and Human Services, 2003]. It allows for access to available resources 
and services rather than solely investigating the occurrence of 
maltreatment. Services may be provided to families without a formal 
determination of abuse or neglect or labeling someone as a perpetrator 
and listing them in the state's central child abuse registry. [CWLA, 
2005]. It is accompanied by greater efforts to identify, build, and 
coordinate formal and informal services and supports that respond to 
the families self-identified needs.
    Differential Response is typically used with reports that do not 
allege serious and imminent harm. Factors such as the type and severity 
of the alleged maltreatment, the number of previous reports, the source 
of the report, and the willingness of the parents to participate in 
services determine the appropriateness of this response and suggest a 
non-adversarial, cooperative approach to meet each family's unique 
needs. By providing interventions that correspond to the severity of 
the concern being reported, Differential Response results in 
appropriate services to resolve the family issues thereby easing the 
cause or likely reoccurrence of the original concern.
    Differential Response has been implemented, either statewide or in 
selected jurisdictions in almost twenty states and this number is 
rapidly expanding. As Differential Response systems evolve, child 
welfare systems are incorporating a third pathway to respond to the 
families whose reports do not meet the statutory threshold of alleged 
abuse and neglect.
    Although research is in its infancy, random assignment design 
studies involving control and experimental groups have indicated the 
following positive results:
    <bullet> Child safety is not compromised and in some instances 
attained sooner
    <bullet> Fewer repeat cases of abuse and neglect
    <bullet> Higher rates of family cooperation and participation
    <bullet> Increase and changes in service provision; greater focus 
on basic needs and economic hardship
    <bullet> Lower placement rates of children in foster care
    <bullet> Reduced costs over time
    <bullet> Increased satisfaction, both by families involved with the 
child welfare system and child welfare workers
    <bullet> Community stakeholders preferred the dual-response 
approach
            Opportunities for the reauthorization of CAPTA
    <bullet> Support the efforts of states, local and tribal child 
welfare agencies to provide Differential Responses to individual 
families who come to the attention of the child protection agency. The 
preponderance of families is not individuals who have committed 
egregious harm to their children. Many, through no fault of their own, 
lack the personal history, know-how and resources to protect their 
children from harm or the risk of harm. Differential Response systems 
allow for and promote the use of interventions that do not alienate or 
demonize parents but rather engage the parent in addressing their needs 
so they can successfully and safely parent their children.
    <bullet> To the extent possible, encourage modifications in State 
Automated Child Welfare Information System in Differential Response 
jurisdictions that allow for capturing the expanded child protection 
responses. Recognize that with the implementation of Differential 
Response, the current child welfare data systems require modifications 
in order to collect and produce quality data to better understand and 
assess these reforms. Without essential modifications, workers may be 
entering case data in an automated system and documenting by hand the 
data of other cases. This dual approach is ripe for errors and should 
be eliminated.
    <bullet> Support flexibility to `front load' the system. The 
current federal child welfare funding streams, such as Title IV-E, 
provide incentives to use of out of home placement. It is important to 
recognize that the primary way to prevent removal of children from 
their families of origin is to invest resources--whether they be staff 
time and intervention, concrete and therapeutic services, and/or formal 
and informal supports--at the beginning of the families' involvement 
with the child protection system.
    <bullet> While we understand the appropriated levels of funding do 
not come out of this committee, it is significant to note when 
discussing levels of funding with your colleagues, that 300,960 
children identified as victims of maltreatment received no post-
investigative services. Therefore, we request your support for the 
increase in allocations. Greater balance is needed in the investments 
in child maltreatment prevention, identification and early protective 
interventions compared to investments in interventions after a child 
has been separated from his/her family.
    <bullet> Title I of CAPTA authorizes grants to states to help 
improve their child protective service systems. Within the eligibility 
requirements, there is opportunity to encourage states to develop and 
implement Differential Response to families who come to the attention 
of the child protection system.
    <bullet> Title II of CAPTA authorizes grants to states to develop 
community based prevention services including home visitation, parent 
education, and respite care. Since the intent is to develop a continuum 
of preventive services for children and families through State and 
community-based collaborations and partnerships, statutory language can 
promote the development of community response pathways--a third 
response to families--established by State and local public child 
welfare agencies.
    <bullet> In CAPTA's Research and Demonstration Activities, there is 
an opportunity to build the knowledge and evidence on the multitude of 
Differential Response approaches that are currently being planned and/
or implemented across the nation.
Family involvement and leadership
    American Humane strongly advocates for the widespread integration 
of family involvement and leadership models committed to 
institutionalizing fair and transparent planning and decision making 
processes that recognize and build on the protective capacities of the 
family group and provides them with opportunities to reclaim their 
roles and responsibilities as decision makers about their children.
    In the past 10 years, public child welfare and community-based 
organizations have been implementing numerous family involvement and 
leadership models as a way to provide inclusive and culturally-
respectful processes when critical safety and permanency decisions are 
being made about children. Family group involvement and leadership 
models are based on a commitment to ensuring that children's rights to 
the resources of their families and communities are honored, respected, 
and actively cultivated, especially when children and their families 
are involved with formal systems, in particular child welfare. They 
recognize the inherent right of children and families to be connected. 
These models are grounded in the belief that children are best 
protected within the context of their families and that the family 
group has the right to be active partners in making decisions about 
their children's safety, permanency and well-being. These models also 
provide a family perspective for understanding and responding to the 
unique developmental needs of children and their family. Family Group 
Decision Making offers communities an evidence-based approach to reach 
the goals of positioning families as drivers of services, creating 
individualized, family-driven service plans, promoting cultural and 
linguistic competence and building partnerships among systems.
            Opportunities for CAPTA reauthorization
    <bullet> The State Grant eligibility requirements provide an 
opportunity to advance the involvement and leadership of families as a 
principle practice of quality child protection.
Chronic neglect
    American Humane advocates for the building of knowledge, policy, 
prevention and intervention practices that address the unique safety 
and protection needs of children who are chronically neglected by their 
families. Through the identification and monitoring of specialized 
child protection practices nationwide, the development of best practice 
guidance, and the creation of strategic alliances with traditional and 
non-traditional partners, comprehensive, community-based approaches can 
prevent neglect and the recurrence of neglect, reduce the risks of 
chronicity, support and strengthen families in which neglect occurs, 
and facilitate system change that is more responsive to, and effective 
with, families that chronically neglect their children.
    ``Chronic child neglect'' refers to the ongoing, serious pattern of 
deprivation of a child's basic physical, developmental and/or emotional 
needs by a parent or caregiver. While definitions of chronic child 
neglect and the implementation of these definitions, vary by state, 
county and local child welfare systems, several dimensions include the 
duration of neglect, the time period covered by multiple Child 
Protective Services reports, the number of reports (not just 
substantiations), the referral for multiple types of maltreatment, the 
documentation of non-adherence in medical or school records, and the 
child's developmental indicators.
    While the lack of definitional clarity and the use of various 
dimensions to identify chronic neglect compromise a shared 
understanding, the system's inability to reach these families and 
impact the well-being of their children is a fundamental gap. 
Prerequisites for success include: Differential assessment; skilled 
staff; manageable workloads; service array; and long term intervention.
    For more than a decade, state reports to the National Child Abuse 
and Neglect Data System have indicated that more than half of all child 
victims in the United States suffered neglect.
    Given the enduring prevalence of neglect in child maltreatment 
cases, there has been a long-standing need to focus on prevention, 
assessment, treatment and interventions targeting neglect in child 
welfare. According to the National Incidence Study-3 (1996), children 
from families with incomes less than $15,000/year were 44 times more 
likely to be victims of neglect compared to children from families with 
incomes greater than $30,000/year.
    Although a growing body of literature illustrates some evidence-
based best practices for decreasing neglect, such limited endeavors 
fall short of the comprehensive and integrated approach that is 
essential to command the visibility, political will and system reform 
to improve the safety, permanency and well-being of families in which 
neglect occurs. With few notable exceptions, advancements in the 
specialized practice and research of neglect are in their infancy. The 
magnitude of this need increases exponentially when addressing the 
chronicity of neglect.
    The enormous human toll is compounded by the significant economic 
toll, as resources are disproportionately devoted to families that 
chronically neglect their children. Costs associated with these 
families have been determined to be seven times that of other families 
that neglect their children [Loman & Siegel, 2004]. There is an 
undeniable need for more sustained and broad-ranging approaches to 
families that go beyond immediate safety issues, as well as more 
relevant literature and research to provide a base of knowledge that 
informs our practices and policies.
            Opportunities for the reauthorization of CAPTA
    <bullet> An increasing number of states are struggling to confront 
the insidious nature of chronic neglect. The federal government can 
provide leadership and guidance to states in the CAPTA reauthorization 
by providing a clear definition of chronicity or chronic neglect.
    <bullet> While there has been a significant amount of work on 
neglect at the federal level, there are insufficient connections 
between federal efforts and what happens on the ground at the state and 
local levels. There is an opportunity in CAPTA's Research and 
Demonstration Activities to enhance the connections between research 
and practice; target the efforts on chronicity; and assure broader 
dissemination of that which is known and that which is a promising 
practice.
The link between child and animal maltreatment
    American Humane actively addresses the internationally recognized 
link between animal abuse and family violence. Through its campaigns 
against violence, American Humane is a leader in raising public 
awareness, advocating for stronger legislative initiatives, and 
providing tools for decision makers, social service providers, animal 
care and control professionals, veterinarians, parents, and other 
concerned citizens to recognize problems and take appropriate steps to 
end abuse and protect its both human and non-human victims.
    Child and animal protection professionals have recognized this link 
and cycle of violence between the abuse of both children and animals. 
This Link also expands to violence against women by domestic partners 
and violence to elders in the home. One of the first research studies 
to address the link found that 88% of 57 families being treated for 
incidents of child maltreatment also abused animals in the home. 
(Deviney, Dickhert, and Lockwood, 1983). And a 1997 survey of 50 of the 
largest shelters for battered women in the United States found that 85% 
of women and 63% of children entering shelters discussed incidents of 
pet abuse in the family. [Ascione, F. R. 1997]
    When animals in a home are abused or neglected, it is a warning 
sign that others in the household may not be safe. In addition, 
children who witness animal abuse are three times more likely of 
becoming aggressive or abusive. (Currie, C.L., 2006,).
            Opportunities for the reauthorization of CAPTA
    <bullet> In detailing the comprehensive approach required to 
address child abuse and neglect, Title I should acknowledge the vital 
partnership between animal welfare agencies and child protection 
agencies. Much like the recognition of the relationships between and 
among domestic violence, mental illness, substance abuse and child 
maltreatment, CAPTA should include language that supports and enhances 
interagency collaboration between the child protection system and 
animal welfare agencies in identifying child abuse and neglect.
    <bullet> In order to diminish both the initial occurrence of 
maltreatment and subsequent recurrence, it is essential to engage 
families and provide effective, responsive services before their 
challenges become severe and the risks of maltreatment expand and/or 
escalate.
Conclusion
    The first goal of any child protection system response is to keep 
children safe from harm. American Humane hopes this CAPTA 
reauthorization serves as a foundation and impetus for the reduction of 
children who experience abuse and/or neglect and an increase in the 
number of families who have sufficient strengths, capacity, and 
supports to keep their children safe from harm.
    As a longstanding member of the National Child Abuse Coalition 
(NCAC), an alliance of over 30 organizations committed to strengthening 
the federal response to the protection of children and the prevention 
child abuse and neglect, American Humane lends its enthusiastic support 
to NCAC's recommendations for the reauthorization of CAPTA. NCAC's 
testimony has been provided to the Subcommittee in writing.
    American Humane appreciates the opportunity to offer our testimony 
and comments to the Subcommittee in regard to the reauthorization of 
the Child Abuse Prevention and Treatment Act. Given that CAPTA is the 
preeminent federal legislation addressing child abuse and neglect and 
expires this year, it is our hope that its reauthorization is given the 
highest priority and completed before the 111th Congress ends. As this 
legislation progresses, we look forward to a continued dialogue with 
Chairman McCarthy, Ranking Member Platts, Members of the Subcommittee 
and the entire Congress.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Kaplan.
    Sandra.

 STATEMENT OF SANDRA OLIVA, EXECUTIVE DIRECTOR, NASSAU COUNTY 
           COALITION AGAINST DOMESTIC VIOLENCE, INC.

    Ms. Oliva. Thank you, Chairwoman McCarthy and the 
distinguished members of the committee, for the opportunity to 
testify about the Family Violence Prevention and Services Act, 
known as FVPSA. I am Sandy Oliva. I am the Executive Director 
of the Nassau County Coalition Against Domestic Violence, a 
full-service domestic violence and rape crisis agency serving 
all of Nassau County, New York.
    I have been in that role for 25 years, but I come here 
today not to speak for my agency but to speak on behalf of all 
of my colleagues across the country and of course all of the 
survivors whom we serve.
    I am testifying to support the FVPSA's swift 
reauthorization. It expired in 2008. So swiftness is important.
    FVPSA is the only Federal funding dedicated to domestic 
violence shelters and services, and for 25 years it has been 
the lifeblood of programs that are at the heart of our Nation's 
effort to prevent and end domestic violence. With 1.5 million 
American women and some 800,000 men physically abused by their 
spouses or partners, 15.5 million children exposed to that 
violence annually, and an average of three women a day being 
murdered by former or current partners, it is clear that the 
work is essential.
    While FVPSA-funded domestic violence programs have saved 
and transformed millions of lives, great needs remain. As the 
economic crisis that we are in further widens, the gap between 
the growing demand and available resources, it is more 
important than it ever was before to invest in these cost 
saving programs so that advocates across the Nation are 
supporting the FVPSA reauthorization bill that will allow us to 
continue to provide these vital services and build upon our 
strengths to improve and expand services.
    Let me tell you about a couple of the people that we have 
served and their families. First, Anita. My agency helped her. 
She had been in a very long-term abusive, terribly violent 
marriage, and one night her husband told her, It's time for 
couples therapy, we are going together; put her in the car, but 
took her to a remote area and shot her, left her for dead. 
Fortunately, she was found and rushed to the hospital. The 
hospital knew to call our
    hotline and one of our advocates went to her side.
    Eventually, she came into our safe home, where she was 
reunited with her terrified young daughter and was able to heal 
from her physical injuries and begin to plan for her future. 
Now she is living in a safe location, one of our transitional 
homes, and has moved from crisis to stability. There is a woman 
who was left for dead and got a new chance at life with her 
child.
    There are approximately 1,400 FVPSA-funded programs like 
ours across the Nation. In 2007 and 2008, these programs 
sheltered almost 600,000 adults and children. Last year, my 
agency served over 3,000 individuals, adults and children, and 
answered over 6,000 hotline calls.
    Domestic violence programs across the country are available 
24/7 and respond to both the immediate crisis needs of victims 
in danger and their longer term needs to become safe and self-
sufficient. And for almost every story like Anita's, there is a 
gut-wrenching story of a victim who cannot receive lifesaving 
services because programs simply don't have the resources.
    According to Domestic Violence Counts 2008, on just one day 
in 2008, while over 60,000 victims were served by DV programs, 
almost 9,000 requests for services went unmet because programs 
lacked adequate resources to serve them. So I strongly support 
the recommendation to increase the funding authorization level 
at FVPSA to meet the needs of all victims.
    Another one of our clients, I will call her Mary, she came 
to her safe home with her five children after her 2-month old 
baby was released from the hospital with 16 broken bones. The 
abuser, who had been violent with every member of that family 
for years, threatened to kill them all if she ever told anyone 
about the abuse that had been going on.
    She was at the shelter for a while, received individualized 
counseling, case management, advocacy, legal services from our 
agency, and the children had to have a great deal of therapy as 
well. But now this once victimized, terrified, and tormented 
family is thriving in a safe environment with the tools they 
need to rebuild their lives.
    Excitingly, I am thrilled to be able to say, especially in 
this company, that we, our domestic violence agency, is about 
to collocate with the local Coalition Against Child Abuse and 
Neglect so that both of our agencies can work with families 
like Mary's in an efficient and effective way. And we are very 
excited about the collocation and the collaborative effort, 
which we hope will be a model across the country.
    We support the recommendation to include a funding
    set-aside for specialized services for abused children and 
their parents in the FVPSA reauthorization so that programs 
have the resources to provide age-appropriate services to 
children in a supportive environment for the nonabusive parent 
and break the cycle of violence. You cannot have safe children 
if you don't have safe parents.
    To successfully meet the needs of all victims, programs 
must be able to target resources, and the FVPSA statute must be 
reflective of all victims needs. Throughout FVPSA the language 
should be more inclusive of children and youth, as well as 
victims from underserved populations.
    State plans to distribute FVPSA funding should reflect 
steps taken to meet the needs of all victims, including those 
who are marginalized. Specifically, we recommend that it 
include appropriate definitions of domestic violence, dating 
violence, and youth, to ensure that victims, regardless of age, 
can receive vital tailored services. We also recommend enhanced 
and improved targeted resources for culturally specific 
programs and services so that all victims can be safe.
    Finally, the DELTA grants, prevention grants, are a key 
component of FVPSA reauthorization. They help communities and 
States make strides toward preventing domestic
    violence, and we think prevention is probably the most 
important thing that can happen. They do this by changing the 
community and personal attitudes about relationships and abuse. 
Therefore, we strongly support the recommendation to enhance 
and expand DELTA.
    To sum up, in the words of one little boy, when asked what 
he liked about the shelter that he and his mom had been in in 
Maryland, he responded, Well, I can sleep at night now.
    All victims and their children deserve to be able to sleep 
at night and feel safe. To move closer to achieving this goal, 
we urge the committee to prioritize the swift reauthorization 
of FVPSA, inconclusive of the recommendations with an adequate 
funding level.
    Thank you very much.
    [The statement of Ms. Oliva follows:]

 Prepared Statement of Sandra Oliva, Executive Director, Nassau County 
                  Coalition Against Domestic Violence

    Chairwoman McCarthy, Ranking Member Platts, Chairman Miller, 
Ranking Member Kline and distinguished members of the Committee, my 
name is Sandra Oliva and I thank you for the opportunity to appear 
before the Subcommittee to discuss the importance of swiftly 
reauthorizing the Family Violence Prevention and Services Act (FVPSA). 
As an advocate for victims of domestic violence, I am honored to 
address Representatives who have demonstrated phenomenal leadership on 
behalf of victims. I thank Representative McCarthy for inviting me to 
testify and want to report that victims in New York's 4th district are 
proud of your brave and tireless efforts to enact sensible firearms 
legislation that is so important to domestic violence victims, who are 
at extreme risk when perpetrators have and use guns against them.
    I am Sandra Oliva, Executive Director of the Nassau County 
Coalition Against Domestic Violence (NCCADV). I have served in the role 
of director for almost 25 years. NCCADV, founded in 1977, serves all of 
Nassau County, which with over 1.3 million inhabitants, is the most 
heavily populated suburban area in the country. I am a member and 
former Board Member of the New York State Coalition Against Domestic 
Violence and, in turn, I work in partnership with the National Network 
to End Domestic Violence (NNEDV) and the National Coalition Against 
Domestic Violence (NCADV). Having been a part of the movement to end 
violence against women for almost 30 years, I hope to speak on behalf 
of my colleagues across the country and, of course, on behalf of the 
survivors that we serve.
    I am testifying to support the swift reauthorization of the Family 
Violence Prevention and Services Act (FVPSA), which expired in 2008. 
First authorized in 1984, FVPSA is the only federal funding dedicated 
to domestic violence shelters and services and has been the lifeblood 
of programs that have been preventing and ending domestic violence for 
25 years. While FVPSA has helped programs save and transform countless 
lives, significant needs remain. A FVPSA reauthorization bill should 
build on FVPSA's successes while improving to meet the complex and 
diverse needs of all victims of domestic violence. FVPSA's swift 
reauthorization, with key improvements and adequate funding allocation, 
will ensure that victims across the country have continued access to 
services that save lives.
Domestic Violence--Across the nation and in Nassau County
    When I began working in this field, much less was known about 
domestic violence and few resources existed to help victims as they 
endured life-threatening violence. While we now know more about 
domestic violence and our society has acknowledged it as a crime, 
domestic violence is still widely underreported. The statistics are 
alarming. Annually, approximately 1.5 million American women and 
800,000 men are physically abused by their spouses or partners\1\ and 
15.5 million children are exposed to this violence.\2\
    Estimates based on population reveal that there are likely 100,000 
women currently at risk of domestic violence in Nassau County alone.\3\
    Domestic violence is serious, degrading and life-threatening. 
Domestic violence and dating violence includes threats, coercion, and 
physical and sexual assaults against a current or former intimate 
partner. All too often domestic violence ends in death. In 2005 alone, 
1,181 women were murdered by an intimate partner in the United 
States\4\--an average of 3 women a day. In Nassau County, in 2008 and 
2009, 16 adults and children lost their lives in domestic violence 
homicides. The numbers across the country seem to indicate an upward 
trend of senseless loss of life as a result of domestic violence. For 
example, advocates from STAND! Against Domestic Violence in Concord, 
California, are shocked and appalled by the level of violence they have 
seen this year--domestic violence homicides have claimed the lives of 
10 adults and children in 2009. Last year, in York County Pennsylvania, 
10 individuals were murdered in domestic violence-related incidents and 
in Minnesota 35 people lost their lives in domestic violence homicides.
    Domestic violence is more than a crime--it is a public health 
crisis. Such violence and trauma have immediate and long-term costs on 
our communities through lost productivity, medical and health related 
costs and law enforcement and court interventions. The Academy on 
Violence and Abuse estimates the cost of abuse to the healthcare system 
alone to be between $333 billion and $750 billion.\5\ Many social ills 
ravaging our country are connected to domestic violence, and as the 
cycle of violence is perpetuated through children who witness the 
violence, these costs continue to multiply.
The Legacy of FVPSA--Sustaining lifesaving services
    Although the incidence, prevalence and severity statistics paint a 
grim picture, there is hope for victims and for a world free from 
domestic violence. For many victims, this hope starts with the help of 
a trusted advocate from a local domestic violence organization. These 
vital organizations, which are at the heart of our nation's response to 
domestic violence, are sustained by the dedication of the staff, 
volunteers and community and the consistent funding provided by FVPSA.
    NCCADV, along with approximately 1,500 domestic violence shelters 
and programs across the country, has been sustained by the funding and 
support provided by FVPSA, specifically through the state formula 
grants. Since FVPSA first passed in 1984, it has provided a stable, 
modest funding source to ensure that our lights would be on and that 
someone was there to answer crisis calls in the middle of the night. 
NCCADV, like most domestic violence programs, provides lifesaving 
services that have evolved to meet both the immediate crisis needs of 
victims in danger and their longer-terms needs to become safe and self-
sufficient. We offer comprehensive services to help victims rebuild 
their shattered lives, including emergency safe housing/shelter, 24-
hour hotlines, counseling, transitional housing, legal and education 
services, and systems and legislative. Domestic Violence Counts 2008, a 
24-hour census of domestic violence shelters and services conducted by 
the National Network to End Domestic Violence (NNEDV) across the nation 
reveals that NCCADV's services are typical of those provided to victims 
in almost every community. The consistency and flexibility of FVPSA 
funding make this modest funding stream far more valuable than some of 
NCCADV's larger funding sources. Because it is unrestricted funding, it 
is used by many domestic violence agencies to fill gaps in funding and 
sustains agencies that literally save lives.
    The scope of FVPSA-funded services is remarkable. In fiscal years 
2007 and 2008, FVPSA-funded programs sheltered 593,597 adults and 
children in crisis in America. In Nassau County, we provided 22,836 
services to 3,217 adult and child victims of domestic violence and 
answered 6,116 hotline calls. To date, NCCADV has responded to more 
than 188,000 domestic violence hotline calls and has conducted over 
23,130 intake interviews with victims. Over 2,740 women and children 
fleeing from violent homes have turned to NCCADV's shelter, the Safe 
Home for Abused Families (SHAF), since it first opened in 1981. We have 
provided advocacy in more than 20,000 court proceedings. Of course, 
NCCADV is just one program of 1,500. We are heartened to know that 
millions of lives have been touched by FVPSA-funded services since 
1984.
    The number of services provided, however, would have no relevance 
if we weren't highly confident in their efficacy and their 
transformative impact on people's lives. Our confidence in our services 
was affirmed in a recently released multi-state study which shows 
conclusively that the nation's domestic violence shelters are 
addressing both urgent and long-term needs of victims of violence and 
are helping victims protect themselves and their children.\6\
    Of course, the strongest testament to our work is in the stories of 
survivors saved by our programs. Recently NCCADV helped ``Anita'', who 
was in a violent and abusive marriage. One night, her husband told her 
he was driving them to marriage counseling but instead he drove to a 
remote area. There, he shot her and left her for dead. Fortunately, a 
jogger found her and she was rushed to the hospital. The NCCADV hotline 
was contacted and one of our hospital advocates was soon by her side. 
Our advocates helped her enter the Safe Home upon her release from the 
hospital. She was reunited with her terrified young daughter who was 
picked up by relatives. Her husband had disappeared and has still 
eluded capture. At NCCADV, Anita was able to heal from her physical 
injuries and begin to plan for her future. With the help of our 
counselors, she and her child built their strength. We assisted them in 
relocating to a safe location. NCCADV helped her from crisis to 
stability--a woman who was left for dead, has a new chance at life. 
Stories like Anita's happen every day at programs all over the country. 
In fact, according to NNEDV's national Domestic Violence Counts 2008, 
in one day:\7\
    <bullet> Advocates in Pennsylvania helped a woman obtain a 3-year 
protection order after her abuser held her at knifepoint for a day, 
broke her ribs and blackened her eye.
    <bullet> A father in Illinois turned to a local program to help him 
obtain a protection order for his daughter who was critically injured 
by her boyfriend.
    <bullet> An Arkansas woman found safety in an emergency shelter 
after her abuser threatened to shoot her in the head and attach her 
protection order to the hole in her head.
    In addition, the benefits of FVPSA expand beyond the local work of 
agencies meeting the immediate and long-term needs of victims. For 
instance, the New York State Domestic Violence Coalition (NYSCADV), 
along with 55 other state and territorial coalitions across the nation, 
use FVPSA funding to coordinate statewide efforts to end domestic 
violence. Through advocacy, technical assistance and training, NYSCADV 
helps NCCADV and all service providers and victims in New York State.
    Millions of lives have been saved and transformed in this country, 
from Anchorage, AK to Portland, ME and everywhere in between, because 
of the commitment of advocates and the Congressional and Executive 
leadership that have supported FVPSA. Therefore, advocates across the 
nation support a FVPSA reauthorization that will not only allow us to 
continue to provide these vital services but that will also allow us to 
build upon our strengths to improve and expand services. The 
recommendations included in this testimony have been developed in 
consultation with advocates and victims across the nation and we urge 
Congress to pass a FVPSA bill reflective of these priorities. The 
recommendations include, (1) an increased authorization level of $350 
million, (2) targeted funding for specialized services for children and 
abused parents, (3) improvements to meet the complex needs of all 
victims, and (4) statutorily defining the DELTA prevention grants.
(1) Investment in services--Increasing the funding authorization level
    FVPSA-funded programs, frankly, have had a remarkable impact 
despite a lack of adequate resources. Often operating on shoe-string 
budgets, domestic violence programs and shelters use public funding in 
an efficient way and make the most of limited resources. But given the 
paucity of funding, domestic violence programs simply cannot meet the 
breadth and depth of demand on our services.
    Even programs like NCCADV, which is a well-established, long-
standing agency with comprehensive services, struggle to meet all of 
the needs of victims who come forward for services. Last year, at least 
25 families reached out to us for emergency shelter but we couldn't 
provide it because the shelter was full. We, like other domestic 
violence agencies, always work with victims to help them find safe 
alternatives but in some instances it is just not possible. With the 
life-threatening nature of domestic violence, this is simply not 
acceptable. Across New York State and across the country, however, it 
is clear that many programs cannot meet the increasing demand for 
services. According to Domestic Violence Counts 2008, 58% percent of 
programs in New York State served over 5,300 victims on just one day. 
On that same day, however, over 930 requests for services went unmet as 
programs lacked the resources or space to meet the need. Nationally, 
while over 60,000 victims were served on the census day, almost 9,000 
requests for services went unmet.\8\ In fiscal years 2007 and 2008, 
over 240,000 adults and children requested emergency shelter from 
FVPSA-funded programs and were turned away due to a lack of space. For 
those individuals who were not able to find safety that day, the 
consequences can be extremely dire including continued exposure to 
life-threatening violence or homelessness in many cases. It is 
absolutely unconscionable that victims cannot find safety for 
themselves and their children due to a lack of adequate investment in 
these services.
    The gap between adequate resources and increasing demand widens as 
the economic situation worsens. A bad economy does not cause domestic 
violence but financial strain can certainly exacerbate violence and 
victims with fewer personal resources become increasingly vulnerable. 
Since the economic crisis began, three out of four domestic violence 
shelters have reported an increase in women seeking assistance from 
abuse.\9\ Faced with shrinking budgets and reduced donor funding, 
domestic violence programs simply cannot meet the needs of all of the 
victims who come forward for help. A frightening trend across the 
country reveals that many programs have had to reduce services, cut 
staff and, in extreme cases, some have had to close their doors. 
According to the National Center for Victims of Crime, 92% of victim 
service providers have seen an increased demand in the last year, but 
84% reported that cutbacks in funding were directly affecting their 
work.\10\ This fall, advocates watched in horror as state budgets were 
balanced by cutting funding for domestic violence programs. California 
was the most extreme of these when the Governor completely eliminated 
funding for domestic violence programs earlier this year. While we are 
grateful that California State funding has now been reinstated, we know 
that many programs in California have already had to close.
    In rural, remote and impoverished communities, many programs can 
only provide the most basic services. They use their FVPSA funding to 
keep the lights on and their doors open. We cannot underestimate how 
important this is--victims must have a place to flee to when they are 
escaping life-threatening violence. The fact is that countless shelters 
across the country would not be able to operate without FVPSA funding.
    In Nassau County, we know that we could do more with more 
resources. We estimate that there are 100,000 victims of domestic 
violence in Nassau County at any given time. With more funding for 
outreach, we know that we would see an increase in demand for services. 
We know that young victims and victims from culturally specific 
communities in Nassau County, and across the nation, are often 
reluctant to come forward for services because the services are not 
always provided in a way that is culturally responsive. Undoubtedly, 
with more funding, organizations in Nassau County could go a long way 
toward bridging this gap. Many of the recommendations for FVPSA's 
reauthorization will expand the reach both in breadth and depth of 
services to ensure that 1) ALL victims in crisis can receive immediate 
support and 2) that those services are tailored, targeted and 
comprehensive so that victims can rebuild their lives.
    As funding for the criminal justice response to domestic violence 
receives steady increases, more and more victims seek the critical 
services they need to flee violence and rebuild their shattered lives. 
While such safety net services, available 24 hours a day, 7 days a 
week, are primarily supported by FVPSA, FVPSA funding remains 
relatively stagnant. Without a matched investment in services, too many 
victims are left with nowhere to turn. For the past 25 years, FVPSA 
funding has allowed millions of victims to find immediate safety and 
move from crisis to stability. In order to ensure that all victims are 
served when they are in danger and to provide the comprehensive 
services victims need to rebuild their lives after abuse, we need to 
increase our investment in this vital funding stream.
    Therefore, I strongly support the recommendation to increase the 
funding authorization level of FVPSA to at least double its current 
authorization of $175 million to $350 million.
(2) Specialized Services for Children--Intervening in the cycle of 
        violence
    ``Mary'' came to the Safe Home with her five children, after her 2 
month old baby was released from the hospital. Child Protective 
Services had referred her family to NCCADV. The baby had a broken arm 
and other injuries from the abuser's violence. All the children had 
scars and bruises, as did Mary. The abuser threatened to kill her, the 
children and her family if she ever told anyone of the abuse. At 
NCCADV, Mary received individualized counseling, case management and 
advocacy to help her attend to the myriad of issues that arise from 
abuse. At the same time, the children began to heal through play 
therapy. After leaving shelter, they continued receiving counseling and 
are now safe as the abuser is in prison. This once victimized and 
tormented family is now thriving in safe a environment with the tools 
they need to rebuild their lives.
    We know that intergenerational violence is perpetuated as children 
witness and experience violence. In fact, one study found that men 
exposed to physical abuse, sexual abuse and adult domestic violence as 
children were almost 4 times more likely than other men to have 
perpetrated domestic violence as adults.\11\
    Children who are exposed to domestic violence are more likely to 
exhibit behavioral and physical health problems including depression, 
anxiety and violence towards peers.\12\ They are also more likely to 
attempt suicide, abuse drugs and alcohol, run away from home, engage in 
teenage prostitution, and perpetrate sexual assault.\13\
    One-half to two-thirds of residents of domestic violence shelters 
are children, and FVPSA-funded services have always provided services 
to the children in shelter. We know that the most important service you 
can give to a child is to provide safety for her/his non-abusive parent 
so that the child and parent can heal together. Children who witness 
and experience domestic violence need specialized, age-appropriate 
services in order to fully heal and break the cycle of violence. But 
these services must be provided in the context of supporting the non-
abusive parent and child together. By empowering the parent to become 
safe and stable, we help the child.
    To that end, I am very excited about NCCADV's unique partnership 
with the local child abuse agency, the Coalition Against Child Abuse 
and Neglect. This month, we are moving to a shared space, where we will 
offer adult, youth and child victims enhanced, seamless services in one 
central location. At The Safe Place in Bethpage, NY, each organization 
will maintain its independent identity and mission while streamlining 
operations and collaborating on services provided to individuals and 
families. Through joint case management, the entire family's issues 
(emergency housing, counseling, legal representation, and parenting 
skills workshops, for instance) can be addressed on an ongoing basis as 
they work to piece together their broken lives and build a safe 
supportive environment.
    If we had more targeted resources for specialized children's 
services, NCCADV could easily serve twice as many children as we 
currently do. Such funding would allow programs like NCCADV to sustain 
and enhance the essential services provided to children and their 
families and would allow other domestic violence programs to develop 
this critical work.
    Therefore, we strongly support the recommendation to include a 
funding set-aside (25% of excess funding over appropriations of $130 
million) for the Specialized Services for Abused Children and Their 
Parents in the FVPSA reauthorization.
(3) Enhancing FVPSA to meet victims' diverse and complex needs
    To successfully meet the needs of all victims, programs must be 
able to proactively target resources, and FVPSA must be reflective of 
all victims' needs. Throughout FVPSA, the language should be more 
inclusive of children and youth as well as victims from underserved 
populations. The state plans that are developed to distribute FVPSA 
funding should reflect steps taken to meet the needs of all victims, 
including those who are marginalized. The additional recommendations 
outlined below will help to ensure that all victims can be served by 
FVSPA-funded programs.
            (A) Teen and Youth Victims
    At NCCADV, we serve victims of intimate partner violence, 
regardless of age and legal relationship to the abuser. We are also 
committed to reaching out to teens and youth, who are often very 
reluctant to seek services. We have one teen counselor and one teen 
educator but we desperately need additional resources to provide 
counseling and outreach.
    Recently, NCCADV helped a 17 year-old girl whose boyfriend was 
extremely controlling and verbally and physically abusive. This young 
survivor is currently attending our teen dating violence support group, 
where she has begun to regain her strength and finds comfort and 
validation in the company of her peers.
    At the ACCESS-York domestic violence program in York, Pennsylvania, 
an 18 year-old abused, malnourished and pregnant teen received services 
after being referred by a local health clinic. At ACCESS, she found 
transitional housing and was connected with community health services. 
With good prenatal care, she gave birth to a healthy baby. She 
completed her high school education and graduated with honors. ACCESS 
was able to give her the services she needed to start her adult life 
safely.
    By providing early intervention services to youth and teens victims 
of dating violence, we are able to help them define their relationships 
boundaries and distinguish between healthy and abusive behavior. NCCADV 
strongly believes in investing in these services, and we plan to 
allocate additional resources to teen services. It is essential that 
the FVPSA reauthorization allows us to continue to meet the unique 
needs of youth victims and victims of dating violence, by explicitly 
referencing youth and dating violence throughout the statute.
    In order to continue to be able to provide services to teen and 
youth victims, advocates support the recommendation to clarify the 
definitions of domestic violence, dating violence and youth to ensure 
that all victims, regardless of age, can receive vital, tailored 
services.
            (B) Resources for racial and ethnic minority communities
    In racial and ethnic minority communities, service providers need 
resources to develop programs and strategies that build upon cultural 
and community strengths and eliminate barriers to information and 
services. The proposed amendments to FVPSA and dedicated funding can 
help ensure that appropriate services are available to victims in 
ethnic and minority communities. In Nassau County, our population is 
becoming increasingly culturally diverse. The Asian population in 
Nassau County has increased to 6.3% of the total population. In 2007, 
there were 162,564 Latino/Latina individuals in Nassau County, 
comprising 12.4% of the estimated county population, and Spanish is the 
language of 42% of the Nassau County families who speak a language 
other than English in their home. Twenty-three percent of clients at 
NCCADV are Latino/Latina.
    NCCADV provides many of our services in Spanish, provides a 
language line and partners with culturally-specific community-based 
programs. We know, however, that many victims from racial and ethnic 
minority communities do not seek services for fear of becoming isolated 
from their cultural communities.
    Therefore, we support recommendations to enhance and improve 
targeted resources for culturally-specific programs and services so 
that all victims can be safe.
            (C) Resources for Victims from Marginalized Communities
    We know that victims from underserved and marginalized communities, 
including victims with mental and physical disabilities, victims from 
rural areas, elderly and youth victims and those from marginalized 
religious populations often struggle to access services.
    Therefore, we support recommendations to make the FVPSA statute 
reflective and inclusive of such needs and provide targeted resources.
            (D) Resources for Victims and Programs in the U.S. 
                    Territories
    Resources are currently available for domestic violence programs 
and Territorial coalitions in the U.S. Territories but the funding 
formula is not fairly devised to provide adequate resources. Therefore, 
victims from the U.S. Territories often cannot get the services they 
need to flee violence.
    We support recommendations to alter the current funding formula to 
fairly distribute funding to services and coalitions in the U.S. 
Territories of American Samoa, Guam, Northern Mariana Islands and the 
Virgin Islands.
(4) Prevention--The Need to Stop Violence Before it Starts
    Meeting the urgent needs of victims in crisis is vital in order to 
save and rebuild lives. But we know that in order to end domestic 
violence for good, we also have to invest in prevention work. 
Therefore, advocates in New York and across the nation strongly support 
the recommendations to enhance and expand the Demonstration Grants for 
Community Initiatives/DELTA grants in the FVPSA reauthorization. DELTA 
is authorized through FVPSA but is an independent funding line item. 
These statewide prevention efforts, administered by the Centers for 
Disease Control (CDC) and the National Center for Injury Prevention and 
Control, have made bold strides toward preventing domestic violence by 
changing community and personal attitudes about relationships and 
abuse.
    In Nassau County, we acknowledge a great need for prevention work. 
Currently, we have a unique education program aimed at changing 
attitudes about violence in primary and secondary school students. 
However, we certainly do not have adequate resources to sustain all of 
the prevention work that is necessary in our community. Fortunately, 
because the New York State Coalition Against Domestic Violence 
(NYSCADV) is a DELTA grant recipient, NCCADV and programs across the 
state benefit from this statewide initiative. We are highly 
anticipating the release of a state-specific primary prevention tool-
kit that NYSCADV will be releasing in spring of 2010. The primary 
prevention tool-kit will contain exercises, activities, information and 
resources to help individuals and groups think about what would prevent 
domestic violence from happening in our communities. Tools and 
resources are based on lessons learned from the New York State DELTA 
Project and successes from DELTA-funded and non-funded domestic 
violence programs throughout the state. The tool-kit will help 
organizations to initiate their own process of discovery to determine 
the role they wish to play in changing their communities. With 
interactive, web-based tools, NCCADV will be able to connect with other 
advocates to share successes and challenges with others across the 
state and the country.
    Each statewide DELTA project works with a number of local 
initiatives to develop community-specific prevention plans. The local 
projects learn from one another and depend on the guidance of state 
domestic violence coalitions for support and technical assistance. For 
instance, the California Partnership Against Domestic Violence (CPEDV) 
and STAND! Against Domestic Violence in Concord, California are 
involved with a local DELTA project called ``Men Mentoring Boys Into 
Compassionate Men.'' This project is lead by men to encourage other men 
to challenge violence against women. Their annual ``Men of Merit'' 
initiative has been recognized by the CDC as a successful prevention 
strategy because of its positive emphasis on men's ability to reduce 
the occurrence of intimate partner violence as well as its ability to 
engage multiple partners, agencies and state representatives and 
community. CPEDV's involvement in the project allows CPEDV to share 
findings and best practices across the state of California.
    New York and California are two of the fourteen current DELTA grant 
recipients, which includes Alaska, Delaware, Florida, Kansas, Michigan, 
Montana, North Carolina, North Dakota, Ohio, Rhode Island, Virginia and 
Wisconsin. A partnership between CDC and the Robert Wood Johnson 
Foundation is currently supporting additional states in a DELTA 
``Prep'' project that is helping them to devise statewide prevention 
plans. With additional funding, the DELTA Prep states will receive 
resources they need to implement and execute their statewide plans. 
Additional resources will also help to extend research findings and 
tools to support community-specific prevention efforts to the rest of 
the country.
    Therefore, advocates support the recommendation that DELTA grants 
become statutorily defined, reflect current best practice and are 
authorized at $20 million annually.
Building on Strength while Embracing Change
    Our nation depends on FVPSA-funded programs to meet the immediate, 
urgent and long-term needs of victims of domestic violence and their 
children. Domestic violence organizations, sustained by FVSPA funding, 
have helped to save and transform countless lives. FVPSA has reduced 
costs to taxpayers by stopping and preventing costly violence. While we 
celebrate our successes, we are ever aware that victims' needs are 
great and we have much to do to end domestic violence in this country. 
In order to move closer to achieving this essential goal, we urge the 
Committee to prioritize the swift reauthorization of FVPSA, inclusive 
of the recommendations outlined in the testimony above with an adequate 
funding authorization level.
                                endnotes
    \1\ Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers of Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey,'' 2000. The Centers for Disease 
Control (CDC) (2008). Adverse Health Conditions and Health Risk 
Behaviors Associated with Intimate Partner Violence, United States, 
2005.
    \2\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
    \3\ Based on 1 in 5 women experiencing DV in the U.S., Nassau 
County's population of 1.3 million and Census data from 2000.
    \4\ Bureau of Justice Statistics, Homicide Trends in the U.S. from 
1976-2005. US Department of Justice. (2008).
    \5\ Dolezal, T. McCollum D., Callahan, M., Edan Prairie, MN: The 
Academy on Violence and Abuse; 2009.
    \6\ Lyon, E., Lane S. (2009). Meeting Survivors' Needs: A Multi-
State Study of Domestic Violence Shelter Experiences. National Resource 
Center on Domestic Violence and UConn School of Social Work. Found at 
http://www.vawnet.org.
    \7\ Domestic Violence Counts 08: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence.
    \8\ Domestic Violence Counts 08: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence.
    \9\ Mary Kay's Truth About Abuse. Mary Kay Inc. (May 12, 2009).
    \10\ National Center for Victims of Crime. Crime and the Economy. 
2009
    \11\ Greendfeld, L. A. (1997). Sex Offences and Offenders: An 
Analysis of Date on Rape and Sexual Assault. Washington, DC. Bureau of 
Justice Statistics, US Department of Justice.
    \12\ Jaffe, P. and Sudermann, M., ``Child Witness of Women Abuse: 
Research and Community Responses,'' in Stith, S. and Straus, M., 
Understanding Partner Violence: Prevalence, Causes, Consequences, and 
Solutions. Families in Focus Services, Vol. II. Minneapolis, MN: 
National Council on Family Relations, 1995.
    \13\ Wolfe, D.A., Wekerle, C., Reitzel, D. and Gough, R., 
``Strategies to Address Violence in the Lives of High Risk Youth.'' In 
Peled, E., Jaffe, P.G. and Edleson, J.L. (eds.), Ending the Cycle of 
Violence: Community Responses to Children of Battered Women. New York: 
Sage Publications. 1995.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Sandra.
    Ms. Smith.

   STATEMENT OF TERESA M. SMITH, LSW, COORDINATOR EXECUTIVE 
              DIRECTOR, CHILDREN'S ADVOCACY CENTER

    Ms. Smith. Chairwoman McCarthy, Ranking Member Platts, and 
all of the subcommittee members, I would like to thank you for 
the opportunity to speak to you today on the Child Abuse 
Prevention and Treatment Act and the impact this funding has 
had on service provision locally, Statewide, and nationally for 
child victims of abuse.
    My experience as a former child welfare caseworker in 
Pittsburgh, the director of a local children's advocacy center 
in Harrisburg, and an accreditation site reviewer for the 
National Children's Alliance, have helped to shape my 
commitment to ensure children receive what they need to feel 
safe, cared for, and believed. I have also had the privilege of 
acting as cochair of the CAPTA Work Group in Pennsylvania and 
observing firsthand the teamwork and perseverance necessary 
from State and local government, nonprofit agencies, and 
public-private partnerships to meet the requirements necessary 
to become compliant and eligible under CAPTA.
    Pennsylvania, as the 50th State to do so, submitted its 
application and State plan for CAPTA in the spring of 2006. 
Professionals from child-serving agencies and disciplines 
across the State have been working diligently to meet the 
requirements and have selected several areas for improvement to 
Pennsylvania's child welfare response. Although our State is 
early in this process, great strides have been made that 
demonstrate the efforts of those committed to providing quality 
services to child victims an their non-offending family 
members.
    The Pennsylvania CAPTA Work Group has selected several 
areas for improvement. Among them, enhancing the Child 
Protective Services system by developing, improving, and 
implementing risk safety and developmental assessment tools. 
Skill-based training for child welfare workers, State, public, 
and private agency staff is critical to ensure children at risk 
are identified and appropriate strategies and actions take 
place for their health, safety, and welfare. Developing and 
facilitating training protocols on mandated reporting target 
audiences with children, such as primary medical providers, 
schools, hospital staff, and first responders. Collaborations 
among many child-serving agencies and community-based programs 
support comprehensive physical and behavioral health needs of 
children who are reported to be abused.
    These are among just a few of the initiatives in progress 
as Pennsylvania carries out CAPTA requirements for compliance. 
CAPTA funding has allowed Pennsylvania the opportunity to move 
forward with the establishment and training of citizen review 
panels to provide recommendations for systemic change of the 
Child Protective Services system.
    Training of health care providers to report
    drug-affected infants has increased the opportunities to 
engage families that might have remained ``invisible'' in the 
system, thereby improving outcomes for those that are addicted, 
as well as their children.
    I have conducted more than 70 accreditation site visits of 
children's advocacy centers across the country over the past 7 
years. I have met many dedicated professionals, community 
members, and staff members from public and private agencies who 
are charged with providing services to child abuse victims and 
their non-offending family members. Many centers utilize 
Federal funding for child abuse prevention and treatment 
programs to reach underserved populations and develop public-
private partnerships to provide services in creative ways.
    CAPTA compliance has allowed Pennsylvania to examine its 
current child welfare system and develop improvements for the 
benefit of children and families. In addition to child abuse 
prevention and awareness efforts, CAPTA compliance will also 
allow Pennsylvania to increase its impacts on providing a 
coordinated response to child abuse across the State through 
access to funding from the Criminal Justice Act.
    The Children's Advocacy Center, or CAC, model is a 
collaborative community response that coordinates
    multidisciplinary partners in the investigative evaluation 
and treatment of child victims of abuse. Thousands of child 
abuse victims in Pennsylvania have benefited from the 
collaborative team approach for child interviews, medical 
exams, and mental health treatment.
    CJA funding will be a welcome resource to assist those 
communities in developing effective child abuse 
multidisciplinary teams. The PinnacleHealth Children's Resource 
Center, as an accredited CAC, has served a geographic region of 
more than 20 counties for many years. In 2008, the Children's 
Resource Center evaluated 883 children for many counties in 
central Pennsylvania. Approximately 52 percent are referred for 
services from Dauphin County, a third-class county. The CRC has 
seen an increase in the numbers of children referred for both 
sexual and physical abuse and an increase in requests to 
interview siblings of children that have died.
    Dauphin County has seen a 12.8 percent increase in the 
numbers of indicated cases of child abuse thus far this year. 
In 2008, there were four reported deaths in Dauphin County. In 
the first 10 months of this year, there have already been 10 
child deaths. Prior to 2009, Pennsylvania did not keep 
statistics of child near deaths, but has kept them this year in 
compliance with CAPTA. In Dauphin County alone there have been 
eight near fatalities of children, four of which were indicated 
cases of abuse. The increase in numbers of reported abuse cases 
and the severity of this abuse inflicted is evident in this 
community.
    CAPTA and CJA provide support for local programs and is 
essential to continuing the comprehensive quality services 
provided to child abuse victims in Pennsylvania and throughout 
the United States. Child abuse prevention efforts as well as 
coordinated interventions are imperative to providing a safe 
environment for children, families, and the communities in 
which they live.
    I welcome any questions you may have.
    [The statement of Ms. Smith follows:]

   Prepared Statement of Teresa M. Smith, LSW, Coordinator Executive 
                  Director, Children's Advocacy Center

    Thank you for the opportunity to speak with you today on the Child 
Abuse Prevention and Treatment Act and the impact this funding has on 
service provision locally, statewide and nationally for child victims 
of abuse. My experiences as a former child welfare caseworker in 
Pittsburgh, the director of a local Children's Advocacy Center in 
Harrisburg, PA and as an accreditation site reviewer for the National 
Children's Alliance have helped to shape my commitment to ensuring 
children receive what they need to feel safe, cared for and believed. I 
have also had the privilege of acting as co-chair of the CAPTA 
workgroup in Pennsylvania and observing firsthand the teamwork and 
perseverance necessary from state and local government, non-profit 
agencies and public-private partnerships to meet the requirements 
necessary to become compliant and eligible under CAPTA.
    Pennsylvania, as the 50th state to do so, submitted its application 
and state plan for CAPTA in Spring 2006. Professionals from child-
serving agencies and disciplines across the state have been working 
diligently to meet the requirements and have selected several areas for 
improvement to Pennsylvania's child welfare response. Although our 
state is early in this process, great strides have been made that 
demonstrate the efforts of those committed to providing quality 
services to child abuse victims and those children at risk of abuse.
Pennsylvania CAPTA State Plan
    The Pennsylvania CAPTA workgroup has selected several areas for 
improvement that include:
    Improving legal preparation and representation through the 
expansion of the Court Improvement project statewide including training 
for Guardians ad Litem in juvenile dependency matters.
    Enhancing the child protective services system by developing, 
improving and implementing risk, safety and developmental assessment 
tools. Skill-based training for child welfare workers, state, public 
and private agency staff is critical to ensure children at risk are 
identified and appropriate strategies and actions take place for their 
safety, health and welfare.
    Developing and facilitating training protocols on mandated 
reporting to target audiences that have regular and ongoing contact 
with children such as primary medical providers, schools, hospital 
staff and first responders.
    Supporting and enhancing collaborations among many child-serving 
agencies and community-based programs that include comprehensive 
physical and behavioral health needs of children who are reported to be 
abused.
    These are among just a few initiatives that are in process as 
Pennsylvania carries out CAPTA requirements for compliance. CAPTA 
funding has allowed Pennsylvania the opportunity to move forward with 
the establishment and training of Citizen Review Panels to provide 
recommendations for systemic change of the child protective services 
system. Training of healthcare providers to report drug-affected 
infants has increased opportunities to engage families that might have 
remained ``invisible'' in the system thereby improving outcomes for 
those addicted and their children.
    I have had the privilege of conducting more than 70 accreditation 
site visits for the National Children's Alliance across the United 
States over the past 7 years. I have had the met dedicated 
professionals, community members and staff members from public and 
private agencies charged with providing services to child abuse victims 
and their non-offending family members. Many centers utilize federal 
funding for child abuse prevention and treatment programs to reach 
underserved populations and develop public-private partnerships to 
provide services in creative ways.
Children's Advocacy Center Model: A Community Response to Child Abuse
    CAPTA compliance has allowed Pennsylvania to examine its current 
child welfare system and develop improvements for the benefit of 
children and families. In addition to child abuse prevention and 
awareness efforts, CAPTA compliance also allows Pennsylvania the 
opportunity in the future to increase its impact on providing a 
coordinated response to child abuse across the state through access to 
funding from the Criminal Justice Act (CJA).
    The Children's Advocacy Center (CAC) model is a collaborative 
community response that coordinates multidisciplinary partners in the 
investigation, evaluation and treatment of victims of child abuse. 
Pennsylvania currently has 9 nationally accredited CACs and 10 centers 
that have achieved Associate member status with the National Children's 
Alliance. Thousands of child abuse victims in Pennsylvania have 
benefited from the collaborative team approach for interviews, medical 
exams and mental health treatment that CACs provide, yet many more 
child victims live in communities without an established center. CJA 
funding will be a welcome resource to assist those communities in 
developing effective child abuse multidisciplinary teams.
    PinnacleHealth Children's Resource Center (CRC), as an accredited 
CAC, has served a geographic region of more than 20 counties for many 
years and receives limited funding designated through the child 
protective services needs-based budgets from 8 surrounding counties. In 
2008, the CRC evaluated 883 children from many counties in Central 
Pennsylvania. Approximately 52% are referred for services from Dauphin 
County, a 3rd class county. The CRC has seen an increase this year in 
numbers of children referred for both sexual and physical abuse and an 
increase in requests to interview siblings of children that have died. 
Dauphin County has seen a 12.8% increase in numbers of indicated cases 
of child abuse thus far from last year. In 2008, there were 4 reported 
child deaths in Dauphin County. In the first 10 months of this year, 
there have already been 10 child deaths. Prior to 2009, Pennsylvania 
did not keep statistics of child near deaths, but has kept them this 
year in compliance with CAPTA. In Dauphin County alone, there have been 
8 near fatalities of children, 4 which were indicated cases of abuse. 
The increase in numbers of reported abuse cases and severity of the 
abuse inflicted is evident in this community.
    CAPTA and CJA provides support for local programs and is essential 
to continuing the comprehensive quality services provided to child 
abuse victims in Pennsylvania and throughout the United States. Child 
abuse prevention efforts as well as coordinated interventions are 
imperative to providing a safe environment for children, families and 
the communities in which they live.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Sawyer.

STATEMENT OF ROB SAWYER, MSW, LICSW, DIRECTOR, CHILD AND FAMILY 
          SERVICES, OLMSTED COUNTY COMMUNITY SERVICES

    Mr. Sawyer. Good morning, Chairwoman McCarthy, Ranking 
Member Platts, and members of the subcommittee. My name is 
Robert Sawyer, former Director of Child and Family Services in 
Olmsted County, Minnesota. I appreciate the opportunity to 
offer comments on the reauthorization of the Child Abuse 
Prevention and Treatment Act, and thank Chairwoman McCarthy, 
Ranking Member Platts, and the members of the subcommittee for 
the invitation to do so. The comments that I will offer reflect 
a local perspective on child welfare reform efforts and 
differential response in child protection in particular.
    For more than a decade, the Minnesota Department of Human 
Services in collaboration with 87 counties and 11 tribes has 
been actively engaged in child welfare reform. Minnesota is a 
State-supervised, county-administered child welfare system 
generating considerable local control on the provision of 
services for children and families in the child welfare system.
    Minnesota counties fund approximately 48 percent of all 
child welfare services in the State. The State department and 
counties enjoy a positive, constructive working relationship 
that has facilitated a strong child welfare reform effort.
    The Minnesota Department of Human Services, in cooperation 
with the McKnight Foundation, supported the 4-year pilot 
project in 20 counties from years 2000 to 2004. A rigorous 
field study was conducted by the Institute of Applied Research 
using control groups, participant interviews, and the review of 
administrative data. Significant findings included: Child 
safety was
    uncompromised, fewer child maltreatment reports, less 
costly approach in the long run, families liked the approach, 
social workers supported the approach.
    In 2005, Minnesota law was changed, requiring a 
differential response system in child protection, with the 
preferred way to approach families being a family assessment 
for reports not alleging substantiation child endangerment.
    What is differential response? A differential response 
system organizes a child protection agency to respond in a 
proportional manner to reports about possible child
    maltreatment. At a minimum, an investigative response and a 
family assessment response provides an agency option in how to 
approach a family when there is an accepted report of child 
maltreatment. An investigative response continues to focus on 
reports alleging substantial child endangerment.
    A family assessment response is a formal response of the 
agency that assesses the needs of the child or family without 
requiring a determination that maltreatment occurred or that 
the child is at risk of maltreatment.
    The majority of families reported for neglect or abuse 
receive a family assessment response where fault finding is set 
aside and replaced with a safety-focused family assessment and 
services. In Minnesota, high risk reports continue to receive a 
forensic investigation, but greater attention is now paid to 
family and community engagement and the recognition of 
strengths that could be used to promote safety and well-being.
    During the 4 years, 2000 to 2004, that this program 
transitioned from pilot to full implementation, out-of-home 
placements in Minnesota decreased 22 percent. Olmsted County 
initiated the countywide differential response system in 1999. 
The differential response system is organized to provide an 
investigative response, a family assessment response, and a 
domestic violence response for those reports where a child is 
exposed to intimate family violence.
    The implementation of groups of provision, a consultation 
framework, family involvement strategies, and group 
decisionmaking for major decisions has supported the practice 
model that strives for partnership with families and 
collaboration with community resources.
    Over the past decade, with the implementation of a 
differential response system, Olmsted County has seen the 
following positive results: Fewer investigations, less repeat 
child maltreatment, less court involvement, less children in 
placement, more family involvement, and more children served.
    Perhaps the greatest lesson learned through the 
implementation of a differential response system is that it is 
not what we have to do alone that is important, but how we 
choose to do it that makes a difference. We have changed how we 
see and engage families and through that have reached better 
results.
    The following recommendations are respectfully presented 
for consideration: One, support the efforts of States, 
counties, and tribal child welfare agencies to establish 
differential response systems and child protection. Two, 
support the efforts of State, counties, and tribal child 
welfare agencies to front load the system, providing supportive 
interventions for at-risk families screened out of child 
protection.
    Thank you for the work you will do in the reauthorization 
of CAPTA, continuing to enhance safety and well-being for 
children and the strengthening of families to provide a safe, 
nurturing home life.
    [The statement of Mr. Sawyer follows:]

         Prepared Statement of Robert Quinn Sawyer, MSW, LICSW,
                Olmsted County Child and Family Services

    Chairwoman McCarthy, Ranking Member Platts and Members of the 
Subcommittee,
    My name is Robert Quinn Sawyer, former Director of Child and Family 
Services in Olmsted County, Minnesota. I appreciate the opportunity to 
offer comments on the reauthorization of the Child Abuse Prevention and 
Treatment Act (CAPTA) and thank Chairwoman McCarthy, Ranking Member 
Platts and the members of this Subcommittee for the invitation to do 
so.
    The comments that I will offer reflect a local perspective on Child 
Welfare Reform efforts and Differential Response in Child Protection in 
particular.
    For more than a decade the Minnesota Department of Human Services 
in collaboration with the 87 counties and 11 tribes has been actively 
engaged in Child Welfare Reform. Minnesota is a state supervised county 
administered child welfare system generating considerable local control 
in the provision of services for children and families in the child 
welfare system. Minnesota counties fund approximately 48% of all child 
welfare services in the state while the federal government contributes 
36% and the state government 14%. The state department and counties 
enjoy a positive constructive working relationship that has facilitated 
a strong child welfare reform effort.
    The Child Protection System since the 1960's saw a significant 
increase in the reporting of child maltreatment as expanding reporting 
requirements were added in an effort to address perceived child safety 
concerns. The system was limited to an investigative response that 
became an increasingly forensic process with a focus on procedure and 
practices that were developed in response to the most severe forms of 
child abuse and neglect. The Child Protection System had one way of 
responding to all reports accepted for intervention. Nationally and in 
Minnesota approximately one third of accepted reports of child 
maltreatment were founded. In Minnesota approximately 65 to 70% of all 
reports were concerned with child neglect.
    In 1997 Minnesota legislation prompted child welfare reform in an 
effort to improve child welfare outcomes. A pilot project in Olmsted 
County experimented with an Alternative Response to child protection 
reports of low or moderate levels of risk. In 1999 legislation 
permitted counties to voluntarily engage in Alternative Response an 
early name for Differential Response. The Minnesota Department of Human 
Services in cooperation with the McKnight Foundation supported a four 
year pilot project in 20 counties from 2000--2004. A rigorous field 
study was conducted by The Institute of Applied Research, using control 
groups, participant interviews and the review of administrative data. 
Significant findings included:
    1. Child Safety was uncompromised
    2. Fewer new child maltreatment reports
    3. Less costly approach in the long run
    4. Families liked the approach
    5. Social Workers supported the approach
    In 2005, Minnesota law was changed requiring a Differential 
Response System in Child Protection with the preferred way to approach 
families being a Family Assessment for reports not alleging substantial 
child endangerment. At the time of the law, all 87 counties in 
Minnesota were voluntarily providing a Differential Response System.
    What is Differential Response? A Differential Response System 
organizes a child protection agency to respond in a proportional manner 
to reports of possible child maltreatment. At a minimum an 
Investigative Response and a Family Assessment Response provides an 
agency options in how to approach a family when there is an accepted 
report of child maltreatment. An Investigative Response continues to 
focus on reports alleging substantial child endangerment. A Family 
Assessment Response is a formal response of the agency that assesses 
the needs of the child or family without requiring a determination that 
maltreatment occurred or that the child is at risk of maltreatment.
    Effective social work practice in child protection strives to 
engage children and families in a constructive working relationship 
that resolves the issues and challenges impacting child safety and 
well-being. Collaborative working relationships with community 
resources and families build supportive coordinated efforts to enhance 
safety and well-being. Both an Investigative Response and a Family 
Assessment Response utilize the same structured decision making tools 
to provide a frame of reference for evaluating child safety and well-
being and the identification of family needs.
    Minnesota is a leader in developing a Differential Response System 
to reports of child maltreatment. The majority of Minnesota families 
reported for neglect or abuse receive a Family Assessment Response 
where fault finding is set aside and replaced with a safety focused 
family assessment and services. High risk reports continue to receive a 
forensic investigation but greater attention is now paid to family and 
community engagement and the recognition of strengths that could be 
used to promote safety and well-being. During the four years (2000--
2004) this program transitioned from pilot to full implementation, out 
of home placements decreased 22%.
    Olmsted County is one of 87 counties in the state of Minnesota with 
responsibility for administering the child welfare system providing 
intervention and services for children and families where there are 
child protective concerns. Olmsted County initiated a county wide 
Differential Response System in 1999. The Differential Response System 
is organized to provide an Investigative Response, a Family Assessment 
Response and a Domestic Violence Response for those reports where a 
child is exposed to intimate family violence. The implementation of 
group supervision, a consultation framework, family involvement 
strategies and group decision making for major decisions has supported 
a practice model that strives for partnership with families and 
collaboration with community resources.
    In recent years the Differential Response System has been enhanced 
by the development of a Parent Support Out Reach effort to respond to 
families screened out of child protection that may have needs that if 
addressed now will prevent their future entry into child protection. 
Targeted early intervention front load the child protection system 
providing necessary service to families when they need them.
    Over the past decade with the implementation of a Differential 
Response System Olmsted County has seen the following positive results:
    1. Fewer investigations
    2. Less repeat child maltreatment
    3. Less court involvement
    4. Less children in placement
    5. More family involvement
    6. More children served
    Perhaps the greatest lesson learned through the implementation of a 
Differential Response System is it is not what we have to do alone that 
is important but how we choose to do it that makes a difference. We 
have changed how we see and engage families and through that have 
reached better results.
    The following recommendations are respectfully presented for 
consideration:
    1. Support the efforts of states, counties and tribal child welfare 
agencies to establish Differential Response Systems in child 
protection.
    2. Support efforts of states, counties and tribal child welfare 
agencies to ``front-load'' the system providing supportive 
interventions for at-risk families screened out of child protection.
    Thank you for the work you will do in the reauthorization of CAPTA 
continuing to enhance safety and well-being for children and the 
strengthening of families to provide safe, nurturing home life.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Sawyer.
    I thank you all for your testimony. As I said earlier, we 
knew that this was going to be a difficult hearing, basically 
hearing the issues that are facing our families and children in 
our Nation. Like many of you, I believe that we all can do 
better to protect our children. They are the future of this 
Nation. I think it is extremely important that we have our work 
cut out for us, but hopefully work with all of you as we go 
forward on the reauthorization.
    Dr. Spigner, one of the things you had said in your 
testimony, especially talking about when a child abuse case 
happens over State lines, even though they might live in your 
State and how sometimes they are falling through the cracks and 
the cases are not really followed through.
    We also know that, unfortunately, we have seen many 
stories. In fact, I have from the Associated Press a series of 
reports from 2007 which discuss the shadow of sex abuse in U.S. 
schools. Because one of the things we have seen, that someone 
who might be a sex offender goes from one State to another 
State and works at a school. And I have a great concern about 
that. If you could talk about that a little bit on what can be 
done and how we can improve on that.
    Ms. Spigner. One of the critical issues in this whole 
process of evaluating reports of child abuse is attempting to 
identify the perpetrators. When people cross State lines--and, 
generally, teachers, child care providers, when they go to a 
new State, they have to go through a criminal records clearance 
and a child abuse records clearance. If there has been no 
identification because a case has fallen through the cracks, 
then when they are reviewed their records come back as if there 
was no problem.
    So that the more we can resolve the interstate conflicts, 
the more we can identify perpetrators that may be moving 
around, and that is true in terms of teachers, child care 
providers, as well as relatives. If a case is screened out 
because it didn't occur in the right place or because the child 
is not in a particular place, we have no track record on that. 
We cannot even predict how many of these cases are lost because 
there is no trail.
    Chairwoman McCarthy. Thank you.
    Sandra, you talked about your unique partnership we have in 
Nassau County for the local abuse agencies and the coalition 
against child abuse and neglect. Could you go into it on how 
basically you came up with the idea and how you became the 
partners and have a little more influence on the family and the 
child?
    Ms. Oliva. Yes. I would be happy to. We have actually been 
planning and working on this I would say for 6 years now. Our 
agency has had a long-term State grant, which we actually just 
had doubled, to put domestic violence specialists within the 
Nassau County Department of Social Services Child Protective 
Services Unit.
    So we have seen for a very long time how critical it is to 
work on the issues of domestic violence and child abuse in 
coordinated ways. So very often you have co-occurrence in the 
same family. And if you don't have safe parents, if the non-
abusive parent isn't feeling safe, she is not going to be able 
to protect the child.
    So we began to work together with the local child abuse 
agency, which has a child advocacy center, as has been 
described today, to look at ways we could partner and determine 
what we really need to do was not just have projects together 
but really to work very closely to cross-train our staffs so 
when we had a family come in we could identify the issues for 
the children and the moms. And when they had children come into 
their center who had been sexually assaulted, they could begin 
to identify where the mothers also had been victims and been 
unable to protect themselves or their children and also needed 
help.
    And so we are really looking--we are calling it the safe 
place. And we are looking at one location where all families 
will come. They will be served for their different specific 
needs by the two different agencies, because we remain two 
separate agencies at this point. But we would be able to--our 
staffs will be working back and forth, we will be doing 
programs together.
    We are going to have a training institute about family 
violence, which focuses both on domestic violence and child 
abuse. We are going to be working with parents because the 
issue of supporting families and working with parents and 
strengthening parenting is critical in protecting victims and 
in giving them--really enabling them to tap into their 
strengths and live independently and live self-sufficiently, 
which is also critical.
    So this idea has been brewing between our two agencies, 
myself and the director of the other agency, now for years and 
years, trying to figure out the best way to do it. The State is 
very excited about it because this is a model. It is really not 
done anywhere else.
    So we are hoping that we can develop something which other 
agencies across the country will be interested also in 
developing. And of course it is smart business. There is also 
cost savings involved and there are efficiencies involved. In 
these days, you need to save every penny you can for programs. 
Why duplicate the cost of boardrooms and kitchens and bathrooms 
and copiers and that kind of thing when there are smart ways to 
do business?
    Chairwoman McCarthy. Thank you.
    Mr. Roe.
    Mr. Roe. Thank you Madam Chairwoman for holding this very 
important hearing. And thank every one of you all for being 
here to participate. And I am sorry you have to be here. I am 
sorry the issue is even out here.
    My career and background is an Ob/Gyn physician. And you go 
through a difficult pregnancy to deliver a healthy baby and 
then you put it in an environment where it can't be healthy and 
safe.
    I was just--I don't know about Dr. Hammond. I noticed a CDC 
definition of the threat of harm. I felt that maybe that kept 
me in the straight and narrow. I felt the threat of harm 
sometimes at home to keep me getting my homework and so forth.
    One of the issues, Ms. Oliva, I want to talk to you about 
which I think is extremely important are domestic shelters. At 
home ours is called Safe Passage. And my job before I got here 
was mayor of our city, and we almost passed the hat. I mean, we 
would get a few Federal dollars, a few State dollars, a few 
local dollars.
    Two weeks ago my wife and I, I guess, attended a 
fundraiser. We were the keynote people at the fundraiser to try 
to raise a little money, because it is a life vest. It is not a 
boat, it is a life vest, because these people are sinking, they 
have no other place to go. And it needs to be open 24/7. And I 
wholeheartedly support that program.
    I mean, we have tremendous volunteers in Johnson City, 
Tennessee, where I am from, that support this, very needed. And 
also the Children's Advocacy Center also, great programs.
    Just a comment about the funding, if you would. How, where 
you are, are you able to fund your center?
    Ms. Oliva. We are able to fund our center primarily through 
TANF funds, because we are reimbursed on a per person, per day 
basis. In New York State it is different from most in that 
those women who go into a shelter, unless they have a lot of 
money, and almost not ever come in with access even to that 
kind of money, they have to go on to TANF, they have to go onto 
welfare. And so we are reimbursed that way.
    That is really a degrading process for so many people, and 
it is shameful. But on the other hand, it has really produced a 
supply of funding for the neighborhood shelters in New York to 
survive. But I will tell you, it is not enough because you 
can't have a shelter in isolation. And the FPSA money goes to 
shelters and to programs that support it. You have got to have 
a hotline running 24 hours a day. You have got to have 
advocates able to work with women and to advocate for them with 
all the many systems. You have got to be interacting with the 
criminal justice system on behalf of these women; we provide 
legal services. So especially with growing immigrant 
populations we need--really we need specialized immigration 
legal services for so many of our clients. So the funding for 
these programs is essential.
    Mr. Roe. And I agree with you.
    Ms. Oliva. You can't live on volunteers. You must have paid 
staff, and that is where most of the cost is.
    Mr. Roe. Our problem is we can barely pay the staff. 
Everywhere you are understaffed. And so I hear you loud and 
clear.
    A couple of just quick questions. A demographic I noted 
years ago, if you are 18 years old when you have your first 
child, you have a high school education and you are married, 
those three things, you almost don't live in poverty. And those 
things, I think, are missing. So when the children are abused, 
is it educational level, is it drug abuse, is it poverty, is it 
urban versus rural? I know you have got a model to tell us. And 
anybody can answer this question. Someone who is at risk, I 
guess, is what I am asking.
    Ms. Oliva. You are asking what puts people at the greatest 
risk.
    Mr. Roe. Right.
    Ms. Oliva. Well, in domestic violence it has a great deal 
to do with the way in which people grow up, what they learn, 
what they learn about how to channel their feelings, how to 
channel their anger, how to use the power that they have within 
their families. And so much of abuse is about that.
    But there is no doubt that the economic issues are there. 
And if you--we have so many women who are stuck in 
relationships. They can't get out of marriages. They can't get 
out of the house or the apartment that they are living because 
where are they going to go, how are they going take care of 
their kids? And so the economic issues are tremendous.
    We find that being able to provide transitional housing 
through Federal HUD dollars has been the key to helping women 
not just escape on a temporary basis from the immediate danger, 
but to become self-sustaining and really begin violence-free 
lives with their family.
    Mr. Roe. Dr. Hammond, one quick question. My time is about 
out, but did you all have a demographic of that from an 
educational level, drug abuse, all those factors that we know 
may play a role?
    Mr. Hammond. Well, there is no question that things like 
substance abuse, level of income, et cetera, are contributors 
to child abuse. But I want to underscore there is no absolute 
profile of who is and is not an abuser. But what we try to do 
in public health is look at the circumstances surrounding 
families. The pressures of everyday parenting can be 
exacerbated, for example, by economic conditions, interpartner 
conflict in the home. And the more we can involve others, and 
in particular I would suggest the primary health care system, 
as an avenue for the support of parents, the more we can 
provide some system for early intervention on these pressures.
    So what we see is that it is possible to recognize some of 
the very subtle risks that create the potential for child abuse 
and neglect in families. But families, and parents 
particularly, need a safe environment in which to get the help 
where there is less risk of them, in fact, losing their kids. 
So that is why I have been underscoring the need for public 
health to complement what child protective services and child 
welfare agencies can do.
    Mr. Roe. Thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Representative Chu.
    Ms. Chu. Thank you, Madam Chair.
    Ms. Kaplan and Mr. Sawyer, you made a compelling argument 
for the deferential response system, and you said that 20 
States already have this, and it is kind of a no-fault system 
where there is a front load of services in families where there 
may be abuse or neglect. How do these States pay for it? Does 
it require funding above and beyond the allocation that is 
there? Can any CAPTA funds be utilized for it, or can this be 
done through reallocation of funds?
    Mr. Sawyer. In Minnesota about approximately half of the 
funding for all child welfare services is raised through local 
property tax. So the State county commissioners are in a 
position to levy funding that is used. The second source of 
funding comes from the State legislature and the appropriations 
that it makes. And then the third source of funding in 
Minnesota is the Federal revenue that comes into the State. And 
it really is a stream of funds.
    And I think the request to the Federal Government is that 
the more flexible and the less caps that are put on funding 
makes it easier for the system to access and be able to fund 
programs at an appropriate level.
    Ms. Kaplan. And I would just add that--I wanted Rob to go 
first because I knew what he was going to say specific to 
Minnesota. CAPTA Title I dollars can be used. CAPTA Title II 
dollars cannot be used because they are targeted to children 
that are not involved with the child protection system. And 
that is by design so that there are monies that are dedicated 
exclusively for the preventive arm.
    But that is not typical. It is very much a patchwork where 
people are taking dollars from the Children's Justice back, 
they are taking dollars from Safe and Stable Families. There 
are local and State revenue streams, but there is not a 
dedicated source of dollars. And as you know, CAPTA dollars are 
not aplenty, and so a small amount might have the ability to go 
ahead and be targeted toward it. They are able to do it, but 
there are not a whole lot of dollars to do that.
    Ms. Chu. So are you saying that one part of the fund should 
be more flexible, or that there should be targeted funds for 
this.
    Ms. Kaplan. I think that, frankly, the States would be very 
pleased to have more flexibility, and that flexibility should 
allow for using the dollars in this way.
    Ms. Chu. Thank you.
    Dr. Hammond, Prevent Child Abuse in California bought to my 
attention a fundamental flaw in the structure of our child 
protective services. They said that most funds are only 
available after a case is made official; and that is to say 
when Child Protective Services gets an initial phone call 
making them aware of possible abuse or neglect, Federal funds 
can't be used--can't be used to evaluate whether or not that 
case should be pursued. And considering the fact that an 
average investigation costs $1,200, it could be quite costly to 
the tight budgets of child abuse agencies.
    Can you talk about this? It basically would seem like the 
incentive would then be to either make a finding of abuse to 
pay for that investigation and evaluation. Shouldn't there be 
funds for an initial evaluation?
    Mr. Hammond. Thank you for the question.
    I am not familiar with the details of the law and how the 
money flows with respect to evaluations, but I can say that 
everything that we can do to invest on the front end with 
preventive services will--in the back end will lessen the cost 
of families getting enmeshed in the child protective services 
systems.
    There is no question that the cost of investigations, et 
cetera, are probably very, very high, but what would be very 
helpful is if we had ways to identify support for preventive 
services, perhaps through new ways of doing health care in the 
primary health care system that would prevent the need for the 
back-end cost that you are referring to. But I am happy to 
refer your question to the Department of Health and Human 
Services regarding the specifics of how costs are related to 
child abuse investigations and what can be done there, and I 
would be happy to provide that.
    Ms. Chu. Thank you.
    Chairwoman McCarthy. Mr. Platts.
    Mr. Platts. Thank you, Madam Chair. And, again, my 
apologies for having to run out and come back, but that is one 
of the benefits of written testimony. I do apologize, though, 
if I ask a question that was already addressed and is being 
repetitive.
    Ms. Smith, I want to start with your testimony. And you 
talk about the numbers, staggering, a 12.8 percent increase in 
indicated cases in Dauphin County, and then from 4 last year 
deaths and already 10 this year, just a really heart-wrenching 
statistic.
    Are you able to try to identify, or would you be able to, 
what you think is driving that? Is it added stress because of 
the economic issues? Is it, you know, other, you know, social 
issues, you know, what is really kind of an underlying thing we 
need to look at?
    Ms. Smith. Well, I think as Ms. Oliva had mentioned----
    Chairwoman McCarthy. Could you put your mic on?
    Ms. Smith. As Ms. Oliva had mentioned, she was talking 
about economic stressors really having an impact, I think, on 
the stress that people are feeling. I can't specifically say in 
these cases in Dauphin County what those things were that 
brought it to that point, but I know that the children that we 
are seeing more in our advocacy center, and we are a hospital-
based center so we can provide the medical exams right there, 
seem to be not only more frequent, but more severe cases, 
particularly of physical abuse. And I believe that some of 
those deaths were related specifically to physical abuse of 
those children.
    Mr. Platts. Is there any change in the age of a child--
children being abused, any variables in that sense?
    Ms. Smith. We haven't done a study recently, but I think 
the majority of the children that we are seeing, the average 
age is still around 6 to 8 years old. We do seem to see a lot 
of very young children. I know that we have evaluated children 
as young as just a few weeks old.
    Mr. Platts. Two weeks.
    Ms. Smith. A few weeks. I believe one of the child deaths 
in Dauphin County was of a 5-week-old infant.
    Mr. Platts. Just heart-wrenching as a parent and hard to 
imagine the harm of a parent doing that to their own child.
    In the testimony you also reference the citizen review 
panels.
    Ms. Smith. Yes.
    Mr. Platts. Could you expand on that and how that kind of 
works, and the type of feedback or the structure?
    Ms. Smith. Well, we are just in the process of doing that. 
Actually letters have just gone out. There will be three panels 
in Pennsylvania in different regions of the State. We are going 
to be training the citizens in the child welfare system itself 
and then asking for their input in what they see. The citizens 
were sent letters requesting anybody that was interested. We 
were hoping to have folks from various areas maybe that already 
had some experience in their life of dealing with the child 
welfare system, and utilizing that to help make changes and to 
really look at the system.
    Mr. Platts. So the panel, the goal is how to improve the 
system in how we respond, prevent and respond to child abuse 
more so than helping in the local communities to identify----
    Ms. Smith. Well, regionally they will be pulled from those 
regions. So hopefully we will be able to get some of the 
information from the rural areas as well as from the urban 
areas of what the specific issues are that are being dealt 
with.
    Mr. Platts. Again, about how to respond to, prevent and 
respond to.
    Ms. Smith. Yes. System improvement.
    Mr. Platts. Right. What is working in their area and try to 
have that shared in a broader sense.
    Ms. Smith. They will be working with State officials from 
the Department of Public Welfare and sharing that information. 
And then the department will be looking at how to take that and 
put it into action.
    Mr. Platts. Somewhat related. Dr. Spigner, in your 
testimony you talked about neighborhood-based strategies. Could 
you expand, one, when you talk about neighborhood, do you mean 
truly a local neighborhood or a local community, and how you 
anticipate that working?
    Ms. Spigner. That is a great question. A number of 
jurisdictions have started this process by mapping where the 
reports come from, because reports, sometimes they are 
dispersed, but sometimes they are really aggregated in certain 
neighborhoods or certain communities. So the first thing an 
agency would do is to look at where the reports are coming 
from, then to begin to identify those communities with the 
greatest vulnerability in terms of child abuse and neglect.
    Then the agency really recruits neighborhood leaders and 
residents and shares information about what is happening to the 
children and families in their community, and begin a process 
of brainstorming and collaboration to begin to build strategies 
that the neighbors can literally engage in to keep children 
safe.
    One of the problems we have in child protection is that we 
have held onto this notion of privacy and confidentiality so 
closely, that people really don't understand how many children 
are being removed from the neighborhood, what the circumstances 
are. So when data gets presented, it really surprises people, 
because this has been kind of an invisible process.
    And this is not about destroying privacy, but it is about 
giving a picture of what is happening in a community. Then you 
begin to see the community say, wow, we didn't know what is 
happening to our kids. We need to begin to think together about 
how we can use churches and civic clubs and actually 
communities to work on this issue of safety, to begin to say to 
a parent in a way we are not willing to do now, don't you 
really think--let me offer you another way to talk to your 
child about this, so that you begin to change almost the 
culture of the neighborhood so that children's safety becomes 
paramount. And it is a capacity-building process. But I think 
we have got to recognize that communities are part of the 
answer, and we need to begin that kind of discourse.
    Mr. Platts. And empowering those communities and getting 
that buy-in at the local level to respond, because I can equate 
it to the difference today in growing up. When I was a kid in 
our neighborhood, there was--I mean, the times are different. 
And so if anything happened to anyone in that neighborhood with 
any of us kids, it was immediately known by everybody. Also it 
was different because moms were more present in the communities 
because of different times, where now both parents are having 
to work more. With both parents working or more single-parent 
families, it is harder to have that type of engagement that 
maybe we need to try to return to for the safety of children in 
all ways, including when it comes to abuse.
    Ms. Spigner. Let me just say that there are a number of 
jurisdictions that have been working on this. In Jacksonville 
it has been really interesting, because as they began to talk 
to the community, the neighborhood, about what kids needed, 
what was needed, people began to say, well, our kids really 
don't have anything to do after school. So it kind of raises 
the challenge of caring, and it puts pressure. And so they 
began to organize within that community after-school programs 
and got some city funding so that kids could stay in their 
neighborhood, but there was someplace for them to go.
    We have seen a similar strategy in Houston, where they 
looked at the area where most of the kids are coming from, and 
they began to talk about what was going on in that neighborhood 
because of the high rates of entry of African American children 
in the child welfare system. So they began to mobilize the 
African American community. And now they are beginning to see 
after a period of 3 to 5 years declines in reports and 
increased safety in kids.
    So we have got to think about new partnerships.
    Mr. Platts. Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you. And thank you for that line 
of questioning.
    Before I call on the next questioner, I just want to say 
with the testimony that you have all been saying, and Dr. 
Hammond mentioned public health, primary care and nursing 
services, and then working together, what Sandra was talking 
about of bringing everything together, until we are able to 
have--and also, Dr. Spigner, what you were talking about, 
bringing the community together in one place so that you can 
see the child and the family as a whole. I happen to think that 
would certainly help each and every one of you in your job.
    Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chair.
    Ms. Oliva, you talked about in your testimony about the 
importance of providing services to teens as it relates to 
their being victimized by dating violence.
    Ms. Oliva. Yes.
    Mr. Tonko. Can you indicate for us where there might be 
added efforts made for those who are victimized by dating 
violence as opposed to domestic violence? Are there needed 
professionals, or are there approaches that need to be taken to 
address that population?
    Ms. Oliva. Well, actually dating violence is a subset of 
domestic violence, it is a form of, because domestic violence 
has to really be seen as something broader than just a husband/
wife or two partners who are living together. It also involves 
intimate partners, whether they are related, living together or 
seeing each other, dating each other and having a relationship. 
And as we all know, our kids are dating earlier and earlier, 
you know, seem to be getting older faster. And this issue of 
violence within teen relationships is growing exponentially. It 
is the one place where we are really seeing significant 
increase in the violence is in particularly for young women 
between 16 and 24. This is a very high-risk population in high 
schools and colleges.
    And so we believe that early intervention through 
prevention services, being able to reach young people, teens, 
and not expect them to come to the schools for their help; but 
to work with the schools, to be able to bring the issues, the 
messages to the schools, to let the kids know who is there to 
help them. But kids are not going to go for help to a school 
counselor because of the stigma or the fear of ratting on the 
guy, or the stigma of being seen by everyone as the young woman 
who was raped or the young man who is being beaten.
    So what we are really talking about is being able to work 
collaboratively between schools and programs to do the kind of 
outreach so that young people know about and learn about 
healthy relationships early when they are beginning to have 
relationships. And I am talking about, you know, young boys and 
girls and working with them and giving them a place to come to.
    And that is why the kind of funding we have been talking 
about for domestic violence is so critical, because this 
outreach and prevention and the ability to provide services. I 
mean, so many young women now, especially with the advent of 
technology, are being stalked. We had one girl who she had to 
turn her cell phone on next to her pillow at night so that he 
could hear her breathing any time he wanted to from his home 
and she would never be out of reach.
    I mean, these kinds of things are happening to our kids, 
and we have to become aware of it. It is so critical to reach 
them young. If you teach people young to be in healthy, 
respectful, nonviolent relationships, then we won't need these 
programs generations later. Prevention is key.
    Mr. Tonko. So if there is a stigmatization that occurs 
through the school networking, how do you best reach----
    Ms. Oliva. Well, we go into the schools. We use some of our 
FPSA money to go into the schools to do programs within, the 
guidance programs within the social studies curricula. We are 
working within different--depending on where in the school we 
are invited in that we can get, at levels, at junior high 
school, high school, college levels, and reach the kids and 
talk with them and have sessions with them.
    But we understand that the kids are not going to come out 
publicly in front of their friends for the most part. But we do 
get our kids coming up to us saying, my friend, this is 
happening to her. And then we can reach out to the individual 
through the guidance counselors and the social workers in the 
schools and arrange for the children to come and work with us 
on site or other sites near the school, make use of other 
programs, because you have got to have--I mean, absolutely you 
have got to have communities. This has got to be integrated 
work. You cannot be isolated and have a program here and a 
program there and a school here and a library there. You have 
got to integrate all of the resources of a community in order 
to work so that we can prevent this and we can have young 
people growing up in healthy, safe relationships. And they in 
turn will then provide healthy, safe environments for their 
children.
    Mr. Tonko. And how early in the networking with children, 
youth?
    Ms. Oliva. We start very early. We start in first, second 
grades. But we primarily focus--because we know at that age 
what we are really teaching them is things like hands are not 
for hitting, not to be--you know, not to be physically hurtful 
of each other.
    But really our real focus is around the junior high school, 
somewhere around the early teens, because kids 12 years old are 
involved in relationships. At 13 and 14 they are in sexual 
relationships, and if you don't reach them then when they are 
beginning to form their ideas--children often replicate what 
they have learned at home, and they also replicate what peers--
you know, what is the thing to do and how to be. And if they 
don't all--if they don't begin to believe that the way to be 
within relationships is loving and respectful and nonabusive, 
then we are never going to--this issue is going to be 
perpetuated in parents and children, and it is just going to go 
on and on. So to stop it we have to get to the kids.
    Mr. Tonko. And just a question about how perhaps boys, 
young men, relate to the program as opposed to girls and young 
women.
    Ms. Oliva. We have been working on different projects over 
the years that are very successful with young men. They are 
primarily the kinds of programs that say, you know, real men 
don't hit, real men don't hurt. It is that kind of using men 
who are good role models for them to be there talking to the 
kids in the schools. It is very effective when young men see 
men they respect speaking to them about how--you know, how real 
men are loving and kind and don't physically harm and hurt and 
abuse.
    And, of course, you know this is very complex. Abuse is not 
always physical. There are an awful lot of other kinds of abuse 
that go on that you don't see, that don't come to the attention 
of the criminal justice system or the guidance counselors in 
the school or the social workers and agencies, but people who 
are in very painful, denigrating relationships.
    So it is very critical to reach the young men and the 
women, and they are both responsive. I do believe that people 
want to learn and want to be happy and healthy, and what they 
need is a hand. They need someone out there to reach them 
personally. And we find what is especially effective at the 
college level is working with the residential assistants, for 
example, in the dorms, and to have someone there who has been 
trained and understands, not to be the counselor, but to get 
someone to the right help. So it is reaching out, letting 
people know what is available in your community, whom you can 
go to to help you get the help you need. And that, to me, is 
the way it has to be.
    Mr. Tonko. Thank you.
    Chairwoman McCarthy. Ms. Moore.
    Ms. Moore. Thank you so much, Subcommittee Chair McCarthy, 
for allowing me to participate in this hearing.
    I have so enjoyed working with the National Network to End 
Domestic Violence, with all the domestic violence coalition 
partners over the past several months to get this desperately 
needed reauthorization of FPSA. And I certainly look forward to 
working with the subcommittee and the committee in the months 
ahead to do this.
    I want to ask the panel some important questions, but I 
just want to state for the record, Madam Chair, that I do think 
we need to seek to increase, substantially increase, the 
authorization levels for the FPSA program. And I think that 
this hearing really substantiates and elucidates the reasons.
    We have heard some really chilling testimony here today 
about the kinds of dangers that women and children, and even 
men, are in in domestic violence situations, and with some 
staggering statistics that Ms. Oliva presented for the Academy 
on Violence and Abuse stating, was it, $333 billion to $700 
billion being the cost of abuse in our health care system. So 
it is no wonder that these insurance companies want to treat 
domestic violence as a preexisting condition and not pay for it 
when you consider a $750 tab for the cost of domestic violence.
    Dr. Hammond made a statement in his testimony, in his 
written testimony and in his oral testimony, that these 
children and families were at greater risk for cancer, heart 
disease and other sorts of diseases you don't ordinarily 
associate with domestic violence. And so, again, I think 
prevention, as all of them have mentioned, is increasingly 
important.
    And, of course, Dr. Wilson Spigner talked about the 
importance of getting the communities involved. I remember 
Billie Holiday's song, you know, if I get beat up by my papa, I 
ain't gonna call no coppa, and it ain't nobody's business if I 
do. It is our business. Domestic violence is our business.
    I guess in terms of reauthorizing the program, there is 
increased monies for States and territories in a new grant 
program to reach out to underserved communities. So I would ask 
Ms. Oliva and Mr. Sawyer in particular, who has worked with 11 
tribes in Minnesota, number one, what difference does having 
cultural competent services make? I notice in the territories 
there is a higher rate of domestic violence. And then I want 
Ms. Oliva to tell us what happens to these families who they 
are unable to serve because of the dearth of funding?
    Mr. Sawyer. In Minnesota the Department of Human Services 
and a number of the tribes have begun a new collaboration over 
the last 2 or 3 years, and that collaboration is really focused 
around trying to strengthen the tribes themselves, to build 
capacity within the tribal community to provide outreach and 
services to the members of its tribes.
    I think that overall in the system there is a continuing 
need for the personnel who work in the child welfare system to 
reflect the populations that they work with, is probably a good 
place to start in terms of reaching common ground, in terms of 
understanding of each other. But I think it is that basic 
appreciation that we are all different, and we have to be very 
respectful of those differences and find ways to make sure that 
we are approaching the work in a way that decreases issues 
like----
    Ms. Moore. My time may expire, so I want to make sure I 
push you toward answering my question. I mean, is there a 
consequence that we all need to know about in terms of not 
having culturally competent services?
    Ms. Oliva. You know, this is an issue which creates so much 
shame and stigma and a sense of wanting to keep this private 
and this ``behind closed doors'' concept. And it is very 
difficult for people to reach out and make known that they--or 
even to be able to feel safe doing so. So it is extremely 
important that people have the ability to reach out in places 
that they are comfortable. And culture competence and culture 
familiarity and language familiarity certainly are critical for 
that, because the important thing is to get people to reach 
you, to reach out to you before the police come to the door 
because the neighbor heard a shot or someone screaming. You 
want people to be able to reach for help. And when they do come 
out for help, or when they are brought for help, you want them 
to feel safe and able to communicate what their needs are and 
what is happening in their homes to themselves and their 
children.
    Ms. Moore. With your diligence, could you please answer my 
second question: What happens when there is no room in the 
shelter? Can you give us some examples?
    Ms. Oliva. Domestic violence programs never turn somebody--
never say, sorry, we are busy, call back tomorrow, we don't 
have room. However, more and more we are seeing shelters, 
including my own, not able to meet the needs. So we need to--we 
get very creative, and in every possible way we use much of our 
discretionary money on helping people pay for transportation, 
medicine, food, you know, that kind of thing, so that they can 
be in some kind of emergency situation, they can be relieved of 
it.
    We have used motels for very short-term stays. We try to 
work with everyone to find is there a safe place for you to be. 
We have transported people all over the country. But--sometimes 
because that is the safest thing for them, but also because 
sometimes we just don't have the resources, and so we have to 
scrounge and find. It is very difficult, it is extremely 
difficult, and sometimes people give up when they don't get the 
help they need right away, and it just feels easier to just go 
back. And that is terrible, and we don't want that to happen. 
That is why these resources are critical.
    Ms. Moore. I yield back. Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    As you probably heard, bells are going off, and beepers are 
going off. We are in the middle of a vote. So we usually have 
time on this panel to actually go for a second round of 
questions. That is the beauty of--I personally think of our 
subcommittee anyhow. But with that, being that we are going to 
be down there for 45 minutes, I want to thank each and every 
one of you for coming in. It was heartbreaking testimony, but 
it certainly gives us a good roadmap on what else it is we need 
to do as we go forward on the reauthorization.
    We heard the testimony today about the importance of good 
prevention programs, the need for good decisions to be made by 
our child welfare workers, and the need to consider all 
appropriate avenues for families that are in crisis. As we move 
towards reauthorization, we will have our work cut out, but by 
taking a comprehensive approach to abuse, violence, prevention, 
children, families and communities, we will be a healthier 
Nation.
    I want to thank again all of our witnesses for being here 
today. Each of you have highlighted the very real concerns with 
access and the issues we need to focus on during the 
reauthorization process.
    I want to mention that there has been a great deal of 
interest in this hearing, and we have received many requests to 
submit written testimony. I would also like to submit two 
reports for the record, one from the National Network to End 
Domestic Violence, which provides a snapshot of the lifesaving 
work of domestic violence services and shelters across the 
country. The second is called Meeting Survivors' Needs: A 
Multiple State Study of Domestic Violence Shelter Experiences. 
I would also like to introduce the 2007 series of AP articles 
on child sex abuses in our schools. Without objection, so 
ordered.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The report, ``Meeting Survivors' Needs: A Multi-State 
Study of Domestic Violence Shelter Experiences,'' may be 
accessed at the following Internet address:]

          http://www.ncjrs.gov/pdffiles1/nij/grants/225025.pdf

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    Chairwoman McCarthy. I am also expecting several other 
groups will be submitting testimony towards this as we go 
forward.
    As previously ordered, Members will have 14 days to submit 
additional materials for the hearing record. Any Member who 
wishes to submit follow-up and questions in writing to the 
witnesses should coordinate with the Majority staff within the 
requested time.
    Without objection, this hearing is adjourned. Thank you 
again.
    [Additional submissions of Mrs. McCarthy follow:]

      Prepared Statement of Sheryl Cates, Chief Executive Officer,
                   National Domestic Violence Hotline

    Dear Members: For over 13 years, victims have obtained 24-hour, 
confidential and anonymous help through the toll-free National Domestic 
Violence Hotline. Each year, highly trained Hotline advocates provide 
support, information, safety planning, crisis intervention and 
referrals to agencies for hundreds of thousands of victims and anyone 
calling on their behalf. Assistance is available in English and Spanish 
with access to more than 170 languages through interpreter services. 
Help is available to callers 24 hours a day, 365 days a year by calling 
1-800-799-SAFE (7233) or TTY 1-800-787-3224. The Hotline serves as the 
only domestic violence hotline in the nation with access to a network 
of more than 5,000 shelters and domestic violence programs across the 
United States, Puerto Rico and the U.S. Virgin Islands. Advocates 
receive approximately 21,000 calls each month.
    The Hotline provides an essential first response to hundreds of 
thousands of victims each year by directly connecting them to a life-
saving network of providers who assist them with a violence-free 
future. Yet increasing call volume, combined with a lack of resources, 
undermines the Hotline's capacity to answer each call for help.
    In 2008, while the Hotline received 255,047 calls, there were over 
42,500 calls (17%) that Hotline advocates were unable to answer due to 
increased demand.
    There were over 18,140 more callers in 2008 than in 2007 and the 
Hotline has seen a 13% increase in callers needing assistance in 
languages other than English.
    Without increased resources, current call trends suggest the 
Hotline will be unable to answer nearly 45,000 calls in 2009.
    The loveisrespect, National Teen Dating Abuse Helpline (NTDAH) 
managed by the Hotline was launched in February 2007 to address the 
alarming and increasing trend of teen dating abuse. NTDAH is a national 
24-hour resource that can be accessed by phone or the internet and is 
specifically designed for teens and young adults ages 13-18. 
loveisrespect.org offers real-time, one-on-one support from trained 
Peer Advocates. Peer Advocates are trained to offer support, 
information and advocacy to those involved in dating abuse 
relationships as well as concerned parents, teachers, clergy, law 
enforcement, and service providers.
    Clearly the need for these life saving services has increased. The 
Family Violence Prevention Services Act (FVPSA) remains the core 
federal funding stream for this life saving aid to victims of intimate 
partner violence. Your support of this funding will ensure victims get 
the help they so desperately need and additional FVPSA funding will 
enhance the capacity to meet growing demand and serve an increasing 
volume of calls.
    Thank you Chairwoman McCarthy and subcommittee members for this 
opportunity to highlight the importance of increased Family Violence 
Prevention and Services Act (FVPSA) funding to support the critical 
services offered by the National Domestic Violence Hotline and the 
National Teen Dating Abuse Helpline, loveisrespect.org.
            Sincerely,
                     Sheryl Cates, Chief Executive Officer.
                                 ______
                                 

    Prepared Statement of the Child Welfare League of America (CWLA)

    The Child Welfare League of America (CWLA) is a ninety year-old 
non-profit organization representing hundreds of state and local child 
welfare organizations including both public and private, and faith-
based agencies. We are pleased to submit testimony to today's hearing 
by the Subcommittee on Healthy Families and Communities on the topic of 
Preventing Child Abuse and Improving Responses to Families in Crisis.

    The U.S. Department of Health and Human Services (HHS) releases the 
latest national data on child abuse and neglect every April. For 2007, 
the numbers tell a familiar story: Nearly 800,000 children were 
substantiated as abused and or neglected, out of the more than 3.3 
million child abuse reports made. Children in the birth to age 1 year 
had the highest rate of victimization at 21.9 per 1,000 children. Of 
the estimated 1,760 child fatalities in 2007, 34.1% were attributed to 
neglect only with physical abuse a major contributor to child 
fatalities.\1\
    Of the child victims, nearly 8% were sexually abused, and 11% were 
physically abused. One consistent statistic that surprises some is that 
nearly 60% of the 800,000 children are victims of neglect.\2\ In many 
cases, neglect can be just as serious as sexual or physical abuse. It 
also tells us we are not doing enough to prevent these children from 
being brought to the attention of child protective services (CPS), and 
thereby being placed into care.
    Another consistent statistic is that of the 800,000 abused and 
neglected children identified, more than 40% did not receive follow up 
services.\3\ Reasons for this include the way in which data is 
collected, how states provide services, and in some instances the 
reluctance on the part of some families to access services. Still, with 
such a high and consistent percentage going without follow-up help, 
clearly services are not being adequately provided at the front end of 
the child welfare system. For some, that may mean they will return to 
the system.
    In the near future, HHS is expected to release the Fourth National 
Incidence Study of Child Abuse and Neglect (NIS). The Subcommittee may 
want to review this study when it is released for the insight it may 
provide into the need for greater prevention efforts. The last one was 
published in 1996, and, like that one, this congressionally mandated 
study is likely to tell us that more children suffer from abuse and 
neglect than the official statistics indicate. The report will survey 
professionals from dozens of U.S. counties, and the analysis will shed 
some light on the number of children harmed by abuse and neglect; 
characteristics of children, families, and perpetrators; report 
sources; and CPS investigations.
    The NIS includes children who were investigated by CPS agencies, 
but it also obtains data on children seen by community professionals 
who were not reported to CPS or who were screened out by CPS without 
investigation. Therefore, NIS estimates provide a more comprehensive 
measure of the scope of child abuse and neglect known to community 
professionals, including both abused and neglected children who are in 
the official statistics and those who are not.
    The NIS follows a nationally representative design, and because all 
four national studies have used comparable methods and definitions, 
comparisons can be made about our progress or lack of progress, and 
this likely will reinforce the need for greater preventive efforts.
Prevention as part of the child welfare continuum
    Prevention of child abuse and neglect is perhaps the greatest 
challenge in the continuum of the child welfare system. All too 
frequently, prevention of abuse and neglect is an add-on service 
instead of a core component of the range of needed services. The issue 
of providing or addressing prevention too often is conditioned on 
whether a child welfare agency or state agency can free up 
appropriations or funds by reducing the cost, including what some would 
describe as back-end services typically foster care. Instead, what is 
required is an investment in the range of services.
    Child protection can trace its origins to the 19th Century when, in 
1875, the Society for the Prevention of Cruelty to Children was 
established in New York City. After publicity surrounding the treatment 
of a young child captured the public's attention, the President of the 
American Society for the Prevention and Cruelty to Animals was 
approached and, as a result of his support, existing state legislation 
to protect children was vigorously enforced for the first time. Other 
states and jurisdictions would eventually follow by enacting their own 
laws. In 1899, Illinois became the first state to create a juvenile 
court to address issues of dependence, delinquency, and neglect. By 
1907, 26 states had followed with their own juvenile court laws.\4\
    The first White House Conference on Children was convened in 1909 
and led to the creation of a Children's Bureau at the federal level. 
Part of the mission of the new bureau, at the urging of the White House 
Conference, was to ``investigate and report on all matters relating to 
the welfare of children and child life among all classes of people.'' 
\5\
    Throughout the following decades, other federal and state laws were 
enacted, but in 1960, Dr. C. Henry Kempe's work on ``battered child 
syndrome'' raised the importance of communities in their efforts to 
protect children and led the medical community to improve methods of 
identifying and protecting children from abuse. In 1974, Congress 
passed the first Child Abuse Prevention and Treatment Act (CAPTA). This 
landmark law helped establish national standards for specific reporting 
and response practices for states to include into their child 
protection laws.
    CAPTA is the only federal legislation exclusively dedicated to 
preventing, assessing, identifying, and treating child abuse and 
neglect--the continuum of child maltreatment services and supports. 
Since 1974, CAPTA has been part of the federal government's effort to 
help states and communities improve their practices in preventing and 
treating child abuse and neglect. CAPTA provides grants to states to 
support infrastructure and innovations in state child protective 
services (CPS).
    CAPTA includes three programs:
    <bullet> CAPTA authorizes grants to the states to develop 
innovative approaches to improve their CPS systems. To qualify for 
these grants, states must meet eligibility requirements, such as having 
mandatory reporting laws, preserving victim confidentiality, appointing 
guardian ad litems, and establishing citizen review panels.
    <bullet> CAPTA discretionary funds support state efforts to improve 
their practices in preventing and treating child abuse and neglect. 
These funds support program development, research, training, technical 
assistance, and the collection and dissemination of data to advance the 
prevention and treatment of child abuse and neglect. These funds also 
support the National Child Abuse and Neglect Data System, the only 
federal data collection effort to determine the scope of child abuse 
and neglect. These funds support national initiatives, such as the 
National Office of Child Abuse and Neglect, the National Resource 
Center on Child Maltreatment, and the National Clearinghouse on Child 
Abuse and Neglect.
    <bullet> The Community-Based Family Resource and Support Program 
was created in 1996. The program provides grants to states to support 
their efforts to develop, operate, and expand a network of community-
based, prevention-focused family resource and support programs that 
coordinate resources among a range of existing public and private 
organizations. Funding is allocated to states by a formula based on the 
number of children in a state's population.
    While CAPTA is intended to bolster child protection efforts and 
invests some limited funds into preventing abuse from occurring, it's 
funding and appropriations history has been dismal at best. Each 
reauthorization results in adjustments in policy and practice but it 
has not resulted in increased appropriations or commitment from past 
congresses or administrations. We hope that will change in the 111th 
Congress and with the President's next budget in February.
    As significant as it is, CAPTA is only one part of the child 
welfare system and ultimately our prevention initiatives. Over the 
years laws such as Aid to Dependent with Dependent Children, (AFDC) 
followed by Temporary Assistance to Needy Families (TANF), and the 
Social Services Block Grant (SSBG) provide critical funding to child 
welfare services including services to protect children. Overall, SSBG 
is a major source of federal funding, representing 11% of federal 
funding for child welfare services that addresses the needs of 
vulnerable children and youth.\6\ SSBG frequently serves as a link 
between government funding and private and charitable sources and helps 
build and fund a network of private agencies. SSBG funds supplement 
local and charitable efforts by providing federal dollars to fill a gap 
these charities may not be able to meet. The breadth of services 
provided by SSBG funds can also cover shortfalls left by other federal 
social services programs.
    Two other important sources of funding also found in the Social 
Security Act along with TANF and SSBG are Title IV-B part 1, Child 
Welfare Services (CWS), and Title IV-B part 2, Promoting Safe and 
Stable Families (PSSF). Both are flexible funding streams that fund a 
range of services. But even in these instances, with CWS funded at $281 
million in annual appropriations and PSSF funded at $368 million in 
combined mandatory and discretionary appropriations, funds have to be 
shared between programs that might prevent abuse and those that assist 
families and children through adoption and reunification services. It 
should also be noted that both have actually been cut over the past 
eight years.
Promising initatives
    There are a number of important efforts taking place across the 
country and we are encouraged that some of the Administration's new 
initiatives are building on these efforts and we hope much more will be 
done.
    First and foremost is President Obama's proposal of $8.6 billion 
over 10 years for a new mandatory program that provides funds to states 
for evidence-based home visitation programs for low-income families. 
Home visiting is just one of several other initiatives around child 
care and early childhood education, which the Obama Administration is 
proposing to advance their zero to five initiatives.
    To date, Congress has been very supportive of this initiative as 
well. Included in HR 3962, is a provision that would provide much 
needed grants to states to improve the well-being, health, and 
development of children by enabling the establishment and expansion of 
high quality programs that provide voluntary home visitation for 
families with young children and families expecting children. These 
grants are intended to target at risk and vulnerable families and 
communities who are in need of services that will not only reduce abuse 
and neglect but also improve the overall health and development of 
young children. Priority funding will provided for programs that adhere 
to a model of home visitation with the strongest evidence of 
effectiveness.
    Funding for this provision is currently set at $750 million over 
five years which is much less than what the Administration initially 
proposed, and half of what the Senate bill's provision contains. CWLA 
believes that this proposal and other proposals that place an emphasis 
on evidence based practices and evidence informed innovation can serve 
as a model for a major prevention initiative.
    CWLA is also pleased that the President has proposed and it appears 
the Congress will approve a new ``Promise Neighborhoods'' initiative. 
This initiative, which President Obama raised during the campaign, is 
based on the Harlem Children's Zone program. The program attacks 
poverty through a comprehensive school-based model that provides wrap 
around services for the entire family. It places a special emphasis on 
early-learning, elementary and secondary education, and guides children 
through the entire period of learning. The goal is to spread this model 
to several communities across the country. The planning grants would go 
to non-profits for one year. Only those grantees that developed 
proposals that incorporated strong partnership and strong plans would 
be eligible for larger implementation grants the following year.
    CWLA is also very supportive of the Administration's emphasis zero 
to five initiatives. Some of these efforts include the Early Learning 
Challenge Grants, which the Education and Labor Committee has already 
acted on, and other initiatives focused on pre-K funding as well as 
next year's debate on child care. Although some of these important 
initiatives that may not be thought of as child abuse prevention, they 
are all critical components of assistance to the country's most 
vulnerable families and children.
    At the local level we also see examples that can be built on 
through greater federal support. Some examples include Baltimore's 
Family Connections program, which uses a range of funding sources from 
the public, private, faith-based, foundation, and other community 
partners to show some significant results. The Family Connections 
program has shown positive results in reducing the instances of abuse 
and neglect by using limited federal funds to better coordinate 
communities and services. As the University of Maryland points out,
    Evaluation results show Family Connections improves protective 
factors such as parenting skills and attitudes, and reduces risk 
factors such as parent depression, caregiver drug use, caregiver 
stress, and children's behavioral problems. The program also 
demonstrated reduced incidents of child abuse and neglect and increased 
child safety and well-being.\7\
    The results were enough to encourage HHS to fund eight additional 
models with initial resources focused on an 11-month community-planning 
process.
    Differential response is one prevention strategy that holds promise 
in protecting vulnerable children. This form of practice allows for 
more than one method of response to reports of child abuse and neglect. 
Also called dual track, multiple track, or alternative response, this 
approach recognizes the variation in the nature of reports and the 
value of responding differentially.
    Great variation exists in state and county implementation of 
differential response, which generally involves low- and moderate-risk 
cases that receive a non--investigation assessment response without a 
formal determination or substantiation of child abuse and neglect. 
Although states are attempting several approaches in this area, the 
basic policy difference is in how complaints of abuse and neglect are 
dealt with and screened into or out of the CPS system. In some 
instances, responses to reports of child abuse and neglect may result 
in greater family support and services to address the underlying 
causes.
    Initiatives that combine the efforts of the courts and the child 
welfare community also have shown promise. These initiatives, which 
provide funds to train key personnel--including judges and child 
welfare workers involved with the courts, such as court-appointed state 
advocates (CASAs) and CPS workers--have yielded positive results in 
keeping families together and addressing the abuse and neglect of 
infants and the very young.
    The Court Teams for Maltreated Infants and Toddlers Project, 
spearheaded by ZERO TO THREE, has shown great promise and results; what 
it lacks is a steady source of dedicated funding that can expand on 
these efforts.
    Another innovation being implemented in some areas, both in terms 
of CPS and in placement decisions, is Family Group Decision Making 
(FGDM). FGDM offers an approach of working with families and 
communities involved with the child welfare system. Families are 
engaged and empowered by child welfare agencies to make decisions and 
develop plans that protect and nurture their children from enduring 
further abuse and neglect. The FGDM approach recognizes that families 
are the experts of their own situations and therefore are often able to 
make well-informed decisions about their circumstances with the support 
of family members and others who have worked with the family.
The prevention challenge
    Prevention can encompass services as basic as access to child care 
and it can also include a range of other services that can help 
families reduce the stresses of parenting. Providing respite for 
parents can ensure a child's well-being when parents are working, in 
school, or caring for other children.
    There is an increasing level of research and work that is being 
done in terms of prevention. The Children's Bureau highlights common 
factors that can be found in successful prevention initiatives. This 
research suggests that you must both reduce risk factors and promote 
protective factors to ensure the well-being of children and families. 
This work also shows that protective factors include efforts to 
strengthen all families. This kind of approach when possible can extend 
support beyond the most vulnerable families and reach other families 
may not meet the criteria for the most vulnerable but are families that 
are dealing with stressors that could lead them to abuse or neglect.
    CWLA believes that some of the recent initiatives being advanced by 
the Administration and some of the research now being developed offers 
an opportunity to develop a new approach to preventing child abuse. A 
model that requires and is driven by community-based partners, that 
requires on-going research and that can implement and replicate proven 
models but allows enough flexibility to invest in innovative and 
emerging practices and programs.
Recommendations
    First and foremost we hope Congress will act soon to reauthorize 
CAPTA. More importantly however, is our belief that there needs to be a 
genuine commitment to fund this law. That commitment must be shared by 
the Administration, the Congress and the advocacy community. It offers 
limited effectiveness to reauthorize the law and to fund the basic 
state grants at $27 million, which would only provide in some states 
enough to hire one or two social workers to carry out the important 
tasks that can help address child abuse and prevent it in the first 
place.
    CWLA is encouraged and is hopeful that Congress will complete its 
work this year to make the Administration's new home visitation program 
a reality. We feel this legislation and the emphasis on outcomes and 
research offers a way forward for other child abuse prevention 
initiatives.
    CWLA also hopes the Administration will encourage and lead states 
to fully implement the provisions of the new child welfare legislation, 
the Fostering Connects to Success Act (PL 110-351) passed late last 
year. Although some of the provisions deal with children and families 
already in contact with child welfare, they still have an impact on a 
larger population. This is especially true of those provisions dealing 
with health care, training for child welfare workers and other 
personnel, and tribal funding. We also believe it will help Congress 
and the Administration take the next step and reform the way we finance 
child welfare so that we can include funding to address preventing 
child abuse.
    Finally we urge the Committee and the Congress will act soon to 
pass legislation to re-establish a White House Conference on Children 
and Youth. CWLA recognizes that dollars and federal action alone cannot 
reduce the level of child abuse or the number of children in foster 
care, and therefore this has to be a partnership at the federal, state 
and local levels. It is for that reason that CWLA has called on 
Congress to act to restore the oldest White House Conference, the White 
House Conference on Children and Youth and to focus it on the needs of 
the country's most vulnerable families and children.
    This Conference was once held every ten years but has not been held 
since President Nixon called it in 1970. Its results have been 
noteworthy. It was mentioned earlier that the first White House 
Conference on Children and Youth led to the creation of a Children's 
Bureau in 1909 and subsequently the Bureau's mission in regards to 
child protection. It should also be of interest to this Subcommittee 
that one of the results of the 1970 convening was a recommendation to 
create a designated Senate committee on children's issues and we are 
sure the members of this subcommittee recognize their own value over 
the years since.
    We urge the Subcommittee and the full committee to act on this 
legislation this year. It is bipartisan and bicameral and offers 
Congress an opportunity to reach beyond the politics of this year. 
There is a much more significant reason for this White House 
Conference. It represents a vision of how communities can come together 
all across the country to engage in a discussion of not just needed 
federal support but local community action; how systems can coordinate 
and communicate to prevent abuse and neglect wherever possible; and 
when not possible how to act in the best interest of the child so that 
he or she has a permanent and loving family.
    The Child Welfare League of America thanks the Subcommittee for 
these hearings and its attention and we look forward to working with 
you on these key issues.
                                endnotes
    \1\ Administration on Children, Youth, and Families (ACYF). (2008). 
Child Maltreatment 2006, Summary. Washington, DC: U.S. Department of 
Health and Human Services (HHS). Online at www.acf.hhs.gov/programs/cb/
pubs/cm05/summary.htm.
    \2\ Ibid.
    \3\ ACYF. (2008). Child Maltreatment 2006. (Chapter Six, Services). 
Washington, DC: HHS. Online at www.acf.hhs.gov/programs/cb/pubs/cm05/
summary.htm.
    \4\ Child Welfare League of America (CWLA). (1999). CWLA Standards 
of Excellence for Services for Abused and Neglected Children and Their 
Families. Washington, DC: Author.
    \5\ CWLA. (2007). History of the White House Conference. 
Washington, DC: Author. Online at www.cwla.org/advocacy/
whitehouseconfhistory.pdf.
    \6\ Scarcella-Andrews, B.R.; Zielewski, E.; & Geen, R. (2006). The 
Cost of Protecting Vulnerable Children V: Understanding State Variation 
in Child Welfare Financing (Assessing the New Federalism Occasional 
Paper). Washington, DC: Urban Institute. Online at www.urban.org/
url.cfm?ID=411115.
    \7\ Ruth H. Young Center for Families and Children. (n.d.) Family 
Connections--National Program Replication Project Website. Baltimore: 
University of Maryland. Online at www.family.umaryland.edu/ryc--best--
practice--services/family--connections--replication.htm.
                                 ______
                                 

       Prepared Statement of the Family Violence Prevention Fund

    Chairwoman McCarthy, Ranking Member Platts, and distinguished 
members of the Committee, thank you for the opportunity to submit this 
testimony regarding the importance of reauthorizing the Family Violence 
Prevention and Services Act (FVPSA) and the Child Abuse Prevention and 
Treatment Act (CAPTA). Your hearing on Preventing Child Abuse and 
Improving Responses to Families in Crisis could not come at a more 
opportune time. In 2007, 1,760 children died from neglect or abuse in 
the United States.\i\ And on average, more than three women are 
murdered each day in this country at the hands of a current or former 
husband or boyfriend.\ii\
    Violence against women and children is a serious problem in the 
United States that is compounded by the stressors of today's economic 
conditions. At a time when we need to escalate our response to the 
emergencies at hand, we see all around us that resources and services 
are dwindling.
    The Family Violence Prevention Fund is a national non-profit 
organization based in San Francisco, California, that has worked for 
the last 30 years to end violence against women and children. Our focus 
has been on preventing violence and abuse, and promoting the safety and 
well-being of all family members in homes where violence has occurred. 
We commend the Committee for its commitment to preventing child abuse 
and improving responses to families in crisis, and thank you for 
allowing us to submit testimony on these issues. We would like to take 
this opportunity to highlight and expand upon the connection between 
child abuse and domestic violence, and how imperative it is to use new 
knowledge and increased resources to improve our intervention and 
prevention strategies.
Intersection of Child Abuse and Domestic Violence
    Research suggests a 30 to 60 percent overlap of child maltreatment 
and domestic violence.\iii\ Further, when active universal screening 
for domestic violence is used, child protection system case workers 
identify a history of domestic violence in 45 percent of families they 
see.\iv\ These statistics highlight the co-occurrence of domestic 
violence and child abuse within families, and the large population that 
is being seen by both the child welfare system and domestic violence 
services programs. Often, this co-occurrence refers to both mothers and 
children being abused by the father of the children or the mother's 
boyfriend. In other cases, we see mothers unable to adequately care for 
their children due to the stress of being abused. We also see parents 
struggling to cope and parent within the context of their own past 
histories of experiencing or witnessing violence.
    In October, 2009, the National Survey on Children Exposed to 
Violence documented the alarming rates at which children are exposed to 
domestic violence in the United States. One in 10 children was exposed 
to family violence in the past year and by the time children reached 
age 17, more than a third had witnessed a parent being assaulted.\v\ 
Children who are exposed to domestic violence display a host of 
problematic behaviors at far higher rates than children not exposed to 
violence. These include being more likely to become a perpetrator of 
such abuse (for boys) as well as displaying higher rates of violence, 
aggression, suicide, school failure and mental health problems. At the 
same time, children's responses to exposure to domestic violence vary 
depending on age and circumstances; many children are resilient.\vi\ 
Importantly, we know that when appropriate services are provided, 
particularly when in partnership with their non-abusing parent or 
caretaker, children exposed to domestic violence can go on to live 
lives full of purpose and free from violence and many of the adverse 
outcomes associated with that violence. What seems to help these 
children most is the presence of a supportive and protective adult, 
most often their mother.
    The challenge, therefore, for many within the child welfare system 
and child abuse prevention community is to better understand how 
domestic violence is impacting children, and the best ways to respond 
to children and their abused parent(s). However, most child welfare 
workers do not have standardized training to help them understand the 
dynamics of domestic violence and put this research into practice. In 
addition, when child protection systems do attempt to address domestic 
violence, they often seek to impose blanket policies that apply to all 
victims, and frequently blame the victim rather than the perpetrator of 
violence. These policies are now illegal in some states \vii\ and have 
been proven impractical and unhelpful in others.\viii\ However good 
practice and policy have emerged in many communities and states, and 
the time to bring them to scale is now.
    At the same time, domestic violence programs have an enormous 
opportunity to reach the most vulnerable children who are witnessing 
this abuse and help them and their abused parent--usually their 
mother--become safe and begin to recover. By identifying and helping 
these children, while simultaneously serving their mothers, domestic 
violence agencies may have their best chance of truly breaking the 
intergenerational cycle of violence. Yet, these agencies need the 
direction and, importantly, funding, to start integrating in a holistic 
way services for children into the work they already do with their 
mothers.
    The reauthorizations of the Child Abuse Prevention and Treatment 
Act (CAPTA) and the Family Violence Prevention and Services Act (FVPSA) 
serve as the perfect opportunity to make some of the necessary changes 
in our nation's response to child abuse and domestic violence.
Best Practices to Address Co-Occurrence of Domestic Violence and Child 
        Abuse and Neglect
    For about eight years the U.S. Departments of Health and Human 
Services and Justice have pooled very limited resources to try and 
implement best practices around the intersections of child welfare, 
domestic violence and juvenile courts. Through a demonstration 
initiative nicknamed the ``the Greenbook'' (after the cover of the 
seminal publication outlining recommendations for doing this 
collaborative work), six test sites were funded and an evaluation 
conducted. This work provided new insights about how to best improve 
outcomes for children and their mothers in families experiencing 
domestic violence.\ix\ While many specific recommendations have been 
further developed and refined based on the experiences of these sites, 
we focus here on three critical practice elements specific to CAPTA:
    <bullet> Training and education on domestic violence is critical to 
help already overburdened child protection systems (CPS) and case 
workers make good decisions;
    <bullet> The needs of abused mothers and their children cannot be 
separated, despite funding streams and services systems that inherently 
separate their interests; and
    <bullet> Child welfare systems and child abuse prevention programs 
overall must do a better job in understanding and addressing the role 
of men and fathers in the lives of families experiencing abuse--whether 
the father is the primary perpetrator of the abuse or a potential 
support system to the woman and child, or both.
The Need for Domestic Violence Expertise
    After several years of attempting to find one model that worked for 
creating the information sharing, training and technical assistance 
needed to better serve these families, we have concluded that no one 
single model is right for every system. But we have also learned that 
it is absolutely ESSENTIAL that child protection systems have access to 
expertise on helping families who are experiencing domestic violence. 
Two common forms this has taken are the co-location of staff--for 
instance, the placement of a domestic violence advocate in a child 
protection agency (often referred to as a ``domestic violence 
specialist'') \x\--and case consultations where supervisors or 
technical experts are brought in to consult on particularly challenging 
cases with domestic violence or where they may provide ongoing training 
and technical assistance to staff that turn over often.
    The need for this additional expertise stems from the fact that 
families experiencing domestic violence face particularly complex 
challenges. While violence may be linked to other risk factors, such as 
substance abuse or mental health issues, it often presents its own 
threats. For instance, a caseworker may know that a mother is being 
abused and insist that she not let the child be alone with her abusive 
partner. The courts, however, may have granted him unsupervised 
visitation and she would be in violation of her custody agreement if 
she refused to deliver the child to him unsupervised. By having a 
domestic violence expert on hand, the conflicting messages can be 
illuminated and corrected through advocacy and legal guidance. The 
advocate and the caseworker together can help both the mother and the 
child stay safe by integrating their knowledge and skills. What this 
consultation may look like will differ by jurisdiction, but its 
importance is indisputable.
Supporting Mothers and Children Together
    At the heart of CAPTA, like all efforts to prevent child abuse and 
neglect, is the simple question: What do children need to be safe? And 
the simple answer is that they need a loving and capable parent or 
caretaker whenever possible. Unfortunately, child welfare systems have 
often responded to domestic violence by either ignoring its 
significance or over-reacting and blaming the mother for her own 
victimization. They will often see the mother as the problem for her 
``failure to protect'' the child from her victimization or blame her 
for putting her child at risk, rather than placing the blame at the 
hands of a violent or abusive partner, who in many instances is also 
the child's father. This is problematic in that it both punishes the 
mother for being a victim and removes from the child the most important 
source of strength and comfort the child may need while going through a 
particularly difficult time. Fortunately, recent research has 
documented both the need to keep mothers and children connected when 
there is domestic violence and successful programs that improve both 
child outcomes and maternal safety. The needs of children and their 
mothers must be viewed together and efforts to keep children safe must 
begin with efforts to keep their mothers safe.
    Betsy McAllister Groves at Boston Medical Center and Alicia 
Lieberman at San Francisco General Hospital have created two model 
programs to provide the therapeutic services these children need. While 
their goal is to serve children, both programs work with mother and 
children together whenever possible, as doing so provides better 
outcomes for children, as well as their mothers,\xi\ and creates more 
long-term stable environments to which the child can return. 
Evaluations have documented positive results in ameliorating children's 
trauma and improving their behavior, as well as improving their 
mothers' interactions with their children.\xii\ Both programs success 
is tied to their understanding of how children process trauma and their 
need for connection to their primary caretakers, most often their 
mothers.
The Role of Men and Fathers
    For the most part, child welfare systems have been oriented toward 
mothers. It is true that most mothers remain the primary caregivers of 
their children. But ignoring men is a mistake. By largely dismissing 
the roles of fathers and men in the lives of these children, systems 
are both missing opportunities to constructively engage men, and 
punishing battered mothers and children for men's abusive 
behavior.\xiii\
    Alternatively, some child welfare systems have been successful at 
developing new fatherhood initiatives and reaching out to men who were 
once invisible to them. While we applaud these efforts, we have learned 
that it is dangerous to involve fathers without understanding the risk 
they may pose to mothers and children. Some child welfare systems are 
taking the lead and searching for new ways to engage both men and 
fathers and simultaneously hold them accountable for their violence. 
Through the Greenbook Initiative, several communities developed 
treatment plans for fathers, and hired men who specialize in changing 
violent behavior to help shift thinking in child welfare offices.\xiv\ 
CAPTA is in a unique position to drive new efforts that support 
forward-thinking fatherhood initiatives that integrate what we know 
about domestic violence.
Good Data Collection: NCANDS
    Finally, we would like to address one of the least glamorous, 
though most necessary, elements of preventing and ultimately ending 
domestic violence and child abuse: data collection. The National Child 
Abuse and Neglect Data System (NCANDS) is the basic vehicle that 
provides information about children and families who come to the 
attention of local child welfare agencies. It is increasingly apparent 
that, among other issues, domestic violence is present in a large 
percentage of these families. While not everything about a family's 
circumstances is known at the time of the initial report, in many 
instances the presence of domestic violence in a family may come to 
light during the report and investigation phases, or at decision points 
related to service provision or placement. Yet to date, NCANDS provides 
little, if any, information in its annual reports about domestic 
violence, and the context and impact of domestic violence.
    This data has enormous consequences because it is likely we are 
missing the link and making inappropriate and potentially dangerous 
recommendations to families and juvenile and family courts. First, we 
would want to identify in what percentage of reports, substantiations 
and victimization, and for each different category of maltreatment, 
that domestic violence is a factor. Community experience suggests that 
often, exposure to domestic violence is automatically considered 
``failure to protect'' by the mother and categorized as ``neglect.'' It 
would help if NCANDS could differentiate whether neglect (or other 
maltreatment categories, including ``other'') is being used as a 
``proxy'' for a ``failure to protect'' or similar allegation (not all 
states use the same terms).
    Another reason it is important to distinguish which types of 
maltreatment cases come to child welfare as a result of, or accompanied 
by, domestic violence is that most reports or petitions are filed in 
the mother's name, automatically ascribing the maltreatment to her and 
making her the sole subject for compliance with case plans. However, in 
many instances she is not the offender against a child, but instead may 
be a victim of violence perpetrated by her partner. In these cases, she 
needs support, protection and the ability to keep her child(ren) with 
her safely. Without clearer information that helps identify these 
distinctions, it is difficult to develop or target responses and 
services appropriately. When this happens, the mother may be put into a 
database of child abusers, which unfairly labels her and may prohibit 
her from seeking any job working with children.
    Finally, as an increasing number of states and counties institute 
some type of differential response system, it will be important to know 
if families with co-occurring domestic violence are provided that 
alternative, and also whether they have repeat reports of maltreatment 
after the diversion to alternative services.
    Given these concerns we would strongly recommend that data be 
collected and disseminated on the relationship between domestic 
violence and categories of maltreatment, including:
    <bullet> The relationship between domestic violence and child 
fatalities;
    <bullet> The relationship between domestic violence and repeat 
maltreatment;
    <bullet> The identity of the perpetrator in cases of domestic 
violence;
    <bullet> The nature and extent of co-occurring domestic violence 
and substance abuse;
    <bullet> The nature and extent of the services provided to these 
families;
    <bullet> For families with co-occurring domestic violence who are 
provided alternative response, the nature of the agency(ies) to which 
they were referred and whether the services were utilized;
    <bullet> In what percentage of cases domestic violence is a factor 
in removal, and whether there are other characteristics associated with 
the domestic violence that lead to the decision to place a child 
outside of his/her home; and
    <bullet> The percentage of domestic violence in the neglect 
category.
CAPTA Recommendations
    Given what we have learned around the intersections of domestic 
violence and child abuse over the last 15 years, and emerging research 
on best practices for addressing domestic violence as a means of 
reducing child abuse and neglect and preventing future domestic and 
sexual violence, we respectfully recommend that CAPTA be amended to 
include a focus on:
    <bullet> Increasing the availability of good data on the overlap of 
domestic violence and child maltreatment, and successful policies, 
procedures and services that improve safety and well-being of children 
and their non-abusing parents and caretakers;
    <bullet> Providing expertise to child protection systems and 
workers on domestic violence and how to work successfully and safely 
with families where there is domestic violence, including safety and 
risk assessment, case consultation, co-location of domestic violence 
staff and safe approaches to family group conferencing and team 
decision making;
    <bullet> Funding for cross-training and collaboration so domestic 
violence and child welfare systems can better work together to improve 
safety and well-being of children and their mothers;
    <bullet> Ensuring that CAPTA funding is available to support 
services for mothers and their children together, when that is most 
appropriate; and
    <bullet> Increasing the awareness of and skills pertinent to 
addressing the roles fathers can safely play in the lives of these 
children.
The Family Violence Prevention and Services Act (FVPSA) Recommendations
    The Family Violence Prevention Services Act (FVPSA) is the 
lifeblood of domestic violence organizations in the United States. 
FVPSA is the largest designated federal funding source for emergency 
services for victims of domestic violence and their children, providing 
shelters, crisis lines, counseling and victim assistance programs. 
Every year, the demand for these services continues to rise, and 
shelters and services must turn away families in danger because of a 
lack of resources.
    As previously discussed, domestic violence programs are an 
important place to intervene early with children who have been exposed 
to violence. In a single day in 2007, 13,485 children were living in a 
domestic violence shelter or transitional housing facility, and another 
5,526 sought services at a non-residential domestic violence 
program.\xv\
    Children who live in domestic violence shelters often have suffered 
many losses. They have most likely left their communities, extended 
families, friends, schools and all things familiar. It is difficult to 
comprehend the extent of the consequences for these children. At a 
minimum, these children need some individualized attention to assess 
how they are doing and determine whether they require specific care 
based on their needs. Their mothers, who are often under great stress, 
need parenting support to repair any damage to their relationships with 
their children created by the abuser. Without support, the attachment 
between mothers and children can weaken and further complicate their 
safety and healing. Therefore it is essential that domestic violence 
programs have the dedicated resources to help the children in their 
programs and the training and technical assistance to implement the 
most effective programs.
The Need for Technical Assistance to Continue
    Technical assistance and resource centers are also necessary to 
help victims of domestic violence who may not access targeted domestic 
violence agencies. Most victims of domestic violence never go to a 
domestic violence shelter, and often call law enforcement only when it 
has become a life or death situation. But they do go to the doctor, 
either for themselves or their children. Reaching out to victims 
proactively before they may reach out to domestic violence services is 
another important prevention and early intervention strategy, and 
health care providers play a critical role. The Family Violence 
Prevention Fund's National Health Resource Center on Domestic Violence 
(HRC), is a model for providing technical assistance and training 
across systems on family violence. The HRC works to improve health and 
public health responses to victims of family violence, and seeks to 
directly impact individual, local, state and national health care 
practice and policy as it relates to violence prevention and 
intervention. The HRC provides technical assistance to thousands of 
providers and advocates each year, as well as patient and provider 
resources, including culturally relevant safety cards, educational 
posters, quality assurance tools, national consensus guidelines on 
domestic violence, and a national conference. We must maintain support 
for these types of resource centers that provide cutting-edge technical 
assistance, training and information to victims and those who assist 
them, including health care providers and domestic violence service 
providers.
FVPSA Recommendations
    Specifically, we recommend that the Family Violence Prevention and 
Services Act reauthorization:
    <bullet> Increase overall authorization to meet increasing needs 
for services;
    <bullet> Include a specific funding stream dedicated to children's 
services within domestic violence programs;
    <bullet> Maintain support for existing technical assistance 
resource centers and culturally specific institutes to help identify 
victims earlier and meet their needs in culturally and linguistically 
appropriate ways.
    Thank you for the opportunity to comment on these critical pieces 
of legislation. For additional information, please go to 
www.endabuse.org; or contact our Washington, D.C. office at 202-682-
1212.
                                endnotes
    \i\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2007 (Washington, DC: 
U.S. Government Printing Office, 2009). Available at: http://
www.acf.hhs.gov/programs/cb/stats--research/index.htm#can.
    \ii\ Catalano, S. 2007. Intimate Partner Violence in the United 
States. U.S. Department of Justice, Bureau of Justice Statistics. 
Available at http://www.ojp.usdoj.gov/bjs/intimate/ipv.htm.
    \iii\ Edleson, J. Interventions and Issues in the Co-Occurrence of 
Child Abuse and Domestic Violence, 4 CHILD MALTREAT. 91-182 (1999). See 
also Anne E. Appel & George W. Holden, The Co-Occurrence of Spouse and 
Physical Child Abuse: A Review and Appraisal, 12 J. FAM. PSYCHOL. 578-
599 (1998).
    \iv\ Active screening at intake for domestic violence in the child 
welfare system includes the use of formal policies, procedures, and 
screening tools. See The Greenbook National Evaluation Team, THE 
GREENBOOK DEMONSTRATION INITIATIVE, INTERIM EVALUATION REPORT 33 
(2004).
    \v\ Finkelhor D., Turner H., Ormrod R., & Hamby S. 2009. Violence, 
Abuse, and Crime Exposure in a National Sample of Children and Youth, 
Pediatrics, Volume 12, Number 5.
    \vi\ Edleson, J. L. (1999). The overlap between child maltreatment 
and woman battering. Violence Against Women, 5(2), pp. 134 to 154.
    \vii\ See especially Nicholson v. Scoppetta 181 F Supp2d (EDNY 
2002); Nicholson v. Scoppetta 3 NY3d 357, 366 (2004).
    \viii\ Edleson, J., et al. Defining Child Exposure to Domestic 
Violence as Neglect: Minnesota's Difficult Experience. Social Work, 
Volume 51, Number 2, April 2006.
    \ix\ Known as the Greenbook Initiative, these recommendations were 
initially developed and published by the National Council of Juvenile 
and Family Court Judges (NCJFCJ) in 1999, in Effective Interventions in 
Domestic Violence and Child Maltreatment Cases: Guidelines for Policy 
and Practice. For the most up-to-date research and analysis from the 
demonstration sites, go to www.thegreenbook.info.
    \x\ Rosewater, Ann for the National Council of Juvenile and Family 
Court Judges and the Family Violence Prevention Fund (2008), Building 
Capacity in Child Welfare Systems: Domestic Violence Specialists. See 
also, Taggart, Shellie and Litton, Lauren for the National Council of 
Juvenile and Family Court Judges and the Family Violence Prevention 
Fund, Reflections from the Field: Considerations for Domestic Violence 
Specialists (in press).
    \xi\ Ibid. p. 37.
    \xii\ Lieberman, A.F. Van Horn, P.J. and Ghosh Ippen, C., Toward 
Evidence-based Treatment: Child-Parent Psychotherapy and Symptom 
Improvement in Preschoolers Exposed to Domestic Violence,'' Annual 
Meeting of the International Association of Traumatic Stress Studies, 
New Orleans, 2004.
    \xiii\ Rosewater, A. and Goodmark, L., p. 38.
    \xiv\ Ibid. See also, www.thegreenbook.info.
    \xv\ Domestic Violence Counts 07: A 24-hour census of domestic 
violence shelters and services across the United States. 2008. National 
Network to End Domestic Violence. Available at http://nnedv.org/docs/
Census/DVCounts2007/DVCounts07--Report--Color.pdf.
                                 ______
                                 

Prepared Statement of the National Association of Public Child Welfare 
                             Administrators

    On behalf of the American Public Human Services Association and its 
affiliate, the National Association of Public Child Welfare 
Administrators, we applaud the committee's interest in preventing child 
maltreatment and improving responses to families in crisis. We 
respectfully submit the following for your consideration.
    APHSA is a nonprofit, bipartisan organization representing state 
and local human service professionals for more than 79 years. NAPCWA, 
created as an affiliate in 1983, works to enhance and improve public 
policy and administration of services for children, youth and families. 
As the only organization solely devoted to representing administrators 
of state and local public child welfare agencies, NAPCWA brings an 
informed view of the problems today's at-risk children and families 
face.
More Resources Needed for Prevention and Protection
    NAPCWA represents state public child welfare administrators 
implementing child safety and protection programs. Our members depend 
on a patchwork of federal funding streams, including CAPTA, to meet 
families' needs. However, most prevention and protection services are 
supported by state and local dollars. Child protection and safety 
services include, but are not limited to, child abuse and neglect 
hotlines and investigations, family intervention, differential 
response, parent training, mentoring and coaching, and residential 
substance abuse treatment centers, among others. Each public child 
welfare agency works to reduce child abuse and neglect by supporting 
and responding to families either not known to the system (primary 
prevention); families known, but with no open case (secondary 
prevention) and families already part of the system (tertiary 
prevention).
    Federal resources for prevention and protection are scarce and 
support children placed in out-of-home settings such as foster care and 
adoption. Ninety percent of all federal dollars are used for foster 
care and adoption, while only the remaining 10 percent supports 
prevention. This imbalance indicates the need for a stronger federal 
role in providing resources for preventing and treating child abuse and 
neglect, including an increase in funding for CAPTA.
Child Welfare's Role
    Difficult economic times impact at-risk children and families the 
most. Child welfare has witnessed first-hand how the economic downturn 
negatively affects the entire family unit. Families struggle with job 
security, mental and physical health as well as substance abuse issues. 
States and localities are amplifying their efforts to expand child 
protection programs and focus on better serving these vulnerable 
populations.
    In addition to supporting parents and other caregivers, the state 
child welfare agency's primary responsibility is the safety, permanency 
and well-being of children. Through referrals from the child abuse 
hotlines as well as tips from mandated reporters such as teachers, 
physicians and nurses, child protection workers investigate and assess 
family situations and determine the child's imminent risk of serious 
harm. It is the role of child welfare professionals to balance the 
rights, roles and responsibilities of parents and the safety and well-
being of children.
    Public agencies cannot ensure child safety alone. Therefore, child 
welfare agencies collaborate with communities, nonprofit and private 
agencies, and faith-based organizations to help support children and 
families. Together, they provide a wide array of prevention and 
protection activities such as public awareness campaigns, skills-based 
courses, parent education and support groups, home visitation, family 
resource centers and respite and crisis care programs.
    State, local, federal and private resources help sustain these 
programs to better serve children and families involved or at-risk of 
becoming involved in the child welfare system. Below are best practices 
and promising innovations states are using to keep families stable and 
healthy, especially during difficult financial times.
Engaging Community Partners to Reduce Child Maltreatment
    Los Angeles County Department of Children and Family Services 
partnered with local community-based organizations to establish the 
Prevention Initiative Demonstration Project. The partnership between 
the DCFS and community-based organizations extends beyond traditional 
parameters and contractual agreements. It builds a unique relationship 
between committed entities to help strengthen families during times of 
crisis. In 2003, the DCFS established agency-wide goals to reduce 
reliance on foster care, and support children and families at home. 
These partnerships were essential to expedite this mission. Through the 
county's IV-E waiver, the PIDP receives $5 million a year to serve low-
income, at-risk families. The PIDP is known for its work using parent 
advocates, cultural brokers and family visitation centers to assist 
families in need.
    The PIDP's basic principles to reduce child abuse and neglect 
include increasing families' accessibility to adequate resources and 
support; creating economically stable environments for families to 
raise children in their own homes; and developing integrative 
activities and resources to improve communities and build healthier 
families. Los Angeles County's effort to engage private, public and 
nonprofit organizations to collaboratively serve a common purpose is 
one example of how states and localities are expanding their resources 
to prevent child maltreatment.
Enhancing Child Protective Services by Implementing Differential 
        Response Models
    Minnesota established differential response to transform its 
approach to address child maltreatment reports by implementing a 
strength-based, community-focused mechanism to effectively improve 
child safety and well-being. This approach serves to identify families' 
needs so children can safely remain in their homes.
    Due to increased child maltreatment reports, Minnesota launched a 
four-year differential response pilot project in 20 counties from 2000 
to 2004. The pilot began in Olmstead County and provided family 
assessments and parent support intervention services to families 
determined to be at-risk. The Institute of Applied Research conducted a 
rigorous field study on the effectiveness of this pilot program using 
control groups, participant interviews and a review of administrative 
data. The findings show that child safety was uncompromised; there were 
fewer child maltreatment reports and minimal uses of costly approaches; 
and families and social workers supported the model. Many states are 
using similar models to reduce child protection reports by providing 
early intervention.
Investing in Local Evidence-Based Initiatives to Enhance Child Welfare 
        Prevention and Child-Well Being
    Ohio widely invests in evidence-based, multi-pronged initiatives 
serving vulnerable children and families. The state has launched 
various countywide child welfare reform efforts focusing on front-end 
services to increase support for families in need. One of these efforts 
includes the Ohio Children's Trust Fund, which supports local and 
statewide prevention services to help empower families using positive 
family engagement activities and promote an alternative response to 
child maltreatment reports. The Incredible Years is an exemplary 
evidence-based model that provides parent, teacher and child social 
skills training and has proven to be effective in Ohio's counties. This 
community-based model seeks to develop comprehensive treatment programs 
for young children with early onset behavioral issues and works to 
prevent juvenile delinquency, drug abuse and violence. The program has 
been rigorously tested using randomized control evaluations and 
produced evidence of high ratings and effectiveness. Local, federal and 
state dollars assist the program's sustainability during tough economic 
times.
    Another protection and prevention aspect in Ohio is the Darkness to 
Light program. This outcome-based program provides sexual abuse 
prevention and intervention services to vulnerable communities. The 
program raises awareness about preventing child sexual abuse by 
educating adults about the prevalence and consequences of child 
victimization. Darkness to Light offers online support group services 
that focus on aiding current and past child abuse and domestic violence 
victims. Outreach efforts include a sexual abuse hotline to serve 
victims and media campaign to spread awareness. These local innovations 
offer universal preventive approaches offering cost-effective, multi-
layered strategies to improve child well-being.
Preventing Child Abuse and Neglect Through Home Visitation Models
    The New York State Office of Children and Family Services operates 
a research-based, comprehensive home visitation model serving more than 
20,000 low-income families since 1995. Healthy Families New York is 
dedicated to provide child abuse and prevention services to expectant 
parents and parents with infants from zero to three months of age. 
These children and families are considered to be at-risk of abuse or 
neglect and live in vulnerable communities with high poverty rates, 
infant mortality and teen pregnancy. The HFNY's home visitors provide 
families with support, education and linkages to community services 
designed to address the following needs: (1) to prevent child abuse and 
neglect; (2) to enhance parenting skills and parent-child interactions; 
(3) to ensure optimal prenatal care and child health and development; 
and (4) to increase parents' self-sufficiency.
    The HFNY is rigorously evaluated and shows positive outcomes in 
childbirth, child abuse and neglect, parenting practices and access to 
health care. This nationally acclaimed program was featured in a 
January 2009 issue of The American Journal of Preventive Medicine 
showing that all mothers enrolled in the HFNY before their 31st week of 
pregnancy were half as likely to have low-birth weight babies compared 
to mothers in an unassigned control group. Another study published in 
the March 2008 issue of Child Abuse and Neglect indicates that the HFNY 
has seen a decrease in incidences of abuse and neglect during 
children's first two years of life and reduced use of aggressive 
parenting practices particularly involving first-time teen mothers. The 
OCFS's home visitation model has proven to be successful in low-income 
communities. New York is one state out of many that operate these 
programs.
NAPCWA Guidance on Prevention & Protection
    NAPCWA recently released national child safety guidance known as 
Framework for Safety in Child Welfare. This manual provides tools for 
states to define, assess and respond effectively to child abuse and 
neglect. We believe that this guidance will assist states in reducing 
the likelihood of child fatalities and instances of child maltreatment. 
Child safety is paramount from the time children come to the attention 
of state child protection agencies through case closure. However, 
everyone is responsible for ensuring children's safety, regardless if 
they are employed by the public or private sector.
    Public child welfare agencies work diligently to ensure the safety 
and well-being of children and families. These agencies respond to more 
than a million reports of abuse and neglect each year. However, there 
are minimal federal resources to support child protection and 
prevention programs. Therefore, we encourage Congress to increase CAPTA 
funding and restructure the child welfare financing system to better 
support children and families. Thank you for your leadership and 
commitment to child safety and family preservation.
                                 ______
                                 

  Prepared Statement of the National Network to End Domestic Violence 
                                (NNEDV)

    Chairwoman McCarthy, Ranking Member Platts, Chairman Miller, 
Ranking Member Kline, and distinguished members of the committee, thank 
you for the opportunity to submit testimony for this hearing on the 
reauthorization of the Family Violence Prevention and Services Act 
(FVPSA). We are grateful for the subcommittee's leadership on behalf of 
domestic violence victims and their families. The National Network to 
End Domestic Violence (NNEDV) is a membership and advocacy organization 
representing the 56 state and U.S. territory domestic violence 
coalitions. NNEDV is the voice of these coalitions, their more than 
2,000 local domestic violence member programs, and the millions of 
domestic violence survivors, advocates and professionals that our 
member programs represent.
    In order to ensure the safety of domestic violence survivors, we 
urge the Subcommittee to act swiftly to reauthorize FVPSA with 
improvements to better serve victims' needs. FVPSA is the only federal 
funding dedicated to domestic violence shelters and services and has 
been the lifeblood of programs that have been preventing and ending 
domestic violence for 25 years. Its reauthorization is urgently needed 
to provide stable funding to address victims' needs. To that end, 
advocates across the country praise the leadership of Representative 
Gwen Moore (D-WI) who is leading the effort to draft a FVPSA bill, 
likely to be introduced by the end of the month, reflective of 
priorities outlined below. We urge the Committee to prioritize FVPSA 
reauthorization this year. Reauthorizing FVPSA presents an exciting 
opportunity to meet the needs of underserved communities while 
continuing proven, successful strategies. FVPSA's swift 
reauthorization, with key improvements and adequate funding allocation, 
will ensure that victims across the country have continued access to 
services that save lives.
FVPSA: Keeping Families and Children Safe
    Thanks to the leadership of Committee, FVPSA was enacted by 
Congress in 1984 in order to address public awareness and prevention of 
family violence, provide services for victims and their dependents, and 
provide training and resources to local agencies and nonprofit 
organizations working to address domestic violence. FVPSA is 
administered by the Department of Health and Human Services (HHS) 
Administration on Children and Families, and for over two decades it 
has been the lifeblood of core domestic violence programs, including 
shelters and outreach programs, in communities nationwide. FVPSA 
includes three central programs: Formula Grants for Shelter and 
Services; Community Initiatives to Prevent Abuse, which is frequently 
referred to as Domestic Violence Prevention Enhancement and Leadership 
Through Alliances (DELTA) Grants; and the National Domestic Violence 
Hotline. Working together, these FVPSA programs have made significant 
progress toward ending domestic violence and keeping families and 
communities safe. However, there are steps that should be taken to 
build on the success of FVPSA and improve services for victims.
The Need for FVPSA-Funded Services for Families
    Since its passage in 1984 as the first national legislation to 
address domestic violence, FVPSA has remained the only funding directly 
for shelter programs. Despite the progress and success brought by 
FVPSA, a strong need remains for FVPSA-funded services for victims. 
Research has shown that one in every four women will experience 
domestic violence during her lifetime.\1\ Annually, approximately 1.5 
million American women and 800,000 men are physically abused by their 
spouses or partners\2\ and 15.5 million children are exposed to this 
violence.\3\ This violence and abuse is devastating, costly and can be 
deadly. Each day in this country an average of three women are killed 
by a current or former intimate partner.
    Domestic violence is more than a crime--it is a public health 
issue. To address this issue, there are approximately over 2,000 
community-based domestic violence programs for victims and their 
children (approximately 1,500 of which are FVPSA-funded). These 
programs offer services such as emergency shelter, counseling, legal 
assistance, and preventative education to millions of women, men and 
children annually.\4\
    Domestic Violence Counts 2008, a 24-hour census of domestic 
violence shelters and services, found that in one 24-hour time period 
domestic violence programs across the nation served over 60,000 women, 
men and children. Unfortunately, due to a lack of resources, almost 
9,000 requests for services were unmet during that same day.\5\ For 
those individuals who were not able to find safety that day, the 
consequences can be extremely dire including continued exposure to 
life-threatening violence or homelessness in many cases. It is 
absolutely unconscionable that victims cannot find safety for 
themselves and their children due to a lack of adequate investment in 
these services.
    The gap between adequate resources and increasing demand widens as 
the economic situation worsens. A bad economy does not cause domestic 
violence but financial strain can certainly exacerbate violence and 
victims with fewer personal resources become increasingly vulnerable. 
Since the economic crisis began, three out of four domestic violence 
shelters have reported an increase in women seeking assistance from 
abuse.\6\ Many programs across the country use their FVPSA funding to 
keep the lights on and their doors open. We cannot underestimate how 
important this is--victims must have a place to flee to when they are 
escaping life-threatening violence. The fact is that countless shelters 
across the country would not be able to operate without FVPSA funding.
    By swiftly passing a FVPSA reauthorization inclusive of the 
recommendations below and with an adequate authorization level, 
Congress can work to ensure that victims can find safety and stability 
after fleeing abuse.
Key Programs Authorized in FVPSA
    FVPSA State Formula Grants Administered through the Department of 
Health and Human Services, the FVPSA State Formula Grants provide 
funding to States, Territories and Tribes to support domestic violence 
services in their communities using a population-based formula. FVPSA 
Formula Grants enable communities to respond with lifesaving emergency 
assistance when victims of domestic violence and their families reach 
out for help. Over the past 30 years, shelters and local programs have 
evolved to provide a wide spectrum of residential and nonresidential 
services, which can include shelter or transitional housing, safety 
planning, counseling, legal services, child care and services for 
children, career planning, life skills training, community education 
and public awareness, and other necessities such as clothing, food, and 
transportation. In addition, the FVPSA Formula Grants support essential 
resource centers, institutes, and state, territorial and tribal 
coalitions that help local programs and grantees better meet community 
needs. Despite receiving only a small share of FVPSA funds, these 
programs ensure a coordinated response to domestic violence, address 
emerging issues, provide technical assistance to FVPSA grantees, train 
community members, and meet the needs of underserved communities.
    The impact of FVPSA State Formula grants is phenomenal. The 
flexible, consistent funding provided by FVPSA has helped millions of 
victims find safety for themselves and their children. In fiscal years 
2007 and 2008 almost 600,000 adults and children found safety in FVPSA 
shelters. Research shows that shelter programs are among the most 
effective resources for victims with abusive partners\7\ and that 
staying at a shelter or working with a domestic violence advocate 
significantly reduced the likelihood that a victim would be abused 
again and improved the victim's quality of life.\8\ These programs keep 
children and their non-abusive parents safe and allow families to 
rebuild their lives after crisis. A recently released multi-state study 
which shows conclusively that the nation's domestic violence shelters 
are addressing both urgent and long-term needs of victims of violence 
and are helping victims protect themselves and their children.\9\
    DELTA Grants In addition to supporting emergency services through 
local programs and shelters, FVPSA includes Demonstration Grants for 
Community Initiatives (also known as DELTA grants, administered by the 
Centers for Disease Control and Prevention) to expand community-based 
primary prevention that address the underlying causes of domestic 
violence in order to stop abuse before it starts. DELTA is one of the 
few funding sources for primary prevention work. Domestic violence 
carries a high price tag, with costs exceeding $5.8 billion each 
year,\10\ making it all the more important to stop the cycle of 
violence before it starts.
    DELTA programs are guided by the principles of preventing violence 
through evidence-based programs that are evaluated to inform future 
program planning. They use innovative strategies including peer 
education programs for men about family and relationships, community 
change initiatives focused on engaging men in prevention efforts, 
school-based education to prevent youth bullying that often carries 
into adulthood, and youth-led initiatives to prevent dating violence 
and promote healthy relationships.
    National Domestic Violence Hotline FVPSA also includes the National 
Domestic Violence Hotline, a 24-hour, confidential, toll-free hotline. 
Using a multifaceted telecommunications system, Hotline advocates 
immediately connect the caller to a service provider in his or her 
area. Highly trained Hotline advocates provide support, information, 
referrals, safety planning, and crisis intervention to hundreds of 
thousands of domestic violence victims and perpetrators. Through a 
national database, advocates can link callers to more than 5,000 local 
shelters and other service providers across the country that offer a 
wide range of services to support and respond to victims' needs. For 
many callers, their call to the Hotline is the first time they open up 
about the abusive relationship. One recent caller described how her 
abuser had forced her to quit her job and monitored all of her phone 
calls and conversations, saying ``He forced me to give up all my 
relationships aside from him. I'm completely and utterly alone. Now 
it's too late to go back to my friends and family. It's been 15 
years.'' The advocate was able to assure her that she was not alone and 
refer her to a local shelter in the area. The Hotline also provides a 
helpline for teens who are experience dating abuse.
    Since opening in 1996, the National Domestic Violence Hotline has 
received over 2 million calls from individuals in need of support and 
assistance and it now provides services in more than 170 languages. 
While the National Domestic Violence Hotline answers an average of 
21,000 calls a month, ever-increasing demand and dwindling resources 
left 42,500 calls unanswered in 2008.
Priorities for Reauthorization
    Immediate Congressional action is needed to reauthorize this 
critical legislation and continue the progress we have made toward 
ending domestic violence and protecting the lives of thousands of 
victims and their children who come forward each day for help. Our 
nation depends on FVPSA-funded programs to meet the immediate, urgent 
and long-term needs of victims of domestic violence and their children. 
We urge the Committee to prioritize the swift reauthorization of FVPSA, 
inclusive of the recommendations outlined and with an adequate funding 
authorization level. Our priorities for reauthorization include:
    1. Maintain the successful response to victims of domestic violence 
FVPSA has been intervening in and preventing domestic violence since it 
was first authorized in 1984. It funds essential services that are at 
the core of our nation's work to end domestic violence: emergency 
shelters, hotlines, counseling and advocacy, primary and secondary 
prevention--immediate crisis response and the comprehensive support to 
help victims put their lives back together. The reauthorization of 
FVPSA must continue to support this successful approach to meeting the 
needs of victims and their families.
    2. Address the unique needs of underserved and marginalized 
communities Victims from marginalized racial, ethnic and religious 
populations may not feel safe reaching out for help beyond their 
communities. To meet the needs of victims from underserved populations 
and Communities of Color, FVPSA reauthorization should:
    <bullet> Dedicate 2.5% of funding from the formula grants to meet 
the needs of victims from Communities of Color, through a program 
entitled Grants to Enhance Culturally and Linguistically Appropriate 
Services For Racial and Ethnic Approaches to Change, and include 
language throughout that supports community-based and faith based 
organizations; and
    <bullet> Include a pilot project, entitled the Grants for 
Underserved Populations and Racial and Ethnic Approaches for Change, 
which is designed to build community capacity to provide both services 
and prevention for underserved communities.
    3. Set-aside funding for specialized services for abused parents 
and their children One-half to two-thirds of the residents of domestic 
violence shelters are children, and approximately 15.5 million children 
are exposed to domestic violence each year. FVPSA currently includes a 
set-aside for services for children, but it is largely undefined. FVPSA 
reauthorization should strengthen and clarify funding for services to 
children and youth, including clarification of how such funds will be 
distributed. Domestic violence programs provide safety and support for 
children, but many struggle to meet the demand for children's services. 
They see the needs of children who are recovering from the trauma of 
witnessing or experiencing abuse and they are eager to implement new 
and expanded children's programming.
    4. Protect the confidentiality of victims It is absolutely 
essential that victims' privacy and confidentiality is addressed in the 
FVPSA reauthorization. We have recommended that the FVPSA 
confidentiality is primarily based on VAWA confidentiality provisions 
to ensure consistent administration among grantees, which often access 
both funding sources for distinct projects.
    5. Fairly distribute funding to the U.S. Territories The U.S. 
Territories of the U.S. Virgin Islands, American Samoa, Guam, and the 
Northern Mariana Islands are eligible for FVPSA funds but the 
distribution formula does not provide adequate resources for 
Territories or Territorial Coalitions. This inequality should be 
rectified by amending the relevant funding formulas.
    6. Enhance the state planning process The distribution of FVPSA 
funding should be tied to a state planning process that adequately 
addressing the unique needs of domestic violence victims, including 
those who are underserved. The state planning should be made more 
responsive and accountable to grantees, advocates and legislators 
alike.
    7. Strengthen the provision of technical assistance to help meet 
community needs FVPSA currently funds several national resource 
centers, culturally specific institutes, state coalitions, and Tribes 
to ensure a coordinated response to domestic violence and rapid 
response to emerging issues. As FVPSA makes continued progress 
addressing domestic violence, grantees and communities face new 
challenges and need access to training and technical assistance on the 
most up-to-date resources, models and research. To continue this and 
improve the provision of technical assistance, the language authorizing 
the institutes and resource centers should be restructured and combined 
with dedicated funds.
    8. Define the service population FVPSA must include distinct 
definitions for Dating Violence and Youth to ensure that all victims in 
danger can access services. In some states the definition of Domestic 
Violence does not include those who are in ``dating'' relationships or 
youth victims--yet we know that women between the ages of 16-24 
experience the highest rate of intimate partner victimization. The 
FVPSA reauthorization must ensure that technical definitions do not 
exclude those in need.
    9. Streamline and clarify FVPSA provisions The FVPSA code has been 
significantly amended 6 times over the last 25 years and is now 
difficult to interpret; language in some parts is antiquated. To 
reflect current and emerging best practice, enhance consistent 
implementation and monitoring by HHS and Congress, and make provisions 
consistent with those of the Violence Against Women Act (VAWA) 2005, we 
recommend streamlining the FVPSA statute.
    10. Expand the emphasis on prevention DELTA grants have made bold 
strides to prevent domestic violence from ever happening by changing 
community and personal attitudes about relationships and abuse. 
Community collaborations funded by DELTA have produced innovative 
models that can be adapted and replicated to strengthen domestic 
violence prevention efforts. In order to leverage the successes and 
lessons learned thus far, the DELTA grants should be statutorily 
defined and expanded to include a secondary-prevention component and 
appropriations increased to continue expansion of these valuable 
programs. DELTA grants should be authorized at $20 million.
    11. Maintain the Hotline and leverage its strengths to address teen 
dating violence When victims of domestic violence have courageously 
chosen to pick up the phone and seek help, having someone on the other 
end to answer the call and connect her resources is critical in keeping 
her and her family safe. The National Domestic Violence Hotline should 
be maintained in order to respond to the growing number of victims who 
are coming forward for help. In addition, funding should be available 
to develop and deliver specialized services to teen victims through the 
use of innovative technology. The National Domestic Violence Hotline 
should be authorized at $7 million.
Conclusion
    As a coalition of domestic violence advocates and service 
providers, we recognize the critical need to address domestic violence 
in order to keep families and communities safe. Without effective 
intervention, this violence will continue to repeat itself and impact 
successive generations. The reauthorization of FVPSA provides an 
important opportunity to continue the progress that has made toward 
meeting the needs of domestic violence victims and breaking the cycle 
of violence affecting our children, families and communities. We look 
forward to working with the Subcommittee to reauthorize this critical 
legislation and continue progress toward ending domestic violence.
                                endnotes
    \1\ Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers for Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey.'' 2000.
    \2\ Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers of Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey,'' 2000. The Centers for Disease 
Control (CDC) (2008). Adverse Health Conditions and Health Risk 
Behaviors Associated with Intimate Partner Violence, United States, 
2005.
    \3\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
    \4\ National Coalition Against Domestic Violence, Detailed Shelter 
Surveys (2001).
    \5\ Domestic Violence Counts 08: A 24-hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (Jan. 2009).
    \6\ Mary Kay's Truth About Abuse. Mary Kay Inc. (May 12, 2009).
    \7\ See: Bennett, L., Riger, S., Schewe, P., Howard, A., & Wasco, 
S. (2004). Effectiveness of hotline, advocacy, counseling and shelter 
services for victims of domestic violence: A statewide evaluation. 
Journal of Interpersonal Violence, 19(7), 815-829; Bowker, L. H., & 
Maurer, L. (1985). The importance of sheltering in the lives of 
battered women. Response to the Victimization of Women and Children, 8, 
2-8; Gordon, J. S. (1996). ``Community services for abused women: A 
review of perceived usefulness and efficacy.'' Journal of Family 
Violence 11(4): 315-329; Sedlak, A. J. (1988). Prevention of wife 
abuse. In V. B. Van Hasselt, R. L. Morrison, A. S. Bellack, & M. Hersen 
(Eds.), Handbook of Family Violence (pp. 319-358). NY: Plenum Press; 
Straus, M. A., Gelles, R. J., & Steinmetz, S. K. (1980). Behind closed 
doors: Violence in the American family. NY: Anchor Press; Tutty, L. M., 
Weaver, G., & Rothery, M. (1999). Residents' views of the efficacy of 
shelter services for assaulted women. Violence Against Women, 5(8), 
898-925.
    \8\ See: Berk, R. A., Newton, P. J., & Berk, S. F. (1986). What a 
difference a day makes: An empirical study of the impact of shelters 
for battered women. Journal of Marriage and the Family, 48, 481-490; 
Bybee, D.I., & Sullivan, C.M. (2002). The process through which a 
strengths-based intervention resulted in positive change for battered 
women over time. American Journal of Community Psychology, 30(1), 103-
132; Constantino, R., Kim, Y., & Crane, P.A. (2005). Effects of a 
social support intervention on health outcomes in residents of a 
domestic violence shelter: A pilot study. Issues in Mental Health 
Nursing, 26, 575-590; Goodkind, J., Sullivan, C.M., & Bybee, D.I. 
(2004). A contextual analysis of battered women's safety planning. 
Violence Against Women, 10(5), 514-533; Sullivan, C.M. (2000). A model 
for effectively advocating for women with abusive partners. In J.P. 
Vincent & E.N. Jouriles (Eds.), Domestic violence: Guidelines for 
research-informed practice (pp. 126-143). London: Jessica Kingsley 
Publishers; Sullivan, C.M., & Bybee, D.I. (1999). Reducing violence 
using community-based advocacy for women with abusive partners. Journal 
of Consulting and Clinical Psychology, 67(1), 43-53.
    \9\ Lyon, E., Lane S. (2009). Meeting Survivors' Needs: A Multi-
State Study of Domestic Violence Shelter Experiences. National Resource 
Center on Domestic Violence and UConn School of Social Work. Found at 
http://www.vawnet.org.
    \10\ Costs of Intimate Partner Violence Against Women in the United 
States. (2003). Centers for Disease Control and Prevention, National 
Centers for Injury Prevention and Control. Atlanta, GA.
                                 ______
                                 

Prepared Statement of Matthew Melmed, Executive Director, Zero to Three

    Madam Chairwoman and Members of the Subcommittee: I am pleased to 
submit the following testimony on best practices for the prevention of 
child abuse and neglect as well as strengthening responses for those 
families already touched by child maltreatment. My name is Matthew 
Melmed. For the last 14 years I have been the Executive Director of 
ZERO TO THREE, a national non-profit organization that has worked for 
over 30 years to advance the healthy development of America's babies 
and toddlers. I would like to start by thanking the Subcommittee for 
all of its work to ensure that our nation's infants and toddlers are 
safe. I commend you and the Subcommittee for tackling this difficult, 
yet extremely important issue.
    I would like to start by addressing the effects of abuse and 
neglect on infants and toddlers and offer two sets of recommendations 
(prevention and treatment) for your consideration as you look at 
systemic changes to the way in which child abuse is addressed by this 
nation.
Vulnerability of Infants and Toddlers to Abuse and Neglect
    Unfortunately, children between birth and three years of age have 
the highest rates of abuse and neglect in the United States.\1\ 
Specifically, although infants only account for 5.6% of the child 
population, they represent double that percent of all child 
maltreatment victims.\2\ In fact, infants are over four times more 
likely to enter foster care than children of all other ages. Infants 
and toddlers are particularly at risk, not only because they are 
physically vulnerable, but also because of the important brain 
development occurring during this period of life.
    We know from the science of early childhood development that 
infancy and toddlerhood are times of intense intellectual 
engagement.\3\ A child's first years set the stage for all that 
follows. During this time the brain undergoes its most dramatic 
development, and children acquire the ability to think, speak, learn, 
and reason. Future development in key domains--social, emotional, and 
cognitive--is based on the experiences and relationships formed during 
these critical years.
    Contrary to the once-held belief that very young children do not 
remember, and therefore experience no lasting effects from 
maltreatment, infants and toddlers are extremely vulnerable to its 
long-lasting consequences. Research shows that young children who have 
experienced physical abuse have deficits in IQ scores, language 
ability, and school performance, even when the effects of social class 
are controlled.\4\ Furthermore, physical abuse extracts a substantial 
toll on young children's social adjustment, as seen in elevated levels 
of aggression that are apparent even in toddlers.\5\ The effects of 
maltreatment are not just seen in children who are abused, however. 
Neglected children may also exhibit a variety of emotional and 
behavioral problems as well, including: poor coping skills, high levels 
of dependence, self-abusive behaviors, unresponsiveness to affection, 
lethargy, low academic achievement, fewer interactions with peers, and 
unusual sleeping and eating patterns.\6\ Long-term negative outcomes of 
abuse and neglect include school failure, juvenile delinquency, 
substance abuse, and the continuation of the cycle of maltreatment into 
new generations. In fact, one third of the individuals who are abused 
and neglected as children can be expected to abuse their own 
children.\7\
    The effects of abuse and neglect are not just a bad memory, but 
affect the developing brain architecture in the young child--effects 
that we can actually see in Figure 1. This figure compares the PET scan 
of the brain of a healthy child (left) with that of an abused and 
neglected child in a Romanian orphanage (right). The brain of the 
healthy child shows high activity (depicted in red) in the temporal 
lobes. In contrast, the scan of the Romanian orphan shows very little 
activity in these areas which are responsible for regulating emotions 
and receiving input from the senses. Furthermore, the abused and 
neglected brain has smaller brain volume, larger fluid-filled cavities, 
and smaller areas of connection.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 1.--Image reproduced with permission. Harry Chugani, M.D., 
                    Children's Hospital of Michigan.

    Although the developmental impact of child abuse and neglect is 
greatest among the very young, research confirms that the early years 
present an unparalleled window of opportunity to effectively intervene 
with at-risk children. Intervening in the early years can lead to 
positive outcomes (e.g., secure attachments, healthy relationships, 
school success, etc.) and significant cost savings over time through 
reductions in child abuse and neglect, criminal behavior, welfare 
dependence, and substance abuse. It is critical that child well-being 
be the first priority in all child abuse and neglect cases.
The Effects of Fetal Alcohol Spectrum Disorders
    I particularly want to call the Subcommittee's attention to a 
condition that is a perennial problem, but often overlooked. Experts 
estimate that one out of every one hundred US citizens is a victim of 
Fetal Alcohol Spectrum Disorders (FASD), an array of physical 
disabilities that is 95% under-diagnosed.\8,9\ Although very little 
research has been done to document the prevalence of FASD among 
children in the child welfare and juvenile justice systems, one study 
suggests that almost one in four children in the juvenile justice 
system is a victim of it.\10\
    The brain damage caused by prenatal exposure to alcohol results in 
poor judgment, impulsivity, difficulty learning from experience and an 
inability to foresee the consequences of one's behavior. Furthermore, 
children born with FASD are frequently premature and low birth weight, 
both of which are risk factors for healthy development.\11\ Infants and 
toddlers in particular can be delayed in reaching developmental 
milestones, hyperactive, easily over-stimulated,\12\ and victims of 
failure to thrive.\13\ Consequently, academic failure and social 
impairments are common in childhood.
    While policies often focus on illegal substance use and abuse, very 
little attention is given to legal substances such as alcohol and its 
effects on the healthy development of infants and toddlers. As with 
child abuse and neglect, intervening early can and does make a 
difference, both in terms of child development and in economic costs to 
society. In fact, children who are diagnosed before the age of six are 
much more likely to succeed in school, careers, and personal 
relationships.\14\ In order to prevent developmental delays resulting 
from FASD down the road, we must look beyond the limited focus on 
illegal substances and include screening to detect FASD in infants.
Preventing Child Abuse and Neglect
    In thinking about approaches to preventing child abuse and neglect, 
we must recognize that efforts to reach this goal often will not be 
labeled as child abuse prevention and, in fact, lie largely outside the 
formal child welfare system. Prevention means reaching out to families 
with risk factors and their accompanying stressors to connect them with 
comprehensive services that work to reduce the stress and promote the 
healthy early development of their young children. Except for a few 
narrowly targeted initiatives, there is no such thing as a separate 
program to prevent child abuse, another to promote cognitive 
development, another to help parents be better parents, and yet another 
to address social and emotional needs. For the very young child, 
especially, all aspects of development are inextricably intertwined and 
must be addressed as such.
    I want to note that child maltreatment, in particular, does not 
occur only in low-income families. All parents need support in 
nurturing their children, just as all babies need supportive 
relationships to promote healthy development. But some families and 
their children are more at-risk because of poverty, substance abuse, 
precarious housing or nutritional situations, or lack of education, 
just to name a few hazards. We need to ensure that families who face 
multiple risk factors are connected to appropriate services in the 
community before abuse and neglect occur. In other words, there is not 
a separate category of families in which abuse and neglect occurs. 
These are the same families to whom we direct other early childhood 
interventions. So I encourage you to think broadly about expanding 
comprehensive solutions for early childhood development and family 
support in which preventing abuse and neglect will be a natural 
byproduct of connecting families to an array of resources.
    While the bulk of funds to provide such services will not come from 
the Child Abuse Prevention and Treatment Act (CAPTA) or other child 
welfare funding streams, the limited funds available through Title II 
of CAPTA can be instrumental in developing mechanisms and promoting 
systems change to integrate services outside the child welfare system 
to meet the needs of at-risk children and families, provide outreach to 
those families, and help in accessing services.
    I also want to emphasize the importance of social and emotional 
development in young children, which forms the foundation for later 
learning, and the mental health problems that can occur even when no 
abuse or neglect is pinpointed. Early social and emotional development 
is vulnerable to such factors as repeated exposure to violence, 
persistent fear and stress, abuse and neglect, severe chronic maternal 
depression, biological factors such as genetic prematurity and low 
birth weight, poverty, and conditions associated with prenatal 
substance abuse.
    Healthy development occurs within the context of the family. 
Supportive early relationships can protect against the effects of 
stress and biological hazards beginning even prenatally. Therefore, 
problems with social and emotional development that occur in a young 
child need to be addressed using approaches that focus on the child's 
interaction with the caregiver. Neurons to Neighborhoods cites programs 
such as the Family Development Service Program in Los Angeles, where 
researchers ``documented that a relationship-based intervention can 
have a significant impact on parent-child interaction and on the 
infant's security of attachment.'' Another program cited is the Infant-
Parent Psychotherapy Program in San Francisco that emphasizes 
intergenerational patterns of attachments and helps the mother cope 
with life issues outside the family.\15\
                   prevention policy recommendations
Create a Broad and Comprehensive Policy that Supports Vulnerable 
        Children and Families
    I encourage the Subcommittee to consider building an integrated 
approach to addressing the needs of very young children and their 
families that would encompass outreach and support for parents, high 
quality early care and education, and supports for the professionals 
who serve them. In addition, we need the ability to better employ the 
tools that can identify children at-risk for problems that are more 
difficult to spot at a young age, but where early intervention can save 
both heartache and dollars at a later age. Some specific steps include:
    1. Providing increased access to high quality family support 
programs by:
    a. Expanding funding for Early Head Start, a program proven 
effective in reaching families with infants and toddlers and in 
promoting good parenting practices and healthy child development. 
Comprehensive early childhood programs, such as Early Head Start, that 
combine early learning experiences, parent support, home visitation, 
and access to medical, mental health and early intervention services 
can provide the specialized services that very young children in the 
child welfare system need. Results from the Congressionally-mandated 
Early Head Start Research and Evaluation Project--a rigorous, large-
scale, random-assignment evaluation--concluded that parents who 
participated in Early Head Start had more positive interactions with 
their children than control group parents--they showed greater warmth 
and supportiveness, less detachment, more parent-child play 
interactions, more stimulating home environments, and less spanking by 
both mothers and fathers.\16\
    While the American Recovery and Reinvestment Act provided 
additional funds for Early Head Start, even with that infusion of 
funding, we still will only reach six percent of eligible infants and 
toddlers. Increased funding to quadruple the size of Early Head Start, 
as the President pledged, will ensure that we reach the most at-risk 
infants and toddlers early in life when we have the best opportunity to 
reverse the trajectory of poor development that can occur in the 
absence of such supports. It will also help us ensure that parents have 
the supports they need to sufficiently nurture the healthy development 
of their infants and toddlers. Although it is the role of the 
appropriators to increase funding for Early Head Start, this 
Subcommittee can work to ensure that the authorizers and appropriators 
understand the importance of programs such as Early Head Start in 
reaching the most at-risk infants and toddlers.
    b. Expanding funding to support other comprehensive approaches that 
reach out to families with young children. Some communities use 
programs that deliver parent support and early childhood services 
through home-based models. These home visiting programs offer 
information, guidance, and support directly to families in their home 
environments, eliminating many of the scheduling, employment, and 
transportation barriers that might otherwise prevent families from 
taking advantage of necessary services. While home visiting programs, 
such as Healthy Families America, the Nurse-Family Partnership, the 
Parent-Child Home Program, and Parents as Teachers, share similar 
overall goals of enhancing child well-being and family health, they 
vary in their program structure, specific intended outcomes, content of 
services, and target populations. Program models also vary in the 
intensity of services delivered, with the duration and frequency of 
services varying based on the child's/family's needs and risks.
    A growing body of research demonstrates that home visiting programs 
that serve infants and toddlers, can be an effective method of 
delivering family support and child development services, particularly 
when services are part of a comprehensive and coordinated system of 
high quality, affordable early care and education, health and mental 
health, and family support services for families prenatally through 
pre-kindergarten. Research has shown that high quality home visiting 
programs serving infants and toddlers can increase children's school 
readiness, improve child health and development, reduce child abuse and 
neglect, and enhance parents' abilities to support their children's 
overall development.\17\ The benefits of home visiting, however, vary 
across families and programs. What works for some families and in some 
program models will not necessarily achieve the same success for other 
families and other program models.
    Expanding access to evidence-based home visiting programs is one 
strategy in the prenatal to pre-kindergarten continuum which can help 
prevent long-term costs associated with remediating the effects of 
maltreatment while promoting healthy social and emotional development 
in later years. However, it is important to connect home visiting 
efforts with other child and family services, particularly those 
focused on children's well-being and healthy development, to help 
ensure that young children and their families have the supports they 
need to promote healthy outcomes.
    2. Increasing access to preventive and treatment services for 
families affected by substance abuse, including screening of children 
for FASD. Millions of children and families are impacted by the growing 
epidemic of substance abuse. In fact, an estimated 11 percent of all 
children live in families where one or more parents abuse alcohol or 
other drugs.\18\ This issue is even more pressing for families in the 
child welfare system where up to 80 percent of children are affected by 
substance abuse.\19\ Families need access to a community-based, 
coordinated system of comprehensive family drug andalcohol treatment. 
Prevention and treatment services should include: prevention and early 
intervention services for parents at-risk of substance abuse; a range 
of comprehensive treatment options including home-based, outpatient, 
and family-oriented residential treatment options; aftercare support 
for families in recovery; and preventive and early intervention 
services for children that address their mental, emotional, and develop
    In addition, given the heightened risk of FASD for children in the 
child welfare system, we must adopt useful screening strategies for 
children who come to the attention of child protective services staff. 
Many affected children will be born into families with severe 
dysfunction, substance abuse and long histories of parenting failure. 
Screening infants and children entering child protective services 
caseloads, and especially those in foster care, would link high risk 
children with appropriate treatment services. Currently, only children 
exposed to illegal substances are screened and referred for services 
despite the more devastating effects of legal substances such as 
alcohol.
    It is also critical to recognize that many parents who maltreat 
their children do so as a result of the organic brain dysfunction 
caused by FASD. Behavioral deficits include: impulsive behavior, an 
inability to plan and remember commitments (e.g. the child's antibiotic 
regimen) from one day to the next, and emotional volatility. Some 
states recognize FASD as an adult disability and provide case 
management and disability payments. With this kind of support, FASD 
victims have a much greater likelihood of successfully carrying out the 
tasks of daily living, including their parenting responsibilities. The 
focus on screening we recommend for young children should include 
screening for their parents as well.
    3. Increasing access to parent-child therapy by allowing 
reimbursement through Medicaid for dyadic/relational therapy for at-
risk families and funding research into promising approaches. 
Currently, not all states allow reimbursement through Medicaid for 
therapy provided to parents and infants or toddlers together. Such 
therapy is often effective, because the mental health of parents and 
very young children are so closely interrelated. In a recent study 
among mother-child pairs where there was a history of domestic 
violence, not only was the therapy effective in improving the parent-
child relationship and the child's behavioral symptoms, but the 
intervention had a positive effect on the mother's mental health.\20\
    The proposed modification would allow infants and toddlers, who 
health practitioners find are at high risk for developing mental health 
disorders, to receive a referral for a full diagnostic evaluation. The 
referral would be made for both the young child and parents using a 
developmentally appropriate diagnostic tool such as the Diagnostic 
Classification of Mental Health and Developmental Disorders of Infancy 
and Early Childhood Revised (DC:0-3R). Current diagnostic tools such as 
the Diagnostic and Statistical Manual of Mental Disorders (DSM-IV-TR) 
and the International Classification of Diseases (ICD-10) do not 
comprehensively cover the mental health issues of infants, toddlers, 
and their parents. A comprehensive classification tool such as DC:0-3R 
will allow professionals to identify, understand, and treat mental 
health problems, relational issues, and developmental disorders of very 
young children at an early stage and prevent problems from worsening.
    In addition, while some approaches to parent-child therapy have 
been tested as noted above, more research and demonstrations are needed 
to advance our understanding of how best to improve parenting skills 
and repair damage to social and emotional development in infants and 
toddlers. The Subcommittee could play a critical role by financing such 
research. Too often, parents are simply sent to parenting classes that 
may not help them understand and experience how best to interact with 
their children and support their healthy development.
Improving Responses to Families Already Touched by Child Maltreatment
    I have already noted the highly detrimental effects of maltreatment 
on the development of infants and toddlers. We know all too well that 
the circumstances that often surround a family where abuse or neglect 
has occurred do not bode well for the child's development, and we also 
know that the relationships that support this development, once gone 
awry, do not heal themselves. Much of the CAPTA statute focuses on the 
legal system for dealing with these cases and has indeed led to a great 
deal of progress in helping states ensure the physical safety of 
children. But we need to pay greater attention to the developmental 
needs of the children involved and the needs of their families--in 
other words, to the treatment part of the program.
    Our Child Protective Services (CPS) system needs to recognize the 
critical nature of the early years for child development and have 
procedures in place to move quickly to address the damages of 
maltreatment and the needs of infants and toddlers and their families. 
Such procedures must start with training for all involved in the legal 
side of the system--CPS workers, Guardians Ad Litem, judges and other 
court personnel--about early childhood development. In their 
professional training, these key people are not taught about how young 
children develop and the importance of acting to keep that development 
on track. ZERO TO THREE's experience with its Court Teams for 
Maltreated Infants and Toddlers project, which focuses on children in 
the foster care system and is discussed in more detail under 
Recommendation #1 below, has been instructive in learning how important 
such knowledge can be. It can literally change how staff and judges 
approach their decisions regarding young children.
    The second need is services for children and families and quick 
linkage to them when a family comes into the child welfare system. We 
know that the levels of services such as mental health and special 
education among children in the child welfare system have historically 
been low. As with preventive services, workers at the treatment stage 
need the ability to connect children and families with a variety of 
services. Again, the Court Teams initiative creates a ``team'' of 
service providers in the community who ensure that the children and 
parents being supported by the local Court Team receive necessary 
services. Formation of the teams has brought together providers in 
communities, many of whom had not been involved with this population 
before. In some instances, forming the teams has revealed services of 
which child welfare workers were not aware. For example, the 
requirement in the 2003 CAPTA reauthorization that all infants and 
toddlers be referred for assessment under Part C of the Individuals 
with Disabilities Education Act was a huge step in seeking to meet the 
developmental needs of young children. However, states are still 
grappling with how to implement and fund this linkage and many child 
welfare workers, themselves, are unaware of the Part C early 
intervention requirements. I urge the Subcommittee to focus on how to 
ensure the connection between these two systems can be made more 
feasible.
    Third, an increase in mental health services that address the needs 
of parents and children together, as discussed under prevention 
efforts, is extremely important in the context of treating child abuse 
and neglect. The whole area of infant/early childhood mental health is 
often overlooked, but addressing the mental health needs of both child 
and family is one of the keys to healing families and preventing future 
child maltreatment.
    Clearly, there is a great deal of overlap in services for at-risk 
families to prevent child abuse and neglect and those where abuse and 
neglect are known to have occurred. I encourage the Subcommittee to 
explore approaches such as differentiated response that seek to connect 
families to services no matter what their CPS status.
    Finally, the treatment of abuse and neglect continues after 
children are removed from home and placed in foster care, although this 
part of the child welfare system is generally addressed through the 
programs in Part IV of the Social Security Act. Additional policies 
must be implemented to ensure adequate services are in place for 
children once they enter foster care.
    Infants and toddlers are removed from home at higher rates than 
older children precisely because they are so vulnerable to the effects 
of abuse and neglect. In fact, infants are the largest group of 
children entering foster care in the United States, accounting for 1 in 
5 admissions.\21\ Once they have been removed from their homes and 
placed in foster care, infants and toddlers are more likely than older 
children to be abused and neglected and to stay in care longer.\22\ In 
addition, half of all babies who enter foster care before age 3 months 
spend 31 months or longer in placement.
    Coupled with these alarming statistics is the fact that a young 
child's removal from his or her home adds additional layers of 
complexity to the initial trauma of maltreatment. Separation from a 
child's primary caregiver(s) can cause anxiety, distress, and 
additional trauma. For these reasons, we must pay particular attention 
to ensuring that developmentally appropriate services and family 
connections are available during this critical time in a child's life.
                    treatment policy recommendations
    1. Requiring training for child protective services staff and other 
personnel involved with children in the child welfare system around the 
unique needs of infants and toddlers. There is a wealth of scientific 
knowledge available about very early child development which should be 
used to make informed decisions about babies in the child welfare 
system. However, child welfare workers are overburdened and do not have 
the time or means to seek the training that would provide them with 
this scientific knowledge base. Congress should provide grants to 
states to enable them to develop and provide training for child welfare 
workers and other staff (including Guardians Ad Litem, court personnel, 
mental health specialists, child care providers, Early Head Start 
teachers and early intervention specialists) around the developmental 
needs of infants and toddlers who have been abused or neglected and the 
steps that need to be taken to address these needs.
    In addition, while training is important in providing the initial 
exposure to information, ongoing technical assistance is critical if 
the training information is to be applied in real life. Like any 
bureaucracy, child welfare agencies have developed protocols and 
guiding assumptions over the decades. Much of the knowledge of infant/
toddler development is new and challenges prevailing practices in the 
field of child welfare (e.g., sibling relationships always trump the 
child's relationship with the foster parent, etc.). Changing long held 
opinion in bureaucratic settings is extremely difficult. Developing a 
mechanism to provide consultation to caseworkers on cases involving 
infants and toddlers will allow them to reflect on decisions that may 
otherwise be made without grounding in the child's best interests.
    One example of innovation in this area is ZERO TO THREE's Court 
Teams project for children in foster care. Under the leadership of a 
juvenile or family court judge, the Court Team model works to increase 
awareness among court personnel and community providers about the 
negative impact of abuse and neglect on very young children and to 
change local systems to improve outcomes and prevent future court 
involvement in the lives of very young children in the child welfare 
system. Preliminary data and anecdotal evidence suggest that the Court 
Teams project is having a positive effect on children and families, 
including: reducing the number of times maltreated infants and toddlers 
move from one foster home to another, increasing visits between parents 
and their young children in foster care, providing critical health and 
developmental screenings, increasing placements with relatives, 
expediting and enhancing services to parents to facilitate 
reunification, and reducing the time to permanency.
    2. Ensuring access to early intervention services (Part C of the 
Individuals with Disabilities Education Act) for children three and 
younger. Amendments to CAPTA in 2003 required states to develop 
procedures to ensure that all children 0-3 who are involved in a 
substantiated incident of abuse or neglect are referred to Part C early 
intervention services. The IDEA amendments of 2004 also required Part C 
services for all children who have been maltreated or exposed 
prenatally to illegal substances or domestic violence. Under Part C, 
all participating states and jurisdictions must provide early 
intervention services to any child below 3 who is experiencing 
developmental delays or has a diagnosed physical or mental condition 
that has a high probability of resulting in a developmental delay. In 
addition, states may choose to provide services for babies and toddlers 
who are ``at-risk'' for serious developmental problems, defined as 
circumstances (including biological or environmental conditions or 
both) that will seriously affect the child's development unless 
interventions are provided.
    Despite the promise it holds for the future, there is wide 
variation in the percentage of infants and toddlers enrolled in Part C 
programs across states. Currently, states carry a significant burden to 
fund Part C programs, in part, because of inadequate federal funding. 
The result is that many eligible infants and toddlers do not receive 
the early intervention services they desperately need in order to reach 
their full potential in school and in life. Congress should provide 
incentives and adequate funding for states to increase access to early 
intervention screening and Part C services for infants and toddlers in 
foster care. Early intervention services under Part C may prevent or 
minimize the need for more costly services under Part B of IDEA or even 
later in a child's life.
    3. Adding infants affected with FASD to the policies and procedures 
CAPTA requires states to have in place to identify and address the 
needs of infants born with and affected by illegal substance abuse. 
Infants and toddlers in the child welfare system have ongoing risk 
factors that predispose them to developmental delays. While 
developmental delays are often present in young children with FASD, 
currently, FASD is not included among the eligibility criteria for Part 
C services. It is critical to screen for FASD specifically because it 
is a lifelong chronic condition requiring management rather than a 
developmental delay that can be corrected. As mentioned earlier, when 
children are screened for FASD and determined in need of early 
intervention services, those services should be allowable under Part C.
    4. Increasing access to parent-child therapy by allowing 
reimbursement through Medicaid for dyadic/relational therapy for at-
risk families and funding research into promising approaches. This 
approach is discussed under the Prevention section above, but I want to 
reiterate its importance for families where maltreatment has occurred. 
CAPTA could be an important source of funding to develop and/or 
disseminate promising approaches for this type of therapy.
    5. Requiring (under Title IV-B of the Social Security Act) that the 
Department of Health and Human Services promulgate guidelines for 
states for the care of infants and toddlers in the child welfare 
system, including:
    a. Visitation standards and developmentally appropriate visitation 
practices for infants and toddlers in out-of-home care. One of the 
major challenges faced by young children in foster care is developing 
nurturing relationships with their parents. Standard visitation 
practice permits one visit each week. In practice, however, visits 
occur less than once a week. Parent-child contact consists of brief 
encounters at the child welfare agency. For very young children, 
infrequent visits are not enough to establish and maintain a healthy 
parent-child relationship. For parents, visits often become yet another 
forum where they feel judged and incompetent. Research indicates that 
visitation with parents and siblings is not only highly correlated with 
better child functioning at discharge from foster care, but also allows 
children to leave foster care in much higher numbers and more 
quickly.\23\
    Parental visitation can and should be looked at strategically. 
Visits can play an important role in concurrent planning (pursuing two 
permanency options simultaneously--reunification and adoption) and can 
be used to assess the parent-child relationship and how the family is 
progressing. The frequency and success of visits between children and 
parents can provide a caseworker with evidence for either movement to 
an alternative plan for the child or movement for early reunification. 
Visits should occur frequently, in a safe setting that is comfortable 
for both parent and child, and should last long enough for a positive 
relationship to develop and strengthen. CAPTA can provide a framework 
for enhancing the visitation experience by providing support and 
coaching to improve future visits for all involved. Standard practice 
must shift from a CPS worker sitting in the corner observing to an 
engaged and supportive visit coach who helps the parent plan the time 
with his/her child(ren), handle the actual visit, and reflect afterward 
on how well the visit went.
    b. Minimizing multiple placements while in out-of-home care. In the 
first year of life, babies need to have the opportunity to develop a 
close, trusting relationship or attachment with one special person. The 
ability to attach to a significant caretaker is one of the most 
important emotional milestones a baby needs to achieve in order to 
become a child who is trusting, confident, and able to regulate his or 
her own stress and distress. For babies in foster care, forming this 
secure attachment is difficult. Multiple foster care placements present 
a host of traumas for very young children. When a baby faces a change 
in placement, fragile new relationships with foster parents are 
severed, reinforcing feelings of abandonment and distrust. Even very 
young babies grieve when their relationships are disrupted and this 
sadness adversely effects their development. All placement decisions 
should focus on promoting security and continuity for infants and 
toddlers in out-of-home care.
    Guidelines should be developed for states on how to minimize 
multiple placements for infants and toddlers in out-of-home care. For 
example, a state may decide to develop foster-adopt homes for infants 
who come into the child welfare system so that if the birth parents 
cannot successfully regain custody of the child, the child will not be 
moved again. States should have a system for tracking the number of 
moves an infant makes while in foster care. When a change in placement 
is necessary, child welfare workers and foster parents should receive 
training on how to handle transitions with infants and toddlers so the 
children have the opportunity to get to know their new caregivers 
before leaving the security they have gained in the care of their 
current caregiver.
    c. Promoting timely permanent placements for infants and toddlers 
in foster care.
    During the earliest years of a child's life--a time when growth and 
development occur at a pace far exceeding that of any other period of 
life--time goes by quickly. Babies can drift for years in foster care. 
They need stable loving parents as soon as possible. Standard child 
welfare practice is to seek reunification over the course of months or 
years, and only when it is clear that the birth parents are not able to 
regain custody of their children, is an alternative permanency 
arrangement sought. In the meantime, the babies have grown up in a 
series of foster homes and have suffered developmental damage they will 
carry with them throughout their lives. All members of the family's 
team need to understand concurrent planning right from the start as the 
legal way to make sure that a child is in a permanent home as quickly 
as possible.
    6. Requiring state child welfare agencies to include in their state 
plans a description of their approach to addressing the specific needs 
of infants and toddlers. Infants and toddlers in foster care have needs 
that are very different from older children. They also move through the 
child welfare system in ways that are very different from older 
children--they stay in care longer, they are less likely to be 
reunified with their parents and they are more likely to be abused and 
neglected while in foster care. State child welfare agencies should 
address the unique needs of infants and toddlers in their state plans, 
with a detailed description of their approach to dealing with issues 
for babies in foster care such as reducing multiple foster care 
placements, assuring regular visitation with biological parents, 
ensuring that all infants and toddlers have access to early childhood 
and family mental health services, addressing the effects of trauma and 
separation on infants and toddlers, and promoting interventions that 
support their healthy development across all domains.
Conclusion
    We must ensure that infants and toddlers are healthy and safe. 
During the first years of life, children rapidly develop foundational 
capabilities--cognitive, social and emotional--on which subsequent 
development builds. The amazing growth that takes place in the first 
three years of life creates vulnerability and promise for all children. 
These years are even more important for maltreated infants and 
toddlers. We know from the science of early childhood development what 
infants and toddlers need for healthy social, emotional and cognitive 
development. We also know that maltreated infants and toddlers are at 
great risk for poor outcomes. We must continue to seek support for 
services and programs that ensure that our nation's youngest and most 
vulnerable children are safe, and that promote and improve their 
emotional, social, cognitive and physical health and development.
    Policies and funding must be directed to preventing harm to all 
children and reducing further harm to maltreated children. I urge the 
Subcommittee to make the investment to support and protect our nation's 
most vulnerable children and their families.
    Thank you for your time and for your commitment to our nation's at-
risk infants and toddlers.
                                endnotes
    \1\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. (2009) Child Maltreatment 2007, 
Washington, DC: U.S. Government Printing Office, Table 3-6.
    \2\ Ibid.
    \3\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \4\ Ibid.
    \5\ George, C., and Main, M. (1995). ``Social interactions of young 
abused children: Approach, avoidance, and aggression.'' Child 
Development, (50)2, pp. 306-318.
    \6\ Children's Bureau. (2006) Child Neglect: A guide for 
prevention, assessment and intervention. Child Welfare Information 
Gateway. http://www.childwelfare.gov/can/impact/types/neglect.cfm 
(accessed June 30, 2008).
    \7\ National Research Council. (1993). Understanding child abuse 
and neglect. p. 223.
    \8\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development.
    \9\ Kelly, K. (2005). The importance of early identification of 
Fetal Alcohol Spectrum Disorder (FASD). The Judges' Page Newsletter. 
National CASA/National Council of Juvenile and Family Court Judges. 
http://www.nationalcasa.org/download/Judges--Page/0502--parental--
substance--abuse--issue--0036.pdf (accessed March 12, 2007).
    \10\ Fast, D.K., Conrey, J., Loock, C.A. (1999). ``Brief reports: 
Identifying Fetal Alcohol Syndrome among youth in the criminal justice 
system.'' Developmental and Behavioral Pediatrics (20)5.
    \11\ Jernell, J., Wanninger, M., Brodsky, L., Atherly, E., Caros, 
L., Chang, P., Coder, S., et al. (1999). Guidelines of care for 
children with special health care needs: Fetal Alcohol Syndrome and 
fetal alcohol effects. St. Paul, MN: Minnesota Department of Health.
    \12\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development.
    \13\ Jernell, J., Wanninger, M., Brodsky, L., Atherly, E., Caros, 
L., Chang, P., Coder, S., et al. (1999). Guidelines of care for 
children with special health care needs: Fetal Alcohol Syndrome and 
fetal alcohol effects.
    \14\ Kelly, K. (2005). The importance of early identification of 
Fetal Alcohol Spectrum Disorder (FASD). The Judges' Page Newsletter. 
National CASA/National Council of Juvenile and Family Court Judges. 
http://www.nationalcasa.org/download/Judges--Page/0502--parental--
substance--abuse--issue--0036.pdf (accessed March 12, 2007).
    \15\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development.
    \16\ U.S. Department of Health and Human Services, Administration 
for Children and Families. 2002. Making a difference in the lives of 
infants and toddlers and their families: The impacts of Early Head 
Start. http://www.acf.hhs.gov/programs/opre/ehs/ehs--resrch/reports/
impacts--exesum/impacts--execsum.pdf (accessed October 23, 2006).
    \17\ Elizabeth DiLauro, Reaching Families Where They Live: 
Supporting Parents and Child Development through Home Visiting. 
Washington, DC: ZERO TO THREE, 2009.
    \18\ Child Welfare League of America. 2004 Children's legislative 
agenda. Substance abuse, families and recovery. www.cwla.org/advocacy/
2004legagenda14.htm (accessed December 14, 2004).
    \19\ Ibid.
    \20\ Lieberman, A.F., Briscoe-Smith, A., Ippen, C.G., Van Horn, P. 
(2006). Violence in infancy and early childhood: Relationship-based 
treatment and evaluation. In A.F. Lieberman & R. DeMartino (Eds). 
Interventions for Children Exposed to Violence. New Brunswick, NJ: 
Johnson & Johnson Pediatric Institute.
    \21\ Dicker, S., Gordon, E., Knitzer, J. (2001) Improving the odds 
for the healthy development of young children in foster care. New York: 
National Center for Children in Poverty.
    \22\ Wulczyn, F. & Hislop, K. (2002). Babies in foster care: The 
numbers call for attention. ZERO TO THREE Journal, (22) 4, 14-15.
    \23\ Hess, P. & Proch, K. (1993). Visiting: The heart of 
reunification. In B. Pine, R. Warsh, & A. Maluccio (Eds). Together 
again: Family reunification in foster care. Washington, DC: Child 
Welfare League of America.
                                 ______
                                 
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
